<html>
<title> - A STRONGER WORKFORCE INVESTMENT SYSTEM FOR A STRONGER ECONOMY</title>
<body><pre>[Senate Hearing 111-1047]
[From the U.S. Government Publishing Office]




                                                       S. Hrg. 111-1047
 
     A STRONGER WORKFORCE INVESTMENT SYSTEM FOR A STRONGER ECONOMY

=======================================================================



                                HEARING

                                 OF THE

                    COMMITTEE ON HEALTH, EDUCATION,
                          LABOR, AND PENSIONS

                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                                   ON

EXAMINING A STRONGER WORKFORCE INVESTMENT SYSTEM FOR A STRONGER ECONOMY

                               __________

                           FEBRUARY 24, 2010

                               __________

 Printed for the use of the Committee on Health, Education, Labor, and 
                                Pensions


      Available via the World Wide Web: http://www.gpo.gov/fdsys/



                  U.S. GOVERNMENT PRINTING OFFICE
55-207                    WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001




          COMMITTEE ON HEALTH, EDUCATION, LABOR, AND PENSIONS

                       TOM HARKIN, Iowa, Chairman
CHRISTOPHER J. DODD, Connecticut
BARBARA A. MIKULSKI, Maryland
JEFF BINGAMAN, New Mexico
PATTY MURRAY, Washington
JACK REED, Rhode Island
BERNARD SANDERS (I), Vermont
SHERROD BROWN, Ohio
ROBERT P. CASEY, JR., Pennsylvania
KAY R. HAGAN, North Carolina
JEFF MERKLEY, Oregon
AL FRANKEN, Minnesota
MICHAEL F. BENNET, Colorado

                                     MICHAEL B. ENZI, Wyoming
                                     JUDD GREGG, New Hampshire
                                     LAMAR ALEXANDER, Tennessee
                                     RICHARD BURR, North Carolina
                                     JOHNNY ISAKSON, Georgia
                                     JOHN McCAIN, Arizona
                                     ORRIN G. HATCH, Utah
                                     LISA MURKOWSKI, Alaska
                                     TOM COBURN, M.D., Oklahoma
                                     PAT ROBERTS, Kansas
                                       
                                       
                      Daniel Smith, Staff Director
     Frank Macchiarola, Republican Staff Director and Chief Counsel

                                  (ii)



                            C O N T E N T S

                              ----------                              

                               STATEMENTS

                      WEDNESDAY, FEBRUARY 24, 2010

                                                                   Page
Harkin, Hon. Tom, Chairman, Committee on Health, Education, 
  Labor, and Pensions, opening statement.........................     1
Carnevale, Anthony P., Research Professor and Director, 
  Georgetown University Center on Education and the Workforce, 
  Washington, DC.................................................     3
    Prepared statement...........................................     4
Enzi, Hon. Michael B., a U.S. Senator from the State of Wyoming, 
  opening statement..............................................     8
Casey, Hon. Robert P., Jr., a U.S. Senator from the State of 
  Pennsylvania...................................................    10
Carbone, Joseph M., President and CEO, The Workplace, Inc., 
  Southwestern Connecticut's Workforce Development Board, 
  Bridgeport, CT.................................................    10
    Prepared statement...........................................    13
Stalknecht, Paul, President and CEO, Air Conditioning Contractors 
  of America, Arlington, VA......................................    16
    Prepared statement...........................................    18
Feldman, Cheryl, Executive Director, District 1199C Training and 
  Upgrading Fund, Philadelphia, PA...............................    21
    Prepared statement...........................................    22
Templin, Robert, Jr., President, Northern Virginia Community 
  College (NOVA), Annandale, VA..................................    29
    Prepared statement...........................................    30
Brown, Hon. Sherrod, a U.S. Senator from the State of Ohio.......    37
    Prepared statement...........................................    39
Franken, Hon. Al, a U.S. Senator from the State of Minnesota.....    40
Reed, Hon. Jack, a U.S. Senator from the State of Rhode Island...    42

                          ADDITIONAL MATERIAL

Dodd, Hon. Christopher J., a U.S. Senator from the State of 
  Connecticut....................................................    54
Murray, Hon. Patty, a U.S. Senator from the State of Washington, 
  prepared statement.............................................    54
Bennet, Hon. Michael F., a U.S. Senator from the State of 
  Colorado, prepared statement...................................    55
Hagan, Hon. Kay R., a U.S. Senator from the State of North 
  Carolina, prepared statement...................................    56
Response by Anthony Carnevale to questions of:
    Senator Harkin...............................................    57
    Senator Enzi.................................................    61
    Senator Murray...............................................    62
    Senator Reed.................................................    63
    Senator Brown................................................    63
    Senator Hagan................................................    63
    Senator Bennet...............................................    64

                                 (iii)
  
Response by Joseph M. Carbone to questions of:
    Senator Harkin...............................................    65
    Senator Enzi.................................................    66
    Senator Murray...............................................    67
    Senator Reed.................................................    69
    Senator Hagan................................................    69
    Senator Bennet...............................................    70
Response by Paul Stalknecht to questions of:
    Senator Harkin...............................................    71
    Senator Enzi.................................................    72
    Senator Murray...............................................    72
    Senator Reed.................................................    72
    Senator Brown................................................    73
    Senator Hagan................................................    73
    Senator Bennet...............................................    73
Response by Cheryl Feldman to questions of:
    Senator Harkin...............................................    74
    Senator Enzi.................................................    76
    Senator Murray...............................................    77
    Senator Reed.................................................    78
    Senator Brown................................................    78
    Senator Hagan................................................    81
    Senator Bennet...............................................    82
Response by Robert Templin, Jr. to questions of:
    Senator Harkin...............................................    83
    Senator Enzi.................................................    86
    Senator Mikulski.............................................    86
    Senator Murray...............................................    87
    Senator Reed.................................................    88
    Senator Brown................................................    89
    Senator Hagan................................................    90
    Senator Bennet...............................................    91






     A STRONGER WORKFORCE INVESTMENT SYSTEM FOR A STRONGER ECONOMY

                              ----------                              


                      WEDNESDAY, FEBRUARY 24, 2010

                                       U.S. Senate,
       Committee on Health, Education, Labor, and Pensions,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 11:00 a.m. in 
Room SD-430, Dirksen Senate Office Building, Hon. Tom Harkin, 
chairman of the committee, presiding.
    Present: Senators Harkin, Reed, Brown, Casey, Franken, and 
Enzi.

                  Opening Statement of Senator Harkin

    The Chairman. The Health, Education, Labor, and Pensions 
Committee will come to order.
    Today, we are starting a series of hearings on the 
reauthorization of the Workforce Investment Act, which, by the 
way, has not been reauthorized since 2003, and there have been 
a lot of changes in our country, in the workforce, and in what 
we need for future economic success in this country since that 
point in time.
    I apologize. We have two votes, as you know, and I assume 
that others will be showing up here in due course. I apologize 
at the beginning. I have a healthcare meeting that I have to 
attend at 11 a.m., and the Senator from Pennsylvania, Senator 
Casey, has graciously volunteered to take over the chair when I 
have to leave, and I appreciate that very much.
    Senator Enzi, I assume, will be here very shortly.
    In his State of the Union address last month, President 
Obama made clear his commitment to getting Americans back to 
work. As he put it, job creation is ``our No. 1 focus for 
2010.''
    That is why we must act swiftly to ensure that American 
workers have the education, skills training, and supports they 
need to compete and thrive in a 21st century global job market, 
and that is why we have convened this hearing today to examine 
the future of the Workforce Investment Act, as we move toward 
reauthorization of this important program.
    I want to thank all of my colleagues on this committee, 
especially our Ranking Member, Senator Enzi, and also Senators 
Murray and Isakson, who, as chair and Ranking Member of the 
Employment and Workplace Safety Subcommittee, have shown great 
leadership over the past decade on issues relating to workforce 
development. I appreciate their work and their partnership on 
reauthorizing WIA, as we call it, the Workforce Investment Act.
    I also want to thank their staffs, who continue to work 
tirelessly and in a bipartisan fashion.
    And I thank our witnesses for being here today.
    Despite some success of the Recovery Act in jump-starting 
some economic growth, the official national unemployment rate 
remains high at just under 10 percent. In my State, it is about 
7 percent.
    In part, these harsh realities are the consequences of an 
unusually deep recession, but they also reflect a lack of 
training and education in large segments of our workforce. 
Recent studies indicate that more than 40 percent of U.S. 
workers do not have the basic skills to do their jobs. In an 
era of massive layoffs and downsizing, it is more important 
than ever that job seekers have access to the education and 
training they need to shift careers and adjust to a changing 
economy.
    Developing and maintaining a highly trained and highly 
educated workforce is paramount for our economic success. If 
businesses are unable to find workers in this country who have 
the education and training to fill the jobs of the 21st 
century, they will be compelled to look abroad to remain 
competitive, and our economy will suffer accordingly.
    Today, we will hear from experts who are working to improve 
and strengthen our Nation's workforce development system. I 
read most of the summaries of your testimonies, last evening. 
They are very good. I appreciate that.
    All of your full statements will be made a part of the 
record in their entirety, and I would hope that each of you 
would summarize them so that we can get into a discussion with 
you on that.
    I look forward to hearing about ways to encourage 
collaboration, shared accountability for the education and 
employment needs of all Americans, especially to those with 
barriers to employment. I am especially interested in what we 
do to help people with disabilities get into the workplace.
    I mentioned that we have about 10 percent unemployment in 
this country. Now, it is higher among African-Americans, higher 
among Hispanics, teens. That pales in comparison with the 
unemployment statistics among people with disabilities. About 
64 percent of people with disabilities who want to work, who 
are capable of working, are unemployed--64 percent. That ought 
to shock our conscience.
    These are people who want to work--can work with a modicum 
of support, with the help of the ADA and other things that we 
have done--who can be employed. We need to find how we can 
train them and get them equipped again to enter and advance in 
the job market of the 21st century.
    Again, I thank our expert witnesses for being here. I will 
introduce each of you as we go along. I will leave the record 
open at this point for Senator Enzi to make his opening 
statement when he arrives, if he would care to do so.
    First, we have Anthony P. Carnevale, a research professor 
and director of the Georgetown University Center on Education 
and the Workforce. Mr. Carnevale will discuss the importance of 
the workforce investment system in supporting the education and 
employment needs of job seekers, workers, and employers.
    Joseph M. Carbone--it is Carbone?
    Mr. Carbone. Yes.
    The Chairman. President and chief executive officer of The 
WorkPlace, Inc., of Connecticut. Mr. Carbone will describe his 
work to integrate workforce investment services for individuals 
with disabilities.
    Mr. Paul Stalknecht, president and CEO of Air Conditioning 
Contractors of America. Mr. Stalknecht is a business leader who 
will describe his engagement with the workforce system as a 
business owner.
    Then we have Cheryl Feldman, executive director, District 
1199C Training and Upgrading Fund at the Breslin Learning 
Center in Pennsylvania. Ms. Feldman will describe the role that 
labor can play in partnership with business to develop 
education and employment programs that lead to good jobs.
    And we have Robert Templin, president of the Northern 
Virginia Community College, NOVA. Mr. Templin will discuss the 
value of sector partnerships, those that align education and 
employment training services to the employment needs of a 
particular industry or employer, and the role that education 
should play in supporting the workforce investment system.
    I might just add, Mr. Templin, I met with some people from 
the Iowa community colleges earlier this morning, and they were 
talking about this bill and how community colleges can be 
integrated into this whole system. I look forward to hearing 
more about that, about how community colleges can be involved.
    With that, I will recognize Mr. Carnevale, who, of course, 
is no stranger to this committee and has been involved in job 
training and workforce development issues for a number of 
years.
    Again, your testimony will be made part of the record. If 
you summarize it--we will leave it at 5 minutes. If you need a 
little more than that, don't worry about it.

   STATEMENT OF ANTHONY P. CARNEVALE, RESEARCH PROFESSOR AND 
  DIRECTOR, GEORGETOWN UNIVERSITY CENTER ON EDUCATION AND THE 
                   WORKFORCE, WASHINGTON, DC

    Mr. Carnevale. One point I want to make early on is that I 
think, and I think most people agree, we are in the early 
phases of a recovery. I think, when all is said and done, the 
National Bureau of Economic Research will say that the 
recession officially ended in November or December of this past 
year.
    That doesn't mean that we are going to have a robust jobs 
recovery. I think we all agree, who fool with these things, 
that we are not talking about unemployment anywhere below 9.2 
or 9.3 this year and that we have a slow, long, and what is 
often called a jobless recovery. That is, the economy will 
recover a long time before it starts creating the jobs we need.
    It is the case, I think pretty clearly, that over the next 
decade or so, given the size of the baby boom retirement 
especially, that we will create something on the order of 47 
million jobs, with about 14 million new jobs. The rest will be 
jobs that we get because people retire.
    The striking thing about those jobs is that a very 
substantial share, about 64 percent, will require some kind of 
post-secondary education or training. Not necessarily a college 
degree, maybe a certificate or an industry-based certification 
or also a B.A., and so on. The essential change in the American 
labor market, especially since 1980, has been the increasing 
demand for post-secondary level skill of various kinds.
    In a sense, we are not set up to deal with this. We have a 
Labor Department that deals with jobs, an Education Department 
that deals with education, and we don't connect the two very 
well. My bias is that the Obama budget provides us an 
opportunity to begin doing that.
    The President has requested $261 million set aside for 
innovations that would link or, as his budget statement says, 
break down the silos between the Education Department and Labor 
Department. And I really do believe that in terms of helping 
Americans quickly and effectively and not to mention cost 
effectively, that linking education and education programs and 
training programs with real jobs is the way that we are going 
to have to start thinking about doing this, especially given 
the fiscal austerity we face going forward.
    I would argue for a couple of things. One is where we can 
get it, and it is always scarce. We need to try and get 
learning and earning programs, where employers and education 
and training institutions, public and private, participate 
together to provide learning that includes learning in a 
classroom and learning on the job. Those are always hard to 
come by.
    The easier thing to do is to build compressed learning 
programs. Instead of taking 2 years to get an A.A., programs 
that march straight through and do it in 12 or 13 months max. 
Or a certificate in 7 or 8 months, where you go to school 
pretty much full-time if you can. If not, you go every Saturday 
for 8 to 10 months with a lot of the frills and extra education 
along the way cut out.
    It is the only way that experienced workers and people who 
are working, which is the vast majority of college students now 
as well, can really move through these systems with any speed 
and effectiveness. And finally, I think none of this will work 
very well until we build information systems and counseling 
that tell people where the jobs are, how much they will make, 
that will make some sense of the education they get as they try 
to move toward employment.
    A couple final points. One is that we have moved tens of 
millions of people through UI. That is the people who have 
applied for unemployment insurance since the recession began. 
Very few of them ever got talked to or got counseling or ran 
into an information system that helped them figure out what 
their prospects were. They were left untouched and feel 
untouched, I think.
    The second thing is that the information systems to do this 
are available. We just had some difficulty because of the silos 
in our governmental systems in hooking these things to 
education and training programs.
    Thank you, Mr. Chairman.
    [The prepared statement of Dr. Carnevale follows:]
               Prepared Statement of Anthony P. Carnevale
    The mismatch between job growth and skill is a growing problem in 
the American economy. Thus, our ability to align our huge investments 
in post-secondary education and training programs funded by DOE with 
job openings and labor market services funded by DOL has become 
crucial. This mismatch will only accelerate over the next 3 years as 
the economy recovers and moves back toward a 5 percent non-inflationary 
rate of unemployment. The Obama administration has given us a strong 
start in aligning DOL and DOE programs by asking for a set aside of 
$261 million ``breaking down program silos'' between DOE and DOL by 
creating ``Workforce Innovation Partnerships.''
    Our own projections at The Georgetown Center on Education and the 
Workforce (The Center) show a painfully slow but robust recovery. We 
aren't likely to recover our pre-recession job levels for another 24 
months. And it will be 36 more months before we achieve an unemployment 
rate approaching 5 percent and create enough jobs to employ the new job 
seekers who came into the labor market since December 2007 when this 
recession began.
    We are back from the brink of economic collapse and I strongly 
suspect that National Bureau of Economic Research will eventually 
decide--retrospectively--that this recession ended sometime between 
November of last year and March of this year. 2010 should end with net 
positive job growth. The recession may be over in this technical sense 
but it is far from over in labor markets. Our own projections at The 
Center find that we won't recover the 8 million-plus jobs we've lost 
until 2012. It may take us until 2015 to get back to the jobs we lost 
and add enough new jobs to employ the newly minted entrants job seekers 
who have come into the workforce since the recession began. 
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Jobs that require at least some post-secondary education will lead 
the recovery. The future of job growth in the United States is one in 
which more and more workers will require post-secondary education or 
training. Between 2008 and 2018, the economy will create 47 million job 
openings--consisting of 14 million net new jobs and 33 million 
replacement jobs, those necessary to replace workers who retire, become 
disabled or die (see Figure 2). Nearly two-thirds of these jobs_about 
64 percent_will require workers who have at least some college 
education or better. Some 34 percent will require at least a Bachelor's 
degree, while 30 percent will require some college or a 2-year 
Associate's degree. Only 36 percent of those 47 million jobs will 
require workers with only a high school diploma or less.
    As the recovery proceeds slowly over the next 3 years there will be 
a growing mismatch between job openings and growing post-secondary 
education and training requirements. Our success in helping our fellow 
Americans in adapting to these new labor market realities will depend 
more and more on our ability to break down the silos between our post-
secondary education and training programs, job openings and career 
pathways. 
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    If we fail, many existing and new workers will be left behind as 
the wage structure continues to take the shape of an hour-glass with 
the post-secondary educated and trained workers concentrating at the 
top and the workers with high school or less falling towards the 
bottom.
    Our projections show that between now and 2018 the economy will 
create 30 million jobs that will require at least some college or 
better but if current trends continue:

          <bullet> We will fall short of meeting the demand by at least 
        3 million college-educated Americans.
          <bullet> A growing share of Americans will be left behind 
        with no access to the middle class as industry and occupational 
        growth as well as wage advantages shifts away from jobs that 
        require only high school or less and towards industries and 
        occupations that require at least some post-secondary education 
        or training.
          <bullet> If the past is any guide this shortfall will raise 
        the wages of post-secondary haves vs. post-secondary have-nots 
        as the recovery picks up momentum.

    Technology is automating repetitive tasks and activities in jobs. 
As a result, more and more jobs tasks and activities left to people at 
work are non-repetitive. Sometimes these tasks and activities require 
high school or less, like working at a fast food outlet or digging a 
ditch. Other times, in professional, managerial and technical jobs, 
these non-repetitive tasks require high levels of knowledge, skills and 
developed abilities.
    The non-repetitive tasks in professional, managerial and technical 
jobs tend to require post-secondary levels of knowledge, skills and 
developed abilities. These educated workers have been in increasing 
demand since the mid-1980s so their wages are much higher than people 
who perform non-repetitive tasks in low-wage jobs. As a result, the 
wages of post-secondary educated workers have been rising relative to 
workers with high school or less (the rise faltering briefly in 2001-
2002 and of course during the recessions) ever since the mid-1980s.
    The industries with the highest concentrations of post-secondary 
educated workers are growing the fastest leaving workers with high 
school or less stranded in sometimes large, but slow growing low-wage 
industries. For many workers these low-wage jobs should be transitional 
but are not because of education barriers to mobility.
    The top tier of employers with post-secondary concentrations 
includes a cluster of fast-growing services industries. These each have 
workforces dominated--75 percent to 90 percent--by workers with at 
least some post-secondary education or training. These include:

          <bullet> Information Services;
          <bullet> Professional and Business Services;
          <bullet> Financial Services;
          <bullet> Private Education and Training Services;
          <bullet> Healthcare Services; and
          <bullet> Government and Public Education Services.

    The middle tier of post-secondary concentration includes 
Construction and a set of old line services industries where the share 
of workers with higher education hovers around 50 percent. These 
include:

          <bullet> Construction;
          <bullet> Transportation and Utilities Services;
          <bullet> Wholesale and Retail Trade Services;
          <bullet> Leisure and Hospitality Services; and
          <bullet> Personal Services.

    The bottom tier includes mostly goods production in Manufacturing 
and Natural Resources, where the share of post-secondary workers ranges 
between 30 percent and 40 percent of industry workforces.
    Demand for post-secondary education is tied more closely to 
occupations than industries. With the exception of healthcare support 
occupations, occupations with the fastest growth have the highest share 
of post-secondary education.
    Occupational clusters with the most intensive concentrations of 
post-secondary workers include:

          <bullet> Science, Technology, Engineering, Mathematics and 
        Social Science (STEM), 93 percent;
          <bullet> Education and Training Occupations, 93 percent;
          <bullet> Healthcare Practitioners and Technicians, 92 
        percent;
          <bullet> Community Services, 89 percent; and
          <bullet> Managerial and Professional Office occupations, 83 
        percent.

    Those five clusters represent more than 20 percent of total 
occupational employment and 45 percent of all jobs for post-secondary 
workers.
    A second tier of post-secondary intensity includes two occupational 
clusters where more than half of the incumbent workers have at least 
some college education or better. These are:

          <bullet> Sales and Office Support, 60 percent; and
          <bullet> Healthcare Support occupations, 52 percent.

    A third tier of occupations consists of two clusters where less 
than half of the workers have at least some college education or 
better, including:

          <bullet> Food and Personal Services, 41 percent; and
          <bullet> Blue Collar occupations, 34 percent.

    WIA and the Employment Services still provide irreplaceable income 
support and labor market services that connect education and training 
to real jobs, but the core human capital development function in 
workforce development has shifted to DOE \1\ (1) making access to post-
secondary education and training a crucial programmatic element in 
employment policy and (2) making employability a crucial performance 
standard for secondary and post-secondary education.
---------------------------------------------------------------------------
    \1\ This shift has been reflected in appropriations in the case in 
the United States since the 1980-1981 recession. In the 1980-1981 
recession, the intuitive programmatic response to the jobs problem 
heavily favored employment and short term training policy over 
education policy. The programmatic centerpiece that grew out of the 
Carter stimulus in response to the 1980-1981 recession was the 
Comprehensive Employment and Training Act (CETA). The core programmatic 
mission in response to the jobs problem was led by the Employment and 
Training Administration (ETA) in the U.S. Department of Labor. 
``Employment and training policy'' peaked in the Carter years.
    CETA and its progeny, The Job Training Partnership Act (JTPA) and 
the current Workforce Investment Act (WIA) have waned ever since 1979. 
If WIA, the current version of CETA, were to be funded at the same 
levels in the last Carter budget, it would be funded at almost $25 
billion. WIA the current version of CETA is funded somewhere between $3 
and $4 billion.
---------------------------------------------------------------------------
    My own view is that the committee should focus on breaking down the 
silos between the U.S. Employment Services, the One-Stops and the 
Nations' education, training and retraining providers, especially in 
secondary and post-secondary education and training. Breaking down the 
silos between our Department of Labor (DOL) and Department of Education 
(DOE) programs is crucial to both successful workforce development and 
successful secondary and post-secondary education policies.
    Both the Labor and Education Departments have a role in building a 
modern workforce development system. The Employment and Training 
Administration (ETA) of the U.S. Department of Labor provides critical 
employment services and a real world connection to real jobs in real 
labor markets. Post-Secondary education, especially community colleges, 
have become the crucial education and training provider for workforce 
development and retraining. Making the connection between the WIA on 
one side of the mall and post-secondary education on the other is the 
crucial element in the development of an effective workforce 
development and retraining system.
    The Obama administration has given us a place to start. In its DOL 
budget request for fiscal year 2011 the Administration is asking for a 
setaside of $261 million to create Workforce Innovation Partnership 
between DOE and DOL for ``breaking down program silos'' including a 5 
percent setaside for ``learn and earn programs.''
    President Obama's new budget proposal is the first on record that 
explicitly recognizes the need to integrate WIA and USDOE programs. 
It's Department of Labor Budget request proposes:

          `` (A) Workforce Innovation Partnership with the Department 
        of Education and establishes two innovation funds that will 
        support and test promising approaches to job training as well 
        as encourage States and localities to work across programmatic 
        silos to improve services.''

    We can best use the $261 million requested in President Obama's 
2011 Budget for ``breaking down program silos'' between DOL and DOE for 
funding demonstration projects that develop existing best practices 
such as:

    <bullet> Highly structured ``learn and earn programs'' like 
apprenticeship and on-the-job training,'' as requested by the 
President;
          <bullet> Compressed occupational training programs that 
        integrate basic skills preparation with fast and intensive 
        occupational training leading to post-secondary certificates 
        with previously demonstrated labor market value;
          <bullet> Job and skill counseling for unemployed and 
        underemployed experienced workers and working students tied to 
        state-of-the-art information on earnings trajectories and 
        career pathways;
          <bullet> Accountability systems for maximizing the labor 
        market value of post-secondary education and training programs 
        by tying post-secondary transcript data funded under the ARRA 
        with employer wage records data currently housed in the U.S. 
        Employment Services.
          And for statewide and nationwide development of on-line job 
        search systems (Job Exchanges) tied to (Learning Exchanges) 
        that match job openings and career pathways to available 
        courses offered by post-secondary institutions as well as on-
        line courseware.

    The Chairman. Thank you, Mr. Carnevale. I will follow up 
later about the role of community colleges, too, in that 
education.
    I yield now to our Ranking Member, Senator Enzi, who has 
been a great leader in this area for many, many years.

                   Opening Statement of Senator Enzi

    Senator Enzi. Thank you, Mr. Chairman.
    I apologize for being late. I want to thank you for holding 
the hearing on this important issue.
    The Senate has done a good job on this twice before. We 
passed it unanimously through the Senate. I am glad that we are 
working off of that bill and working to get something done. I 
suspect, and from what I have read in the statements, that we 
are probably in agreement with everybody.
    I appreciate your comments about the community college 
because they are an important part of education and workforce 
development to the recovery of our economy. This hearing is 
also important because we are really talking about jobs. While 
we need to create more jobs, that isn't enough. We need to 
create a workforce that has the skills to fill those jobs.
    The facts are that 8 in 10 jobs require some skilled post-
secondary credential. Yet more than 12 million adults in the 
labor force today don't have a high school credential. More 
than 18 million adults between the ages of 18 and 64 have not 
graduated from high school and, therefore, do not qualify for 
most of the jobs in the current economy. Over 51 million adults 
in the same age range have no college education and are in low-
wage jobs.
    Additionally, occupations that usually require a post-
secondary degree are expected to account for nearly half of all 
new jobs from 2008 to 2018 and a third of all total job 
openings. Workers without skills won't be able to take 
advantage of new job opportunities. Any gains in employment 
will be short-lived, and employers will be unable to find the 
skilled workforce they need to grow and compete.
    The jobs that will be created when our economy picks up 
will be middle skill jobs that require education and training 
beyond the high school level. Workers have to be ready to fill 
these jobs by quickly acquiring new skills and having ongoing 
access to quality education and skills training so they can 
turn those jobs into careers.
    According to a recent Business Roundtable report, 60 
percent of businesses are experiencing difficulty in finding 
qualified applicants for current job openings. This is 
occurring despite our high unemployment rates. Business depends 
on having workers with the necessary skills to perform jobs 
safely and effectively.
    Our economy depends on business to expand and create jobs--
which cannot happen if skilled workers are not available to 
fill those jobs. What we are discussing today is a way to help 
solve this problem and not only put people back to work, but 
help them keep their jobs and advance in their jobs.
    It has been over 10 years since WIA was first enacted, and 
now, more than ever, we need to modernize and strengthen the 
system, building on what has worked. America's workers and 
employers need to be confident that the workforce development 
system will provide the skills that are needed to keep jobs in 
America and keep us competitive in the 21st century economy.
    With an unemployment rate of almost 10 percent and a 
widening skills gap for our students and workers, we need to 
have in place a workforce development system that will meet the 
challenges of the global economy and the 21st century 
workplace. We need to help workers secure the skills they need 
for the jobs being created as our economy comes out of the 
economic downturn, and we need to make sure that employers have 
skilled workers in order to be competitive.
    I am pleased that we will hear today from a panel of 
witnesses who understand what a successful workforce 
development system is. A strong education and workforce 
development system is critical for our students and workers to 
be prepared to meet the ever-escalating knowledge and skills of 
the 21st century.
    For this reason, I am committed to working with the 
Administration and my Senate and House colleagues to put 
together a bipartisan bill that reauthorizes, strengthens, and 
modernizes WIA, a complete jobs bill. I would mention again 
that it has been the House that we have had trouble getting 
this through, but I have mentioned to Chairman Miller every 
time that I see him that we need to get WIA done, and he is in 
agreement. But we will have to get that last step done.
    Thank you, Mr. Chairman.
    The Chairman. Well, thank you very much, Senator Enzi. 
Hopefully, we can get it done. We have got to get it done this 
year. We have just got to. We are going to get it done.
    Again, I apologize. I have to leave to go to a healthcare 
meeting. Senator Casey has agreed to----
    Senator Enzi. I understand. We are all working on the 
healthcare problem.
    [Laughter.]
    We can get something done.
    The Chairman. Thank you.

                       Statement of Senator Casey

    Senator Casey [presiding]. Well, thank you very much.
    Why don't we continue with the witnesses' statements?
    Mr. Carbone.

    STATEMENT OF JOSEPH M. CARBONE, PRESIDENT AND CEO, THE 
     WORKPLACE, INC., SOUTHWESTERN CONNECTICUT'S WORKFORCE 
               DEVELOPMENT BOARD, BRIDGEPORT, CT

    Mr. Carbone. OK. Thank you very, very much, Senator, and 
thank you for inviting me.
    I am Joe Carbone. I am president and CEO for The Workplace, 
Inc. We act as the WIB for southwestern Connecticut.
    In some respects, Congress has been looking at the 
reauthorization issue for a good number of years, and I think 
that it has worked to our advantage because we now have a 
chance to evaluate our system from the perspective of how it 
has operated during times of real good economy and exactly how 
it would operate in a very, very bad economy, the recession.
    I think that the experience--and I speak for my region, and 
I have been there for 14 years--is such that I can feel that 
the system is certainly fundamentally sound, but it is not 
perfect. There are certain elements to this system that I think 
are worth preserving and, I think, have enabled the American 
workforce system, under the Workforce Investment Act, to play a 
critical role in advancing careers for people and meeting the 
needs for businesses.
    Part of the act was to create this hub in the system that 
we call the One-Stop, and I think experience in the last 10, 
11, 12 years is such that the One-Stops are natural kinds of 
magnets for people who need our assistance and businesses who 
need our help as well. Workforce investment boards can be a 
neutral broker. When you put together a collaboration of many 
different kinds of partners, some of which actually compete 
with one another, it is important to have an agent of fairness 
at the very top of that system. I think that has worked well.
    They are business-led. A majority of the members of the 
board are from business, and in many cases, they serve not just 
as members of the board, but to help to kind of alert boards to 
trends and things that are happening with respect to 
businesses' needs that are very, very important.
    The partner base of any One-Stop system, as I mentioned 
before, is extremely diverse, and you do not just have the 
required partners in your system, but you--by the very nature 
of the region, you can add partners that might be from the 
faith-based area. Organized labor play a major role in programs 
in my region.
    It is important that the workforce board, workforce 
investment board use part of this act as sort of the glue for 
the system, keeping everybody together and keeping everyone's 
time and efforts as really productive as possible.
    Clearly, the system is showing that it is flexible. It can 
respond in times of prosperity, and it can easily make the 
shift if we have a period of a recession like we just 
experienced.
    The way the act was written, it brings the free-market 
system into our business. I think that was a very, very 
important feature. With respect to contracts that are offered 
by workforce investment boards, they are all out there, and 
they are bid in a competitive way. The training community, 
where people get ITAs, individual training accounts, you have 
choice for customer, and you have a system that workforce 
boards can make richer and richer every day, taking, again, the 
for-profit trainers, the not-for-profit, and the public.
    Now, all of this happens as workforce investments boards 
under this system get money that is the so-called ``formula 
dollars.'' That opens the doors and creates the system on a 
local level. Communities have choice. If communities wish to 
simply administer the three lines of funding, they can do that. 
If they wish to make workforce development an enterprise of 
sort, they can do that.
    With respect to the integration of services, there is value 
added created every time that that happens. It is a very 
important feature for all boards to pursue.
    A couple of ideas with respect to disability services, and 
I know this is important to Senator Harkin. We took the Office 
of Vocational Rehabilitation Services, which is part of the 
State, the Bureau for the Blind, and we actually created a 
situation where the conferencing of cases are done with 
caseworkers in our One-Stop system. So nothing is lost. Nothing 
is missed. They can take advantage of every possible program 
that is out there that can be helpful.
    We have done the same with respect to youth programs, using 
business to create interns, using foundations to help us create 
Web sites and other mechanisms that can help to advance the 
interest of young people. We have done the same with respect to 
veterans, involving institutions that offer them residential 
places to stay, services of our State Department of Labor and 
other entities that can work with the partnership at the One-
Stop level.
    I have seven ideas of ways in which I think this committee 
and the reauthorization process can make the workforce 
investment boards at the ground level better. If they are 
better at the ground level, it is better services to everybody.
    Provide incentives for WIBs to think and operate in a 
regional way.
    Provide incentives for WIBs to leverage the formula dollars 
to grow the business. Formula dollars alone do not allow 
imagination or innovation in the system. It is important that 
they think ``grow the business'' all the time.
    Provide incentives for WIBs to create real value added 
through the integration of services and partners. Most times, 
that doesn't happen, and it doesn't simply happen because it is 
mentioned in the act. The WIBs must earn the respect of 
everybody to make it happen.
    Provide incentives to States to explore a data-driven 
system to determine workforce investment districts, the 
catchment districts. There is a science to good districts that 
contribute to an exciting workforce system, and it is important 
that that happened.
    There ought to be incentives provided so that States and 
local areas increase the number of ITAs, that is the fruit of 
our labor, one of the most important things that we do every 
single year.
    I was asked to give a couple of examples of where this kind 
of ``grow the business'' mentality has helped us in our region. 
This approach in my region, southwestern Connecticut, 36 
percent of my budget is formula dollars, and 64 percent is 
nonformula dollars. You can do this best if you are a 501(c)(3) 
and not part of Government, but it means that you can actively 
compete for Federal, State, and other competitive grants. You 
can solicit contributions that are basically philanthropic in 
nature from foundations.
    With respect to competitive grants--and we have won many in 
disability services, in veterans services, in the green sector, 
and many others--they total about $50 million in the last 
several years for us. With respect to ITAs, we have raised over 
$4 million from the private sector, and that has enabled us to 
grant 1,700 more people opportunities to get trained.
    I can go on, but let me just make one last point. There are 
two creative things that I think are important to this 
committee. With respect to our summer programs, we had over 700 
youth employed. We made a conscious choice to dedicate a 
quarter of the jobs to kids with certifiable disabilities.
    We had 25 percent of them. They worked for businesses. We 
had contracts with 80 for-profit businesses. They had 
meaningful experiences throughout the summer. A good workforce 
board will have the contacts with businesses to make that 
happen.
    In addition to that, we created a mortgage crisis job 
training program, which links the job training system with the 
foreclosure problems in our State. We are doing it for the 
whole State of Connecticut. We are at the table when families 
are facing foreclosure and need to grow earnings. There is a 
chart in the information that I filed that shows the value of 
education with respect to growing wages.
    All of that is very important. That has been our 
experience. I think it is a choice between whether you are 
simply administering the programs of the Workforce Investment 
Act or whether you grow your business and make it an exciting 
place to be.
    Thank you very much.
    [The prepared statement of Mr. Carbone follows:]
                               The Workplace, Inc.,
                                      Bridgeport, CT 06604,
                                                 February 24, 2010.
Senator Tom Harkin, Chairman,
Committee on Health, Education, Labor, and Pensions,
U.S. Senate,
Washington, DC 20510-6300.

Re:  Testimony for ``A Stronger Workforce Investment System for a 
Stronger Economy'' Hearing

    Dear Senator Harkin and HELP Committee Members: Thank you for the 
opportunity to provide input on this important topic. The American 
workforce system has the potential to play a pivotal role in economic 
recovery and regional competitiveness, as I hope my testimony will 
illustrate.
    My organization, The WorkPlace, Inc., is a private 501(c)(3) not-
for-profit which has served as southwestern Connecticut's Workforce 
Investment Board (and predecessor Private Industry Council) for 26 
years. Although there are some differences in how States set up their 
systems, and differences in local market needs and priorities, our 
experience is broadly representative. Like other WIB's, we are guided 
by a Board of Directors representing business, labor, and other WIA-
mandated partners and key stakeholders.
    Thank you very much for the opportunity to share these thoughts 
with you.
              
                                         Joseph M. Carbone,
         President and Chief Executive Officer, The WorkPlace, Inc.
                                 ______
                                 
                Prepared Statement of Joseph M. Carbone
                     ``Moving Beyond the Formula''
     1. the critical role the workforce investment system plays in 
   addressing the employment, education, and skill needs of its dual 
             customers--workers, job seekers and employers
    The system is fundamentally sound but imperfect.

    <bullet> It has responded to the challenge of a recession far 
beyond what was imagined by the makers of the Workforce Investment Act 
(WIA).
    <bullet> The Act enables WIBs to play a critical role during times 
of recession as well as prosperity.

        <bullet>  One-Stops are the hub of the system; they act as 
        natural magnets for unemployed, underemployed, and employed 
        individuals, as well as businesses needing workers.
        <bullet>  Workforce Investment Boards (WIB's) can be neutral 
        brokers, which is a necessary factor in bringing together many 
        diverse and competing partners.
        <bullet>  WIBs are business-led, and they become the natural 
        place for businesses to turn to when they need workers.
        <bullet>  WIBs connect partners; the Act identifies the 
        required partners and suggests others as well. However, it 
        takes WIBs with credibility to keep the partnership together 
        and make it productive.
        <bullet>  WIBs are flexible and able to change as economic 
        conditions dictate; for example less training and more 
        education in a deep & prolonged downturn.
        <bullet>  The Workforce Investment Act enables WIBs to lead a 
        free-market system of job training. As a regional planning 
        entity and not a competitor for training business, they can 
        select from proposals and programs from for-profit, not-for-
        profit, and government providers. The customer and taxpayer 
        interest can come first.
        <bullet>  Formula funding provides the seeds for the local 
        system, as well as program support.
        <bullet>  WIB's received ARRA/stimulus investments under 
        similar rules to the formula funds, which enabled the system to 
        adjust to the new requirements brought about by high 
        unemployment and many new customers needing service.
        <bullet>  The Workforce Investment Act offers local communities 
        a choice--their WIB can be the administrator of the three pools 
        of funding under the formula system, or they can choose to do 
        that PLUS a far more enterprising approach.

 2. new and innovative practices used to better integrate services to 
  more effectively meet the needs of workers and employers, including 
                       barriers to such practices
    Some WIBs and One-Stops are finding creative ways to work with 
multiple partners to better integrate services. Here are a few examples 
from our experience in Connecticut:
    <bullet> Older Workers have been fully integrated into the One-Stop 
system. By using SCSEP (Senior Community Service Employment Program) as 
a true training model, we have been able to provide skills upgrades and 
job placements to unemployed workers over age 55. We leverage and 
integrate the following:

        <bullet>  WIA Core Services (job search, computer workshops, 
        professional development)
        <bullet>  Community Colleges (skills training certificates)
        <bullet>  Local Government (serve as host agencies)
        <bullet>  Business (Adecco and other placement agencies have 
        signed on to place older workers in skill-specific permanent 
        placements. GoliathJobs.com has developed a Web site 
        specifically to connect older workers with job openings.)

    <bullet> People With Disabilities: The Voc-Rehab agencies (e.g. 
Bureau of Rehabilitative Services and Bureau of Education Services for 
the Blind) are on-site in our Bridgeport One-Stop once per week to do 
case conferencing with One-Stop staff. In addition, we utilize our PWI 
(Projects With Industry grant) funding to provide placement, working 
closely with local employers.
    <bullet> Youth: targeted youth programs have helped to provide more 
services to at-risk youth. With private funding (JPMorgan Chase and 
others) we have established the following:

        <bullet>  A youth Web site, designed by Bridgeport students, 
        whose content includes job training, employment, and college 
        resources.
        <bullet>  An allied health exploration program that provides 
        students the opportunity to understand careers in allied health 
        (beyond nursing assistant) and to work as interns during the 
        summer.
        <bullet>  Summer internships in the arts, and with local 
        industrial employers (including Sikorsky and Derecktor 
        Shipyards).
        <bullet>  In each of these programs, we work with the local 
        school system and the business partner to identify the 
        appropriate kids. This could not have happened with WIA dollars 
        due to the stringent income guidelines and the performance 
        outcomes.

    <bullet> Veterans: our program for Homeless Veterans built 
partnerships with Homes for the Brave (a residential center for 
homeless veterans), the VA Hospital, Department of Labor Veterans 
Services, and many other local agencies. Veterans in the program 
received intensive career services, training, job placement, and 
permanent housing through a multi-level collaboration.
    <bullet> Community Resource Center: in response to the deep and 
prolonged recession, we got funding from the local United Way to use 
our One-Stop as a point of delivery for meeting basic needs. This new 
Center awarded small grants for rental assistance, utilities, and 
transportation. In addition, the Center partnered with local agencies 
that provided assistance to people in need of food, shelter, housing, 
day care, medical insurance, and legal services. This created a 
stronger network of partners and expanded awareness of services 
available in the One-Stop.
    3. ways to promote innovation in the structure and delivery of 
  america's workforce system to increase the prosperity of america's 
 workers and employers, the economic growth of states and regions, and 
            the global competitiveness of the united states
    Innovation is the tool WIBs need to use to engage partners in 
endeavors of common interest, to solidify their role as system leader, 
and to add a flavor of excitement and progressiveness to the local 
system. Here are my 7 suggestions:

    <bullet> Provide incentives for WIBs to think and operate 
regionally.
    <bullet> Provide incentives for WIBs to leverage their formula 
allocation for growth.
    <bullet> Provide incentives for WIBs to create value-added through 
the integration of partner services at the One-Stop level.
    <bullet> Provide incentives to States to explore a data-driven 
approach to the creation of WIB catchment regions.
    <bullet> Provide incentives for WIBs and States to increase the 
annual investment in ITAs (Individual Training Accounts), both in 
number and in choice for customers.
    <bullet> Provide incentives for WIBs to study and determine through 
analysis the special populations that will become central for their 
work.
    <bullet> Provide incentives to keep the workforce investment system 
in a mode of building capacity all the time.
    4. what we have done to improve the knowledge and skills of the 
      nation's workforce . . . with family-sustaining wages . . . 
                      particularly america's youth
Go Beyond Formula Funding
    <bullet> Reliance solely on formula dollars will inhibit ability to 
become a regional leader and limit ability to serve special 
populations.

        <bullet>  With ``leveraging'' approach, (current budget without 
        ARRA), WorkPlace, Inc. non-formula now 64 percent (1.7 times 
        formula) (i.e. formula is 36 percent of total).
        <bullet>  Process of leveraging helps to engage partners.

    <bullet> Particularly as a 501(c)(3) private not-for-profit, WIB 
has ability to move beyond formula:

        <bullet>  Actively compete for grants.
        <bullet>  Solicit money from philanthropic corporate and 
        foundation sources.
        <bullet>  Create fee-for-service.

    <bullet> Competitive grants have added to our services, 
capabilities, and impact.

        <bullet>  WIRED has enabled us to create partnership with New 
        York (CT-NY Talent for Growth).
        <bullet>  High-Growth grants supported workforce development in 
        the Advanced Manufacturing and Finance/Insurance sectors.
        <bullet>  Six grants (multiple sources) built our Disability 
        Services Center in Bridgeport One-Stop, the most comprehensive 
        in the State, and linked to additional services.
        <bullet>  Five grants in Veterans Services provided intensive 
        training and employment to Homeless and other Veterans.
        <bullet>  Four grants for Brownfields Environmental Remediation 
        provided technical training and launched graduates into well-
        paying jobs in promising careers.
        <bullet>  Total of $50 million over 12 years.

Maximize use of ITA's (Individual Training Accounts)
    <bullet> Best path to family-sustaining wages is improving skills & 
knowledge of workers (see ``Education Pays'' chart from BLS).

        <bullet>  We make ``stretch'' commitment to ITA's every year 
        through the budget process.
        <bullet>  We created privately funded ``WorkPlace 
        Scholarships'' which have provided training opportunities for 
        more than 1,700 people ($4 million over the past 13 years).

Use a ``grow-the-business'' model to deliver better services. Here are 
        some of the things we've done at The WorkPlace in line with 
        this model:
    <bullet> Disability Services Center in One-Stop (``EveryOne 
Works'')

        <bullet>  Started with competitive grant; when it ended we 
        chose to use WIA $$ to continue staffing. Other grants and 
        State funds have expanded it over time.
        <bullet>  Voc-Rehab partners are engaged (BRS, BESB); we have a 
        common interest in helping people with disabilities get jobs.

    <bullet> Summer Youth 2009 (ARRA funding)

        <bullet>  We placed over 700 youth in summer employment, 
        including 24 percent who had certified disabilities.
        <bullet>  Worked with more than 140 employers (80 private); 
        indemnified them. Our ``capacity'' helps in having contacts 
        with businesses to place that many in summer jobs.
        <bullet>  Linked regular WIA-funded youth to summer operations.

    <bullet> Mortgage Crisis Job Training Program

        <bullet>  Created a new program in response to growing 
        foreclosures, connecting people to the workforce system to 
        prevent foreclosure and increase their earnings potential.
        <bullet>  Utilized State funds, in conjunction with leveraging 
        WIA core services (e.g., financial literacy workshops).
    <bullet> WIRED (CT-NY Talent for Growth)

        <bullet>  We have established cross-state collaborations among 
        training providers, community colleges, economic development, 
        business organizations, and community-based organizations, led 
        by WIBs.
        <bullet>  This initiative has helped us to think from a 
        regional perspective.
                                summary
    In summary, we are all dedicated to ensuring people who are 
unemployed get all the services they need, and to serving people in 
Special Populations. There's a lot of responsibility given to the local 
delivery system, but WIBs don't carry a big stick--they must earn the 
respect of their communities and partners. The capacity of WIB's is key 
to a credible system.
    What's needed is to make WIBs a robust enterprise, to grow the 
business, and to broaden the partnerships. I ask you to look at the 
local system and give them all the tools they need to make the impact 
America needs.
    Thank you very much for the opportunity to share these thoughts 
with you.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Senator Casey. Thank you very much.
    Mr. Stalknecht.

     STATEMENT OF PAUL STALKNECHT, PRESIDENT AND CEO, AIR 
       CONDITIONING CONTRACTORS OF AMERICA, ARLINGTON, VA

    Mr. Stalknecht. Good morning. My name is Paul Stalknecht, 
and I am the president and chief executive officer of the Air 
Conditioning Contractors of America. This morning, I will 
summarize my submitted written testimony.
    ACCA serves and represents the small businesses that 
design, install, and maintain indoor heating, ventilation, air 
conditioning, and refrigeration, HVACR, systems. Our corporate 
membership of 4,000 includes more than 3,000 contracting 
businesses in every State in the country.
    I do not profess to be an expert on all the details of the 
Workforce Investment Act. I can only speak to some concerns and 
opinions of the industry I represent.
    More than half of ACCA's members have fewer than 10 
employees. Industry-wide, 60 percent of HVAC contracting firms 
generate less than $1 million in annual revenue. Yet according 
to the 2007 Economic Census, altogether we employ nearly 
200,000 mechanics, installers, helpers, and related personnel, 
and these workers have an average salary of approximately 
$46,500 a year.
    Our industry's ability to add skilled employees has not 
kept up with our overall growth. The problem is going to get 
worse for us as more building owners and homeowners, fueled by 
Government incentives and mandates, seek to install new, more 
energy-efficient heating and cooling systems.
    So I ask you, why does an industry that offers good, 
stable, financially attractive careers--American-made jobs, 
created by American entrepreneurs, jobs that cannot be shipped 
overseas--have such a hard time filling these jobs, especially 
when 30 percent of high school students and 50 percent of 
minority students still drop out? Something is not clicking.
    As the committee considers the reauthorization of the 
Workforce Investment Act and new directions for the Federal 
Government's policy for the workforce investment system, allow 
me to make a few recommendations and observations based on the 
experiences of ACCA members across the Nation.
    First, Congress needs to create Federal policies that 
change the culture of job training and career counseling. The 
HVAC industry should be an attractive and rewarding option for 
those who do not seek a degree beyond secondary school. While 
you need certain skill levels and a base educational foundation 
to work in our industry, you do not need a 4-year college 
degree to get started.
    Unfortunately, young people and, to some extent, educators 
look down on skilled trades that still offer tremendous 
opportunity, job security, a comfortable lifestyle, and a 
career path to entrepreneur-
ialism and business ownership. It seems to be a cultural 
miscon-
nect.
    Many business owners in the HVAC industry do not have a 4-
year college degree because they started out as a tradesman. As 
they climbed the career ladder, they learned their business and 
management skills as they progressed. In contrast, the college-
educated business owners who entered the HVAC industry needed 
to learn their technical skills as they, too, went along. Two 
different education paths to success, but our society seems to 
only highlight the college route.
    We have seen firsthand the disconnect in workforce 
development. In our experiences, the limited resources of 
schools and the perception about work in a ``blue collar'' 
field hampers the success of efforts in guiding students to the 
skilled trades.
    Second, on-the-job training must be part of any 
apprenticeship program in order to be a success. Ours is a 
technically skilled workforce, and we need to create career 
paths and opportunities for students and workers. The HVAC 
industry and other trades require structured education and 
apprenticeship programs to ensure that our technicians are job-
site ready. You simply cannot walk off the street and repair a 
heating and cooling system.
    Community colleges, trade schools, and apprentice programs 
graduate thousands of students a year, but these programs would 
work more effectively if the Federal Government made money 
available to support on-the-job training with local contractors 
in the trade so trainees can round out their trade skills.
    Third, Federal policies should be expanded to encourage and 
support locally developed and accredited apprenticeship 
programs that already exist. ACCA's National Capital Chapter in 
the Washington, DC area oversees a successful apprenticeship 
program in conjunction with Montgomery Community College and 
area contractors to train students to be skilled HVAC 
technicians.
    This rigorous 4-year program requires 640 hours of class 
instruction and 8,000 hours of on-the-job training with a 
sponsoring employer. With a retention rate of 65 percent, well 
above the national average of 43 percent, this program has been 
a tremendous success, graduating some 337 students in the last 
18 years.
    One common complaint is the Federal and State bureaucracy 
to start up and administer an apprenticeship program. What is 
needed is a change in policy to streamline the process for 
start-up programs and those already in existence. I would ask 
you to please refer to my submitted comments for a more 
thorough explanation of my recommendations and comments.
    And finally, recognizing some changes need to be made in 
the workforce investment system philosophically, ACCA and its 
members support reauthorization of the Workforce Investment 
Act. With that, I will conclude my comments and would be happy 
to answer any questions you may have.
    Again, thank you for the opportunity to testify before you 
today.
    [The prepared statement of Mr. Stalknecht follows:]
                 Prepared Statement of Paul Stalknecht
    Good morning. My name is Paul Stalknecht and I am the president and 
chief executive officer of the Air Conditioning Contractors of America. 
ACCA is a national trade association with roots extending back to the 
early part of the 20th century. We serve and represent the small 
businesses that design, install and maintain indoor heating, 
ventilation, air conditioning and refrigeration (HVACR) systems. Our 
corporate membership of 4,000 includes more than 3,000 contracting 
businesses in every State in the country.
    I do not profess to be an expert on all the details of the 
Workforce Investment Act. I can only speak to some concerns and 
opinions of the industry I represent.
    When I say ACCA represents small businesses, I mean really small 
businesses. More than half of our members have fewer than 10 employees. 
Industry-wide, 60 percent of HVACR contracting firms generate less than 
$1 million in annual revenue.
    Yet according to the 2007 Economic Census, altogether we employ 
nearly 200,000 mechanics, installers, helpers and related personnel, 
and these workers have an above average salary of $46,500 per employee.
    But our industry's ability to add skilled employees has not kept up 
with our overall growth. Between 2002 and 2007, the value of business 
performed by HVACR contractors grew 35 percent, but total employees 
grew only 2 percent.
    In fact, prior to the current economic crisis and the fall of the 
construction market, our industry was faced with a major crisis of its 
own--a workforce crisis. There simply were not enough skilled workers 
to fill all of the positions available.
    The current economic and construction slowdown has eased up on the 
pressure many contractors have been facing over the last decade. But 
this is only a temporary stay--and certainly not one that we seek to 
extend. As the economy improves, we will once again find ourselves with 
more work than people. The problem is going to get worse for us as more 
building owners and homeowners, fueled by government incentives and 
mandates, seek to install new, more energy-efficient heating and 
cooling systems.
    According to the Bureau of Labor Statistics Office of Occupational 
Statistics and Employment Projections, the need for HVACR mechanics and 
installers will grow 28 percent between 2008 and 2018.
    So I ask you, why does an industry that offers good, stable and 
financially attractive careers--American-made jobs, created by American 
entrepreneurs, jobs that cannot be shipped overseas--have such a hard 
time filling those jobs? Especially when 30 percent of high school 
students--50 percent of minority students--still drop out? Something is 
not clicking.
    The Federal Government provides funding and resources through the 
Workforce Investment Act for programs that assist job seekers and 
employers. Over the last 12 years, the Workforce Investment Act has 
helped job seekers find the careers that interest them, direct them 
toward the training they need to be competent in their chosen field so 
they are attractive to employers, and ultimately connect them with a 
job. A potential job seeker can find information about a rewarding 
career path in the HVACR industry and other technical trades using a 
local One-Stop Career Center or the Department of Labor's 
www.careeronestop.org Web site.
    While these programs are helping, ACCA finds that the demand for 
employees in the technical fields is still not being met, especially 
given the need for green jobs.
    As the committee considers the reauthorization of the Workforce 
Investment Act and new directions for the Federal Government's policy 
for the workforce investment system, allow me to make a few 
recommendations and observations based on the experiences of ACCA 
members across the Nation.
    First, Congress needs to create Federal policies that change the 
``culture'' of job training and career counseling. The HVACR industry 
should be an attractive and rewarding option for those who do not seek 
a degree beyond secondary school. While you need certain skill levels 
and a base educational foundation to work in the HVACR industry, you 
don't need a 4-year college degree. In the last few decades, it seems 
our society has denigrated the skilled trades in favor of 4-year 
colleges. Government policy and cultural shifts have created a world 
where young people ``look down'' on the skilled trades that still offer 
tremendous opportunity, job security, a comfortable lifestyle, and a 
career path to entrepreneurialism and business ownership.
    According to the BLS, only 16.4 percent of workers employed as 
HVACR technicians and installers between the ages of 25 and 44 hold an 
associate's degree, bachelor's degree or higher. Overall, nearly 27 
percent of workers between the ages of 25 and 44 employed in the HVACR 
industry have attended some college without graduating.
    Many business owners in the HVACR industry do not have a 4-year 
college degree. They started out as tradesmen--some perhaps getting 
their start through a Workforce Investment Act program (or one of its 
predecessors). As they climbed the career ladder, they learned their 
business and management skills on the fly. In contrast, the college 
educated business owners who entered the HVACR industry needed to learn 
their technical skills as they went along. Two different education 
paths to success, but our society seems only to highlight the college 
route.
    There are students with no interest in a 4-year degree who are 
being pushed to attend one anyway. They take on debt they don't want so 
that they can get a job they don't want which often pays less than they 
would have been making after 4 years of working in the HVACR industry.
    And there are students so disillusioned by our educational system 
that they drop out of it altogether. High school dropouts still make up 
an alarming percentage of our children, nearly 30 percent. It does not 
appear that we are doing all that we can, as a society, to help our 
young people identify their strengths and the right career paths they 
should take to exploit them.
    Members of ACCA's Michigan chapter have first-hand experience with 
this disconnect in workforce development. Some of our contractor 
members in Michigan have taken a proactive approach by working with 
teachers and guidance counselors, getting on curriculum planning 
committees and school boards, and participating in job fairs. In their 
experiences, the limited resources of schools and the perception about 
work in a ``blue collar'' field hampered the success of their efforts. 
This culture and attitude needs to change.
    Second, on-the-job training must be part of any apprenticeship 
program in order to be a success. Ours is a technically skilled 
workforce and we need to create career paths and opportunities for 
students and workers to gain entry into the good-paying green collar 
jobs offered by the HVACR industry and other skilled trades. Work in 
the HVACR industry requires structured education and apprenticeship 
programs to ensure that our technicians are able to do the job and do 
it right. You can't just walk in off the street and repair a heating or 
cooling system, which is why on-the-job training must be a key 
component to training.
    Community colleges, trade schools, and apprenticeship programs 
graduate students but in many cases they lack specific skills because 
they didn't have on-the-job training. These programs would work more 
effectively if the Federal Government made money available to support 
on-the-job training with local contractors in the trade so trainees can 
round out their skill sets.
    Programs developed at the State and local levels through the 
Workforce Investment Boards should emphasize on-the-job training as 
part of any job training program. It boosts the confidence of the 
employee and it helps establish a better educational foundation to 
build one's career.
    Third, Federal policies should be expanded to encourage and support 
locally developed and accredited apprenticeship programs that already 
exist. ACCA's National Capital Chapter in the Washington, DC area 
oversees a successful apprenticeship program in conjunction with 
Montgomery Community College and area contractors to train students to 
be skilled HVACR technicians. This 4-year program requires 640 hours of 
class instruction and 8,000 hours of on-the-job training with a 
sponsoring employer. Class sizes range from 32 to 41 students, with a 
retention rate of 65 percent--well above the national average of 43 
percent for a similar program. Since 1992, the apprenticeship program 
has graduated 337 students. Upon graduation, participants receive a 
recognized certificate and earn credits toward an associate's degree. 
And they are able to apply for their Journeyman's license without 
taking the State exam.
    One common complaint by program administrators is compliance with 
Federal paper work and recordkeeping requirements for certification. 
Apprenticeship program administrators must jump through many 
bureaucratic hoops to gain approval from State and Federal agencies, 
including the Department of Labor and the Veterans Administration. 
What's needed is a change in policy to streamline the process for start 
up programs and those already in existence.
    Fourth, Congress should continue to support and expand the roles of 
the Workforce Investment Boards across the country. Workforce 
Investment Boards work best because they involve local business leaders 
along with representatives from schools and trades. Unfortunately on 
many boards, the 51 percent business majority is theoretical with many 
meetings having few business attendees. Therefore, to ensure that 
business engagement occurs at each meeting, we recommend that a quorum 
of business people must be present. In addition, the composition of 
these boards should be modified to reduce the number of federally 
mandated partners while still ensuring the voices of all stakeholders 
are heard. These business-majority boards should provide general 
oversight of the local system including oversight of the One-Stop 
Career Centers and provide a forum for coordination among various 
agencies and organizations.
    Finally, I urge you to consider assisting small businesses that 
develop their own in-house training. Several ACCA member companies that 
qualify as small businesses have created their own apprenticeship 
programs with rigorous standards that are recognized by the Department 
of Labor. These are especially critical in rural areas where trainees 
may find limited options for training.
    For example, ACCA member company Service Legends of Des Moines, IA, 
developed an apprenticeship program approved by the Department of Labor 
that trains employees from the ground up. Interest is so great that 
Service Legends receives 120 applicants per month as job seekers aim to 
join their team.
    Improving our Nation's workforce investment system is a complicated 
but necessary effort. Our economy needs a continuous supply of highly 
skilled workers to expand. I know that high school guidance counselors 
are overworked, underpaid, and often uninformed about the value of 
skilled trade careers. Perhaps in larger high schools, or high schools 
with an unusually high drop-out rate, at least one guidance counselor 
should become proficient in technical trade opportunities and assigned 
to only handle technical trades placements.
    ACCA's member companies are the foot soldiers in the new movement 
to install and service energy efficient infrastructure in American 
homes and buildings. If our economy is to grow, employers will need a 
steady stream of qualified applicants to replace employees lost to 
attrition and fulfill the expected needs of the future.
    With that I will conclude my comments and would be happy to answer 
any questions you may have. Thank you again for this opportunity to 
testify before you.

    Senator Casey. Well, thank you very much.
    Ms. Feldman, I was handed a note that said that you got 10 
stitches in your forehead last night?
    Ms. Feldman. Yes.
    Senator Casey. Well, then----
    Ms. Feldman. I would like to give a shout-out actually to 
the emergency room team at George Washington University 
Hospital. They did a great job.
    [Laughter.]
    Senator Casey. Well, you can take a half an hour for your 
statement if you would like.
    [Laughter.]

STATEMENT OF CHERYL FELDMAN, EXECUTIVE DIRECTOR, DISTRICT 1199C 
         TRAINING AND UPGRADING FUND, PHILADELPHIA, PA

    Ms. Feldman. Thank you for inviting me today.
    My name is Cheryl Feldman. I am director of District 1199C 
Training and Upgrading Fund in your fair city of Philadelphia. 
The fund is a labor-management partnership of 49 area 
healthcare employers in Philadelphia and South Jersey and the 
AFSCME-
affiliated National Union of Hospital and Health Care 
Employees. Accompanying me today is the president of our union, 
Henry Nicholas.
    Senator Casey. You now have more time.
    [Laughter.]
    Ms. Feldman. I thank you for this opportunity.
    I only have limited time. I only can tell you about a 
portion of our work. My main point is that we are uniquely 
situated within our industry, as a labor-management 
partnership, to bring together public programs, private sector 
firms, and private industry dollars to solve our healthcare 
workforce challenges.
    We use WIA title I funds to train workers, title II funds 
to teach workers reading and writing and math for the 
workplace, and TANF dollars to help low-income women get on a 
career path. We work with local universities and community 
colleges and local employers to help healthcare workers get 
time off to attend specially designed credit-bearing programs 
that lead to college degrees. We work with youth to interest 
them in health careers and incumbent workers already in the 
industry who are looking for new options for advancement.
    The State and local WIA job training system and literacy 
system are indispensable partners for us. Federal WIA policies 
could make our balancing act much easier if they didn't create 
the silos, the barriers against aligning adult basic ed with 
technical training, with public assistance, with work supports, 
with work release programs. It is a lot to manage.
    Due to State budget cuts in Pennsylvania, our workforce 
literacy program has been cut by 30 percent. We have 400 people 
on a waiting list right now. If there weren't the silos, we 
could blend our literacy and workforce programs together and 
get those folks started in healthcare careers.
    WIA could make a much greater investment in sector 
strategies such as ours, much as our State has done through its 
industry partnership initiatives. Ultimately, WIA needs to be 
much better funded to help programs like ours grow and serve 
the larger number of workers and employers seeking our 
services.
    Our labor-management fund offers a powerful solution to 
Philadelphia's challenges because we simultaneously address the 
skill needs of low-income workers and the talent needs of our 
regional businesses. Our partnership brings together multiple 
employers in the same industry to identify talent gaps. Then we 
help prepare the low-skilled adults to fill these available, 
mid-skilled positions, which are still available in healthcare.
    This sector approach builds on the mutual interest that the 
employers and the workers have and provides an excellent 
example of the innovative ``industry partnership'' model 
through our Pennsylvania Department of Labor and Industry. 
Thanks to our State leadership, there are now more than 70 
industry-led partnerships in Pennsylvania that are similar to 
ours that engage 6,300 businesses and help to train more than 
75,000 workers.
    An example--Elizabeth Vasquez. At 19, she enrolled in our 
TANF-funded nurse aide training program, and you spoke at her 
graduation, Senator Casey. Upon completion, she obtained a 
unionized nurse aide job.
    Because her employer contributed 1.5 percent of gross 
payroll through its collective bargaining agreement, Elizabeth 
had access to the Training Fund's education benefits, and so 
she went to practical nursing and tripled her wages. Now she is 
completing a registered nursing program in three semesters as a 
result of our LPN to RN articulation with the community 
college.
    Our Jobs to Careers Behavioral Health Program, working with 
incumbent workers, we have done a little bit about what Tony 
Carnevale said. We have embedded the training in the workplace 
so that there is a combination of traditional classroom hours 
and on-the-job learning assignments. Students get 21 college 
credits for this work. It articulates directly into an 
associate and then a bachelor's degree.
    The program speaks for itself. We have had 100 percent of 
the graduates receive wage increases, with promotions in some 
cases. Many are now in college, and new employers are 
implementing this innovative program.
    By leveraging public and private funding, the fund's labor-
management partnership has helped over 100,000 workers in our 
35 years. And we are not alone. Other labor-management 
partnerships in healthcare and other industries are engaged in 
equally compelling work.
    I would like to emphasize that with long-term resources, 
which is what we need, we can replicate innovative and 
sustainable workforce initiatives that prepare adults and youth 
with the skills to compete in the global economy.
    I thank you so much for having me today.
    [The prepared statement of Ms. Feldman follows:]
                  Prepared Statement of Cheryl Feldman
    Chairman Harkin and honorable members of the committee, thank you 
for inviting me to participate in today's hearing. My name is Cheryl 
Feldman and I am Director of the District 1199C Training & Upgrading 
Fund. The Fund is a labor management partnership of 49 Philadelphia 
area and South Jersey healthcare employers and the AFSCME-affiliated 
National Union of Hospital and Health Care Employees. I thank you for 
the honor and the opportunity to share our experience in creating a 
workforce strategy that integrates education and training with career 
pathways linked to quality jobs.
    With limited time, I can only tell you about a portion of the work 
we do with a wide range of healthcare workers and employers. My written 
testimony will go into more detail. But, my main point to be made today 
is that we are uniquely situated within our industry, as a labor-
management partnership, to bring together a wide range of public 
programs, private-sector firms, and private industry dollars to help 
solve our city's healthcare workforce challenges. We use WIA title I 
funds to train workers, WIA title II funds to teach workers reading, 
writing, and math skills needed in the workplace, and TANF dollars to 
help low-income women get on a career path. We work with local 
universities and local employers to help healthcare workers get time 
off to attend specially designed credit-bearing programs that lead to 
college degrees. We work with youth to interest them in health careers, 
and we work with incumbent workers already in the industry who are 
looking for new options for advancement.
    The State and local WIA title I job training system and title II 
literacy system are indispensable partners. But Federal WIA policies 
could make our balancing act much easier if they did not create 
barriers against aligning adult basic education, technical training, 
public assistance, work supports and work release for workers in our 
industry. Due to State budget cuts in Pennsylvania, our workforce 
literacy program has been cut by 30 percent resulting in a waiting list 
of over 400 applicants wanting to come in our program. Without the 
existing silos, we could potentially enroll some of those on the 
waiting list in blended literacy-skills training programs and get them 
started in healthcare careers.
    WIA could make a much greater investment in sector strategies such 
as ours, much as our State has already done through its Industry 
Partnership program. And, ultimately, WIA needs to be much better 
funded, to help programs like ours grow and serve the larger number of 
workers and employers who are seeking our services.
    Our Fund in 1974 began with 15 hospital service workers in a GED 
class held around a folding table in the union hall. Today, we host a 
fully-equipped learning center in the heart of downtown Philadelphia 
and satellite locations in the region that educate 3,200 youth and 
adult students annually. We have opened doors to career advancement and 
prepared students to play a role in the healthcare workplace of the 
future with GED, literacy, skills training, college preparatory and 
degree programs. We also provide 18,000 Philadelphia area community 
residents with a variety of services, including testing for healthcare 
credentials, GED testing, VITA tax preparation, job placement services, 
academic assessments, and career counseling.
    Philadelphia is currently experiencing parallel workforce crises: 
employers in the region lack a strong talent pipeline to fill critical 
jobs, while an alarmingly high percentage of adults are in the labor 
force only marginally or not at all. Indeed, 70 percent of jobs in our 
city require basic literacy skills, but less than 50 percent of our 
residents possess these minimum skills. Healthcare is no exception. Our 
industry, comprising 15 percent of Philadelphia's economy, is showing 
growth during the recession but the new jobs require literate, trained 
workers.
    Our Fund offers a powerful solution to Philadelphia's challenges by 
simultaneously addressing the skill needs of low-income workers and the 
talent needs of regional businesses. Our partnership brings together 
multiple employers in the same industry to identify talent gaps. Then, 
we help prepare low-skilled adults to fill these available, mid-skilled 
positions. This sector approach builds on the mutual interest of 
employers and workers, and provides an excellent example of the 
innovative ``industry partnership'' model that the Pennsylvania 
Department of Labor & Industry has launched statewide. Thanks to State 
leadership, there are now more than 70 industry-led partnerships 
similar to ours, engaging more than 6,300 businesses and helping to 
train more than 75,000 workers.
    In the 35 years since the Fund was created, this unique 
collaboration of employers and labor has never once reached an impasse. 
We have built a strong alliance that is able to assess the rapidly 
evolving needs of today's healthcare workplace with labor market data 
provided by the Pennsylvania Center for Health Careers and the State 
workforce system. In response to the nursing shortage of the late 
1990's, we leveraged H-1B funding with Training Fund and employer 
dollars to train 1,700 nurses and allied health staff in partnership 
with area schools. We called this initiative the New Faces Program, 
encouraging non-traditional students, immigrants, and youth to take 
advantage of the shortage to enter a healthcare career. As hospitals 
move toward adoption of Electronic Health Records, we are engaged in 
proactive discussions about how best to prepare frontline healthcare 
and clerical workers to expand their technology skills.
    The trajectory of Elizabeth Vasquez exemplifies how programs that 
address employers' workforce needs also benefit individuals. At 19, 
Elizabeth enrolled in our TANF funded Nurse Aide training program. Upon 
completion, she obtained a unionized Nurse Aide job. Because her 
employer contributed 1.5 percent of gross payroll through its 
collective bargaining agreement, Elizabeth had access to the Training 
Fund's educational benefits to train as a Practical Nurse, tripling her 
hourly wages. Elizabeth is now completing a Registered Nursing Program 
in three semesters as a result of Training Fund and State Industry 
Partnership funding which helped create an LPN to RN Articulation 
Program.
    Our Jobs to Careers Program uses innovative best practices to 
retool and advance incumbent workers along a career pathway. Job 
competencies are embedded in a work-based curriculum that replaces 
traditional classroom hours with on-the-job learning assignments. An 
accelerated literacy component ensures academic success. Cohorts of 
workers attend the program together on release time from their job, 
receiving support from peers, supervisors, and a Career Coach. Twenty-
one college credits, articulating with Associate's and Bachelor's 
Degrees, are awarded for completion of the technical training. The 
outcomes speak for themselves. One hundred percent of the graduates 
have received wage increases with promotions in some cases, many are 
now college students, and new employers are implementing the program.
    As a member of the Philadelphia Youth Council, I am delighted that 
we are investing in our future healthcare workers by expanding youth 
pipeline programs. Subsidized employment is making it possible for 
healthcare employers to open their doors to young workers in 
internships and supported work programs with opportunities to 
transition into unsubsidized jobs. ARRA funding is providing the 
opportunity to create innovative industry pipeline programs for in-
school youth and GED to college programs for out-of-school youth. By 
allowing alternative eligibility criteria for WIA funding we will 
ensure that even more disadvantaged youth can participate.
    By leveraging public and private funding, the Fund's labor 
management partnership has helped over 100,000 workers secure and 
advance in careers with family sustaining wages. We are not alone. 
Other labor management partnerships in healthcare and other industries 
are engaged in equally compelling work. We can build greater capacity 
with dedicated workforce and literacy funding for sector work as part 
of the national workforce development system. With long-term resources, 
we can replicate innovative and sustainable workforce initiatives that 
prepare adults and youth with the skills to compete in the global 
economy.
    Thank you very much for the opportunity to speak today.
                                 ______
                                 
 Attachment--District 1199C Training & Upgrading Fund: Helping Today's 
          Healthcare Workers Prepare for tomorrow's Workplace*
                              the history
    The District 1199C Training & Upgrading Fund has played a critical 
role in offering academic, career exposure and workforce development 
opportunities to youth and adults in Philadelphia for 35 years. 
Tomorrow's healthcare needs drive our training and education agenda. 
Occupational projections from the Bureau of Labor Statistics indicate 
that within the next decade, 45 percent of the jobs will require a 
post-secondary credential compared with only 25 percent today. In 
addition to our current offerings, we are preparing for future jobs 
such as health information technology and preparing future workers by, 
for example, strengthening the youth pipeline into entry level 
healthcare careers.
---------------------------------------------------------------------------
    * The District 1199C Training & Upgrading Fund is a Labor-
Management Partnership dedicated to providing access to healthcare 
employment for current and future workers while also serving the 
educational and training needs of our Delaware Valley healthcare 
employers.
---------------------------------------------------------------------------
                             the highlights
Scope of Service: Providing Career Pathways in Healthcare
    In fiscal year 2009, we served a total of 17,856 people. The Fund's 
expansive offerings include programs in nursing, allied health, 
behavioral health, computer technology, college prep and collegiate 
partnerships programs. We provide a variety of services including 
American Red Cross Nurse Aide testing, VITA tax preparation, job 
placement services, academic assessment services and healthcare career 
exposure workshops. The Fund offers a part-time practical nursing 
program designed for working people. Half of the students of District 
1199C Training & Upgrading Fund are members of the Training Fund and 
half are community residents--dislocated and unemployed workers as well 
as immigrants.
Employer Engagement: Meeting Employer Needs for a Qualified Workforce
    We are the educational arm of our 49 employer partners. The Fund 
has multi-employer sector initiatives including customized career 
advancement training for entry-level workers, licensure and 
certification review classes and skills-based classes that support the 
delivery of quality care. Temple University Health Systems has co-
chaired the Fund's Board of Directors for 20 years.
Adult Academic Readiness Services: Accelerating Transition to Post-
        Secondary Education
    In fiscal year 2009, we provided educational services to 3,200 
students. Our programs range from GED/Adult Diploma programs to 
healthcare contextualized English, mathematics and ESL classes as well 
as a variety of technical training programs resulting in an industry-
recognized credential that articulates with college credits and degree 
programs. We provide blended preparatory and technical bridge curricula 
that enable students to accelerate learning and successfully transition 
into post-secondary.
Youth Pipeline Services: Preparing the Future Workforce
    The Fund offers a variety of programs that serve close to 400 youth 
annually. We have partnered with the School District of Philadelphia 
and Philadelphia Academies for 15 years to host a Health Career Day 
targeting 10th-12th graders, exposing them to healthcare careers, and 
for the past 2 years we have sponsored Job Shadowing Day for high 
school students. In partnership with the Philadelphia Youth Network, we 
also offer the Summer Health Exploration Program, the GED to College 
Program, the Nurse Aide Training for Out-of-School Youth Program and 
the 21st Century Continuum Program for 11th and 12th graders at Lincoln 
High School, a collaboration of the Philadelphia Academies Inc., 
Community College of Philadelphia, Children's Hospital of Philadelphia 
and the Fund.
Career Pathways Counseling & Placement: Offering Supportive Services
    The Fund provides comprehensive coaching to support students in 
achieving their career advancement goals. A career counselor helps 
individuals create an individual educational plan as well as help 
individuals with resume development, interviewing skills, and job 
placement.
Funding
    In fiscal year 2009, the Fund leveraged $2.8 million. We were 
awarded public and foundation grants from 16 organizations to enhance 
programs and expand our services. Our funders include the National Fund 
for Workforce Solutions, the U.S. Department of Labor, the Pennsylvania 
Departments of Labor and Industry and of Education, the city of 
Philadelphia, the Robert Wood Johnson Foundation, the Hitachi 
Foundation, the Knight Foundation, the William Penn Foundation, the 
Annie E. Casey Foundation and United Way of southeastern Pennsylvania.
                           the collaborations
    <bullet> Pennsylvania Center for Health Careers
    <bullet> Philadelphia Council for College and Career Success
    <bullet> Life Science Career Alliance
    <bullet> Philadelphia Academies Inc.
    <bullet> School District of Philadelphia's Perkins Advisory Council
    <bullet> Citywide Health and Life Sciences Advisory Council
    <bullet> Workforce Solutions Collaborative
    <bullet> Careerlink Philadelphia North Advisory Committee
    <bullet> National Network of Sector Partners
    <bullet> The National Skills Coalition
    <bullet> President's Economic Recovery Advisory Board Education & 
Training Subcommittee Healthcare Workforce Meeting
                            Education Works
educational and career advancement programs in healthcare change lives 
and improve patient care and prepare employees for tomorrow's workplace
In Healthcare Today, Every Employee Counts
    Delivering top-quality healthcare while remaining financially sound 
has never been easy. But today's healthcare providers face greater 
challenges than ever before:

    <bullet> Severe shortages and high turnover of nurses, allied 
health professionals and direct care workers;
    <bullet> Competition from new forms of healthcare delivery;
    <bullet> Constant demands to update technology and equipment; and
    <bullet> Steep cuts in governmental funding.

    To survive and thrive, successful healthcare organizations must 
find cost-effective ways to prepare employees for a more complex, 
demanding workplace. At a time when providers must do more with less, 
the skill level of every employee counts.
Education Works--for the Entire Organization
    Employee educational and career advancement programs strengthen the 
organization's ability to:

    <bullet> Prepare for changes that are constantly reshaping 
healthcare practice and policy;
    <bullet> Maximize the knowledge and skills of those already on the 
job;
    <bullet> Create life-changing opportunities, particularly for 
workers in low-wage, low-skill positions;
    <bullet> Reduce the high cost of turnover by retaining skilled 
workers; and
    <bullet> Attract workers trained to meet the needs of your 
organization.

    As employees advance, so does the entire organization. Workers gain 
greater skill, job satisfaction, career advancement--and the ability to 
deliver better quality patient care.
Providing ``Industry-Specific'' Training to Healthcare Providers
    Because they are based on the challenges employees face every day, 
``industry-specific'' educational programs achieve greater lasting 
benefits for employers and employees than general academic programs. In 
the Philadelphia region, the District 1199C Training & Upgrading Fund 
is one of the leading providers of educational and training programs 
specifically tailored to employees in the healthcare industry.
Opening Doors to Life-Changing Opportunities
    Every year, nearly 5,000 employees enroll in training and 
educational programs offered by the Training Fund at the Breslin 
Learning Center and area schools of nursing and allied health. These 
students are a vital asset to their employers and enjoy the benefits of 
greater job satisfaction, higher wages and the opportunity to 
contribute to the quality of care in their organization.
  providing vital educational resources for the healthcare providers 
                       in the philadelphia region
The Training Fund--Partnering With 54 Regional Healthcare and Human 
        Services Employers
    Because most healthcare employers do not have the time or resources 
to develop full-service educational programs of their own, a unique 
collaboration was formed between District 1199C and healthcare 
providers in southeastern Pennsylvania and southern New Jersey. Since 
1974, this educational partnership has:

    <bullet> Improved patient care;
    <bullet> Helped thousands of employees move up the career ladder 
while on the job;
    <bullet> Boosted employer recruitment and retention efforts;
    <bullet> Attracted new workers to the healthcare field; and
    <bullet> Enabled employers to build a more skilled, diverse 
workforce.

    The Training Fund is a jointly managed, non-profit trust of 
District 1199C of the National Union of Hospital & Healthcare 
Employees, AFSCME and 54 healthcare employers in the Philadelphia 
region. The Fund serves more than 17,000 Delaware Valley residents 
annually.
Providing Vital Resources to the Region's Healthcare Employers
    The Training Fund helps regional healthcare providers gain access 
to valuable expertise and resources through its network of governmental 
agencies, labor and business organizations, grass-roots community-based 
organizations, foundations, area colleges and universities, the School 
District of Philadelphia and the William Penn School District in 
Delaware County. These links enable the Training Fund to take a leading 
role in shaping healthcare policy and practice, to collaborate on new 
initiatives and to keep employers and workers current with changes in 
the field.
    The U.S. Department of Labor and the PA Department of Labor and 
Industry have awarded the Training Fund millions of dollars in Federal 
and State grants for nursing and allied health programs. The Training 
Fund has been recognized as a national model for its innovative 
programs in healthcare career advancement.
             A One-Stop Resource for Health Career Training
          from basic education to specialty training programs
    At the Fund's spacious, well-equipped Center City Philadelphia 
location, at satellite centers in the region or customized programs at 
your worksite, the Training Fund offers a wide range of programs, 
including:

Basic Academic Preparation
    <bullet> Basic education, literacy and English as a Second Language 
(ESL) programs;
    <bullet> Tuition-free, self-paced adult high school diploma 
program;
    <bullet> GED preparation;
    <bullet> Pre-college academic enrichment/preparation for higher 
education;
    <bullet> Pre-nursing programs; and
    <bullet> IC3 Certification in Microsoft Word, Excel and Internet 
computing.
Professional Programs in Healthcare and Human Services
    <bullet> Nurse Aide and Extended Nursing Duties;
    <bullet> Licensed Practical Nurse (LPN);
    <bullet> Funding for Associate, Bachelor, Registered Nurse, and 
Allied Health degrees;
    <bullet> Behavioral Health College Program;
    <bullet> Child Development;
    <bullet> Allied Health Technical Programs; and
    <bullet> Health Information Technology.
Flexible, Part-Time Collegiate Programs Leading to Degrees
    <bullet> Articulation of the Training Fund's Practical Nursing 
Program (LPN) with the Registered Nursing Program of Community College 
of Philadelphia (Under development).
    <bullet> 30-credit certificate and 60-credit Associate Degree 
program in Behavioral Health offered at the Training Fund. This program 
articulates with Philadelphia University's Behavioral Health and Human 
Services bachelor's degree program.
    <bullet>  Philadelphia University Prerequisite Courses for Nursing 
and Allied Health. College-level credit prerequisites are now offered 
at the Breslin Learning Center in collaboration with Philadelphia 
University--in flexible evening, morning, and weekend formats.
Workforce Development and Employment Services
    The Training Fund Placement Service works with more than 100 
healthcare facilities to refer pre-screened, qualified job candidates, 
including program graduates, new entrants to health-care and 
experienced employees looking to advance in their field.
Customized Educational and Organizational Development Programs
    Training Fund staff also work with employers to create customized 
solutions for specific educational or training objectives, based on the 
needs of the organization and skill levels of the employees. These have 
included: specialty skills training to fulfill mandated insurance 
regulations; pre-nursing/pre-allied health; effective communication 
skills; multi-cultural and cross-cultural understanding; English as a 
Second Language (ESL) and basic foundation skills in reading, writing 
and mathematics; conflict management; mentoring training for frontline 
direct care workers and job coach training for their supervisors.
        helping healthcare workers advance up the career ladder
Helping Employees Pursue Their Education While on the Job
    Juggling full-time jobs and family responsibilities can make it 
challenging for many adults to re-enter the classroom. The Training 
Fund helps ease the transition through a range of services: 
confidential academic and vocational counseling, academic and career 
interest assessments, and assistance with resume writing, interviewing 
and job search. While in the program, participants receive mentoring 
from Training Fund faculty and staff to encourage, motivate and guide 
them toward their educational and career goals.
Flexible Scheduling Helps Everyone Succeed
    To help insure the success of full-time employees attending 
training programs, the Fund works with employers to offer release-time 
programs, either on or off the clock. Working adults can choose from 
among flexible, part-time programs, offered 7 days a week in two 
shifts.
Offering Many Convenient Locations
    Students may attend educational programs at:

    <bullet> The Training Fund's Thomas Breslin Learning Center in 
downtown Philadelphia;
    <bullet> Our satellite location in Cherry Hill, NJ; and
    <bullet> Customized career ladder programs at the employer's 
workplace.
Full Educational and Financial Benefits for Partnering Employers
    Employers who contribute to the District 1199C Training Fund can 
obtain the highest level of education and training benefits for their 
employees. Government funding obtained by the Training Fund helps 
employers leverage their training investment and expand opportunities 
for member employees, who are eligible for three levels of educational 
funding support:

    <bullet> Tuition reimbursement up to $5,000 per year for approved 
courses, workshops, seminars and conferences at area colleges, 
universities and vocational programs as well as programs by accrediting 
organizations.
    <bullet> Full-time scholarships covering tuition up to $10,000 per 
year for up to 2 years of study.
    <bullet> Free continuing education programs with flexible (day, 
evening and weekend) schedules at the Breslin Learning Center and 
satellite locations. Many classes are open to community members, as 
well as union members.
Healthcare Training Programs Open to Community Members
    Community members who wish to attend programs at the Training Fund, 
or healthcare employees who are not covered by the educational benefit 
may pursue educational programs at the Training Fund at a non-profit 
tuition rate, or may be eligible for free training through a range of 
government programs.
            transforming philadelphia's healthcare workforce
Creating a Pipeline for New Healthcare Workers
    As the healthcare industry copes with a severe shortage of 
qualified workers, the Training Fund is helping employers by creating a 
pipeline to new employees. By virtue of its credibility and well-
established reputation in the community, the Training Fund successfully 
attracts incumbent workers, minorities, immigrants and young people 
into the field of healthcare, and provides employers with greater 
access to a more diverse, skilled workforce.
Preparing Youth for Careers in Healthcare
    The Training Fund has partnered with the School District of 
Philadelphia through its health-care academies and Citywide Health 
Advisory Council, as well as with the Philadelphia Youth Network to 
create high-quality secondary school curricula and work-based learning 
opportunities for youth interested in careers in healthcare. The 
Training Fund has led efforts to draw more in-school and out-of-school 
youth to careers in the healthcare field and better prepare them to 
pursue higher education and professional careers.
Designing Career Ladders for Other Settings and Industries
    As healthcare delivery has changed, the Training Fund's educational 
offerings have moved beyond hospitals to include long-term care 
facilities, mental health and retardation programs, home care and 
community-based agencies. In addition, the Training Fund develops 
educational programs for other industries to enable workers to move up 
the career ladder within their particular organization. The Fund works 
with employers to integrate instructions in reading, writing, math, and 
ESL with the specific work skills needed on the job. Examples include 
transit workers, parking facility attendants and university dining 
service employees.
For More Information:
    The District 1199C Training & Upgrading Fund provides significant 
employee benefits to member agencies. If you need more information 
about the work of the Training Fund, please contact us at:

District 1199C Training & Upgrading Fund: 1319 Locust Street, 
    Philadelphia, PA 19107, (215) 735-555 (voice); (215) 735-7910 
    (fax).

Thomas Breslin Learning Center: 100 South Broad Street, 10th Floor, 
    Philadelphia, PA 19110, (215) 568-2220 (voice); (215) 563-4683 
    (fax).

District 1199C South Jersey Office: 401 Route 70 East, Cherry Hill, NJ 
    08034, (856) 428-8355 (voice); (856) 428-6705 (fax).

Web site: www.1199ctraining.org.

E-mail: <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="096468606549383830306a7d7b68606760676e27667b6e27">[email&#160;protected]</a>

    Senator Casey. Thank you very much, Ms. Feldman.
    Mr. Templin.

STATEMENT OF ROBERT TEMPLIN, JR., PRESIDENT, NORTHERN VIRGINIA 
            COMMUNITY COLLEGE (NOVA), ANNANDALE, VA

    Mr. Templin. Mr. Chairman, members of the committee, thank 
you very much for having me today.
    My name is Bob Templin. I am the president of Northern 
Virginia Community College, or what we call NOVA, and we have 
72,000 students enrolled in post-secondary education, most 
often leading to a credential that is valuable in the 
workplace.
    In addition, we train over 20,000 workers annually, and we 
are one of the largest and most ethnically diverse institutions 
of higher education in America. We are only 1 out of nearly 
1,200 community colleges across the country, and we represent 
44 percent of the Nation's undergraduate students that are 
enrolled today. That is about 7 million students that are in 
credit programs and another 5 million that are in the 
workforce.
    I am going to try to connect the dots of what we have been 
talking about today, that as the economy begins to grow and 
jobs are created, the jobs with the greatest livable wage, with 
the greatest opportunity, are going to be middle-tier jobs that 
require more education than high school, but not necessarily 
the baccalaureate.
    Under our current programs, often we are encouraged to 
develop through community-based organizations job training 
programs that lead to entry-level jobs, and that is great. That 
is not sufficient. Low-wage earners who get entry-level jobs 
without a post-secondary credential will be the first laid off 
when the economy turns down or there is a change in technology.
    We have to connect WIA-funded programs to encourage 
individuals to continue their education to accomplish a post-
secondary degree. It needs to be an explicit component.
    Now that post-secondary credential doesn't have to be a 
college degree. It can be an industry certification. It can be 
completion of apprenticeship. Too often we allow individuals to 
stop at the very moment they begin to experience success. We 
have to explicitly link and encourage innovation between 
players in the WIA system and measure their performance and 
accountability against results of their clients receiving post-
secondary credentials.
    If we can do that linkage, we can pull people out of 
poverty and into family-sustainable wage jobs. In my testimony, 
I have given three examples of how that could be done. One of 
them is a program that NOVA operates with a comprehensive 
social service organization that helps families in poverty. 
Most of them are immigrant.
    That program prepares individuals to do entry-level office 
work using Microsoft Office software, to serve as receptionists 
and administrative assistants in medical offices. When they 
complete that program, because of the linkage that it has with 
NOVA, they have completed almost one semester of college 
credit.
    Their employers agree when they hire them to encourage them 
to continue their education toward an associate degree, and 
they help reimburse tuition for that expense. As a consequence, 
almost half of the graduates from the community-based program 
receive an entry-level job and then continue their education 
toward a credential.
    They have a future. They will have a stackable, portable 
credential that, in the event that they are laid off, they will 
have a credential that they can go to another employer and 
receive a job.
    A second example is in an area for youngsters who have 
graduated from high school, but have no plan. Perhaps no one in 
their family ever went to college. They don't know what careers 
are available and what to do. Northern Virginia Community 
College created a link with a community-based organization 
called Year Up.
    That Year Up provides classroom instruction for about 6 
months with a paid wage and then an apprenticeship. The 
students don't think they are going to college, but when they 
complete that program, they have skills for an entry-level job 
and 18 college credits through Northern Virginia Community 
College and an employer that insists that they continue their 
education toward an associate degree.
    Once again, a person moving at the IT help desk level has a 
wage but, without a credential, has no chance of progressing. 
With an associate degree, they have a future, a portable 
degree, and the opportunity to continue their education at a 
university.
    A third example fits right into the disabled community that 
the chairman spoke about earlier. Imagine for a moment, 
Goodwill Industries International has 180 regional offices 
across the United States helping the disabled to get entry-
level skills, and that is wonderful. What would happen is--
those 180 regional offices connected with America's 1,200 
community colleges and created the option for college credit 
for them to get the skills, get the credit, and then continue 
their education and to have a career opportunity.
    WIA reauthorization needs to encourage collaboration across 
sectors and put a premium on the achievement of post-secondary 
market-valued credentials.
    Thank you very much, Mr. Chairman.
    [The prepared statement of Mr. Templin follows:]
             Prepared Statement of Robert G. Templin, Jr.*
    Chairman Harkin, Ranking Member Enzi, and distinguished members of 
the committee, thank you for the opportunity to address you today. My 
name is Bob Templin and I am the president of Northern Virginia 
Community College, or ``NOVA'' as our students call us. NOVA is an open 
door, public community college offering credit programs through the 
associate degree level, as well as workforce development programs. 
Serving over 72,000 students annually in degree credit programs and 
20,000 in workforce development courses, NOVA is one of the largest and 
most ethnically diverse institutions of higher education in the United 
States.
---------------------------------------------------------------------------
    * Note: Portions of this testimony are excerpts or adaptations of 
the American Association of Community College's white paper entitled, 
``AACC WIA Reauthorization Priorities.'' However, this testimony does 
not necessarily reflect the entire or official position of AACC.
---------------------------------------------------------------------------
    I have come to speak with you today about the need for our Nation 
to create an integrated workforce development system that offers a 
seamless delivery of services to address employment, education, and 
skill needs of workers, job seekers, and employers.
             the next economic recovery: who will benefit?
    Even as the unsettled economy continues to behave in volatile ways, 
forecasters are predicting that a new generation of innovations (from 
energy, the life sciences, green technologies, health care reform, and 
information technology) hold the promise not only of driving economic 
recovery, but also of sparking another extended period of economic 
expansion in America. If such forecasts are on target, there will be 
many opportunities for those who are ready to take advantage of the 
economic updrafts. But during the last economic expansion, too many 
poor Americans did not gain lift from these updrafts. During the next 
economic expansion, our country must take the initiative, anticipate 
labor market changes before or as they occur, and then use these 
changes to create new economic opportunities for all of our people, 
including those from low-income neighborhoods. What should our country 
be doing now that will help our poor people and low-income communities 
soar when the economy rises again?
    Even when skill shortages re-emerge, adults and youth living in 
low-income communities are likely to be left out of the picture, unless 
special efforts are made. They not only lack the specific skill sets 
required for the changing economy, they often lack the foundational 
knowledge needed to acquire higher-level skills, and they most often 
lack a market-valued portable credential. The poor frequently are the 
last to benefit from economic expansion and among the first to be 
affected by downturns in the economy such as the current recession. 
Entry-level skill training represents only one part of what is required 
for a worker to secure and retain meaningful employment. Without 
broader foundational knowledge, post-secondary level training, a 
portable credential, and actual job experience, narrowly focused skill 
development too often results in a one-way ticket to entry level jobs 
that are the first to be lost at the next technology innovation or 
economic downturn.
        building a workforce system with family-sustaining wages
    The challenge is that we have to move beyond a preoccupation with 
short-term entry-level skills training and move toward a workforce 
development system that encourages training that leads to both 
employment and a post-secondary credential and provides employment with 
family-sustaining wages.
    In reauthorizing the Workforce Investment Act (WIA), Congress 
should reform the workforce system with the goal of providing workers 
access not only to immediate employment, but simultaneous access to 
portable and ``stackable'' post-secondary credentials leading to 
sustainable-wage jobs. Currently, WIA and other workforce development 
programs are not doing enough to establish clear and multiple pathways 
to market-valued post-secondary credentials for workers, especially 
those with low-skill levels. Too often training providers operate in 
relative isolation providing entry-level training skills that do not 
result in a portable and market-valued credential. And, they are not 
incentivized to work as part of a larger workforce system, across 
organizational boundaries, to create a seamless pipeline that develops 
low-skill individuals into higher-skill workers who can find and 
maintain employment in higher-wage jobs. To do this, the workforce 
investment system must spur greater degrees of innovation and 
collaboration between key stakeholders.
  the role of america's community colleges in the new workforce system
    One of those key stakeholders is America's community colleges. With 
the proposed American Graduation Initiative (AGI), the current 
Administration has recognized the importance of community colleges in 
making the United States a world leader in higher education attainment 
by 2020. I urge the Senate to pass that critical legislation. For the 
same reasons that underlie the broad AGI initiative, community colleges 
should play a central role in the WIA system as well. Community 
colleges are the primary ``on ramp'' for the majority of low-wage and 
first-generation college goers in America. Community colleges are 
America's public asset in moving low-skill workers into higher-paying 
careers. Whether it be educating low-skilled adults and those with 
limited English proficiency and transitioning them to post-secondary 
education, developing and offering cutting-edge occupational programs, 
or working directly with businesses to help train their workers, 
community colleges are a natural hub of the workforce development 
system. But too often, community colleges are regarded as mere vendors 
in a system where they should be looked upon and behave as true 
partners.
    Some States have positioned community colleges strategically as the 
hub of their workforce development system. For example, in my home 
State of Virginia, the Governor asked the community college system to 
administer the WIA program and to serve as staff to the State workforce 
investment board. The reasoning behind this move was simple: in an era 
in which high school is no longer the finish line, State and Federal 
programs should utilize and support the public asset that anchors 
workforce development at the post-secondary education level--the 
community college. On a national level, however, WIA is essentially 
agnostic as to training providers. Prioritizing the role of community 
colleges is key to strengthening the system overall. Community colleges 
are the closest thing this country has to a national network of 
ubiquitous, low-cost and high-quality training providers, and the WIA 
legislation should reflect that. Community colleges are a national 
asset that WIA is not leveraging to its fullest.
    One such community college is Northern Virginia Community College. 
NOVA has developed new ways that community colleges and community-based 
non-profit job training programs can work together to help low-income 
Americans secure higher paying jobs and long-term career advancement by 
rapidly progressing toward a post-secondary credential. I would like to 
describe three such partnerships between NOVA and community-based 
organizations to help illustrate the points I want to make regarding 
WIA reauthorization.
                            training futures
    One of these is a program that integrates the training provided by 
a community-based organization with NOVA's post-secondary certificate 
program in office administration. For the past 6 years, NOVA has teamed 
with Northern Virginia Family Service (NVFS), a community-based 501(c)3 
non-profit organization that assists low-income families with 
challenges that range from health and housing issues to economic 
concerns and traumatic crises. NVFS has a training program named 
Training Futures (TF) that targets underemployed and unemployed 
Northern Virginia family breadwinners. Three-fourths of the trainees 
are immigrants. Most are stuck in dead-end retail, service and manual 
labor jobs paying an average wage of $10.00 an hour with no benefits. 
Two-thirds are trying to raise families with an average annual income 
of $20,000. Many of these family breadwinners wake up every day knowing 
they may be just one missed paycheck from receiving an eviction notice. 
Without upgrading their skills for new jobs, these working poor can 
remain stuck for years living on the edge of homelessness. And, without 
a post-secondary credential, their chances of upward mobility are slim 
to none.
    Training Futures delivers a 24-week comprehensive training and 
internship program targeted at entry-level health care office 
administration jobs. Because of its partnership with NOVA, TF graduates 
leave the program with marketable skills and a jump start toward a 
college degree with 17 college credits. Through this community college-
nonprofit workforce development partnership, over 500 low-income 
trainees at Training Futures have earned college credits to help them 
launch and advance new careers. Earning college credits gives TF 
graduates an edge in competing for scores of job openings in northern 
Virginia that list ``some college preferred'' on job ads. Despite the 
recession and decline in hiring, Training Futures' job placement 
outcomes have remained in the 80 percent range.
    According to a recent third-party survey, one-third of TF's 
graduates have continued working toward an associate degree at NOVA 
after graduating from the program. Were it not for the special 
collaboration between NOVA and Training Futures, it is likely that most 
program completers would have little prospect of achieving a post-
secondary credential or career mobility. By creating an ``on ramp'' to 
college, NOVA and TF have created the pathway for continuing 
professional development that helps graduates accelerate their career 
advancement and job security, with two-thirds of graduates reporting 
promotions. It also contributes to nearly doubling of graduates' 
earnings to over $35,000 at the time of the graduate survey. In 
addition to graduates' wage increases, the survey also documented an 82 
percent increase in home ownership, doubling of the proportion of 
trainees receiving employment benefits such as health care insurance, 
and doubling of average family savings.
                                year up
    Year Up is another example of a community-based non-profit that 
teams with NOVA in the Washington, DC metro area. It offers a 1-year, 
intensive training program, providing a combination of technical and 
professional skills in information technology, an educational stipend 
and corporate internships. Working with NOVA, the program offers a 
semester's worth of college credit to those completing the program. 
Year Up students are young adults between the ages of 18 and 24 who 
know they can do better than remaining in minimum-wage jobs. Some are 
single parents. But with only a high school education, they lack the 
skills, experience, and credentials to launch themselves onto a career 
track. They see Year Up as their launching pad for both an IT career 
and a start in college, especially now that graduates receive college 
credit from Northern Virginia Community College. Within 4 months of 
graduation, nearly 80 percent of Year Up completers are employed with 
average earnings of over $35,000 a year. Year Up currently serves more 
than 1,600 students a year at sites in Atlanta, Boston, Providence, New 
York City, San Francisco, and Washington, DC.
                   goodwill industries international
    A third example of community college-CBO partnership illustrates 
the potential power that a collaborative relationship between America's 
community colleges and community-based nonprofits could have if scaled 
nationally. Last November, national leaders from Goodwill Industries 
International, the Nation's largest non-profit job training provider, 
teamed with NOVA and a group of America's community colleges to chart a 
national strategy to help thousands of low-income Americans nationwide 
achieve extraordinary job and college attainment results. The vision is 
to create a national workforce development strategy between the 
Nation's community colleges and Goodwill Industries International, to 
provide skills training to low-
income individuals and to create an explicit pathway toward a post-
secondary credential and a family-sustaining wage with healthcare and 
retirement benefits. Such a partnership between America's 1,200 
community colleges and Goodwill Industries offices nationally that 
serve 1.5 million low-income and disabled individuals annually offers 
an unprecedented opportunity for our country to help low-income 
Americans achieve self sufficiency and build a more competitive 
economy.
                      the current wia environment
    In northern Virginia, NOVA and the Northern Virginia Workforce 
Investment Board have a strong history of collaboration, focusing on:

    <bullet> targeted industry and occupational training, particularly 
in nursing and allied health worker training and teaming through a WIA 
Community-Based Job Training Grant;
    <bullet> job placement within high impact employers and industries. 
In Northern Virginia, NOVA has consistently been the largest training 
provider of WIA training programs in the region;
    <bullet> collaborative service strategies, such as workforce board-
administered career centers on NOVA campuses or NOVA employer outreach 
teams based at Northern Virginia Workforce Board's Comprehensive 
Workforce Centers; and
    <bullet> win-win efforts on behalf of both workers and the region's 
businesses. In 2009, the Northern Virginia Workforce Board funded an 
economic feasibility study to develop a new workforce development 
center on one of NOVA's campuses. That study will be the basis by which 
NOVA will seek additional State funding to build this center.

    But, even with the strong relationship with the northern Virginia 
WIB, NOVA's CBO partnerships all face significant challenges in 
qualifying for or working with WIA funding due to WIA's current 
emphasis:

    <bullet> Funding tends to favor short-term skills training and 
immediate employment rather than supporting longer-term career 
development and transitions toward achieving a post-secondary 
credential;
    <bullet> Establishing trainee/student eligibility is a cumbersome 
and difficult process, leading many community colleges and CBOs to 
direct their efforts to other than WIA-supported training;
    <bullet> Community colleges tend to be regarded as simply another 
training provider rather than a critical hub of the public workforce 
development system;
    <bullet> There are few incentives to recognize or reward 
collaboration, innovation, or leveraging resources between key players 
within the workforce development system;
    <bullet> Funding criteria emphasize direct training services rather 
than critical capacity building that incentivizes effective programs to 
achieve scale and sustainability.
    recommendations offered for consideration in wia reauthorization
1. Strengthen Pathways to Post-Secondary Credential Attainment
    The Nation's economy requires that an unprecedented increase in the 
percentage of the population who achieve market-valued post-secondary 
credentials. Achieving this goal will require a multi-faceted effort on 
the parts of institutions, States and the Federal Government. This 
effort will only succeed if we are effective in reaching out to 
populations that are currently underrepresented in post-secondary 
education, such as those participants in CBO training programs, and 
design training pathways at the post-secondary level that lead to high-
wage employment. In WIA reauthorization, Congress has a significant 
opportunity to assist this effort by providing support for increased 
linkages between community-based organizations that do workforce 
training and post-secondary education institutions such as community 
colleges. The CBO-to-postsecondary ``pipeline'' is vital to achieving 
the post-secondary credential achievement rates that are required to 
maintain our Nation's economic competitiveness.
    To improve the functioning of the CBO-to-postsecondary pipeline, 
the following features are recommended:

    <bullet> Add ``transition to post-secondary education and 
training'' to the purposes of the act and the definition of adult 
education, and clarify throughout the act that transition programs can 
and should be funded with WIA funds.
    <bullet> Include a measure of the total number of people served by 
the workforce development system who make the transition to post-
secondary education and training in the performance accountability 
system.
    <bullet> Require eligible agencies to consider, when deciding on 
local grants and contracts, whether grantees offer explicit provisions 
for post-secondary transition.
    <bullet> Prioritize youth programs that have strong connections to 
post-secondary education.
2. Encourage Collaboration & Innovation Between Key Workforce 
        Development Stake Holders
    Congress should think broadly about the most effective ways to 
administer WIA funds at the regional and local level, to ensure the 
proper mix between assisting participant access to training and the 
development of training capacity:

    <bullet> Authorize sector initiatives. Sector initiatives bring 
together training providers, businesses, WIBs, economic development and 
other key partners to develop training programs and train workers and 
provide other services to help important local business sectors thrive. 
These initiatives are a particularly effective way of ensuring that 
workers are receiving training for available, good jobs. WIA should 
provide State and local areas with ample latitude to design such 
initiatives that best suit their needs. Community colleges should be 
regarded as key partners in any such program that receives WIA support. 
The Community-Based Job Training Grant program provides a model that 
should be used when designing sector initiatives within the WIA formula 
programs.
    <bullet> Establish incentive grants to reward innovative and 
effective programs. Incentive grants should reward more than just 
meeting a numerical benchmark. They should spur the innovative, 
effective and coordinated approaches devised at the State and local 
levels that other areas should emulate. Effective utilization of 
community colleges--community-based partnerships should be one of the 
considerations in deciding grant recipients.
    <bullet> Help successful programs scale so they can increase their 
impact and be sustainable.
    <bullet> Promote and ensure an efficient and effective coordination 
of investments and services across a wide range of programs, providers, 
and systems, particularly those such as WIA's own adult, dislocated, 
and youth funding, Wagner-Peyser Employment Services, Trade Adjustment 
Assistance, Pell grants for Unemployment Insurance claimants, and Re-
employment Eligibility Assessment.
    <bullet> Strengthen ties to such programs as Carl Perkins, TANF, 
ABE, Food Stamps Training programs, and other programs that seek to 
provide skills development and employment assistance to our Nation's 
workers. Congress should insist that these programs be administered 
consistently at the One-Stop Employment Centers, rather than the 
multiple other methods of service delivery. This one action will move 
the system towards greater integration, on behalf of the job seeker.
3. Provide More Support for the Expansion of Training Capacity
    Community colleges place top priority on efforts to help students 
access 
post-secondary education and training. However, many community colleges 
are straining to serve all the students who are enrolling. In economic 
downturns such as the one we are now experiencing, double-digit 
percentage increases in enrollment from one year to the next are the 
norm. According to a recent survey by the American Association of 
Community Colleges (AACC), community college enrollments have increased 
by 16.9 percent in the last 2 years. These enrollment increases are 
often not covered by State appropriations, so colleges are forced to 
raise tuition (if they have that authority), cut expenses to the bone, 
or turn students away from their programs. Often, it will be a 
combination of all three. The average community college derives 
approximately 20 percent of its revenue through tuition and fees, which 
gives some idea of the percentage of the college's actual program costs 
that are covered by individual training accounts.
    WIA should provide more direct support for additional training 
capacity at community colleges. Without a Federal priority on 
developing this capacity, WIA participants will continue to face less 
effective, more expensive options if they wish to immediately access 
training. Businesses will struggle to find candidates with the skills 
that they need for available jobs.
    Congress can take some simple, but meaningful, steps in this 
direction under the current WIA structure:

    <bullet> Authorize the Community-Based Job Training Grants 
(CBJTGs), which were created in 2004 in response to this capacity 
crunch. The CBJTGs are a sector initiative that is funded and is 
working. The program should be authorized as it was originally 
envisioned, namely a national competitive grant program that awards 
grants to community colleges, working in partnership with local WIBs, 
businesses and other key stakeholders to expand training capacity at 
the college and train workers for high-demand occupations. 
Unfortunately, the Administration has proposed the elimination of this 
program in its fiscal year 2011 budget. The support this program offers 
is crucial, and it would be a mistake to eliminate it. As I mentioned 
earlier, it should also be a model for incorporating sector strategies 
into the WIA formula programs.
    <bullet> Give local workforce boards greater flexibility to utilize 
training contracts, especially with low-tuition training providers such 
as community colleges. This approach was taken in the American Recovery 
and Reinvestment Act because Congress recognized it as a way to 
expeditiously and effectively train workers and stimulate the economy. 
It should be made a permanent part of WIA.
                               conclusion
    America's community-based non-profit organizations have several 
distinctive strengths often not found in American higher education. 
CBO's are particularly successful in reaching low-income populations 
who are not in school. Many of these participants need entry-level job 
skills, additional support services in order to complete job training 
programs, and quick job placement results that are often not available 
from colleges. America's 1,400 non-profit CBO workforce development 
providers serve several million adults annually. Their entry-level job 
training programs represent a great beginning, but typically they are 
not sufficient to move low-skill workers into sustainable careers with 
livable wages and benefits. For that to happen, some form of post-
secondary credential is needed. America's 1,177 community colleges can 
do the job of linking CBO job training with college opportunity. 
College credentials are America's surest ticket to long-term success. 
Americans with associate degrees earn 29 percent more than high school 
graduates, and are 30 percent less likely to be unemployed.
    CBO's and community colleges offer complementary assets. Community 
colleges and community-based organizations already have mission 
alignment to train moderate-income young adults and low-wage workers. 
CBO's excel at job skills training, job placement, and specialized 
support services for immediate job and wage-gain results. Community 
colleges provide low-cost college education opportunities, access to 
Federal financial aid (Pell grants) and college credentials for long-
term career advancement.
    Together, the Nation's community colleges and community-based 
organizations can form key components of a comprehensive workforce 
development system operating to the benefit of workers, the unemployed 
and America's businesses, IF they join their extraordinary job training 
and educational outcomes together. What is needed is a workforce system 
that incentivizes them to work as one.
    Thank you, Mr. Chairman and members of the committee for this 
opportunity to speak with you today.

    Senator Casey. Thank you very much.
    I am going to, for purposes of moving our hearing along, 
postpone my questioning. I will turn first to our Ranking 
Member, Senator Enzi, and then go to Senator Brown. I know 
Senator Brown has to leave, and we will try to be as flexible 
as we can with other members as well.
    Senator Enzi.
    Senator Enzi. Thank you, Mr. Chairman.
    I have to do some work on healthcare, too. This is equally 
important to healthcare. I want you to know that it bears that 
kind of importance for me. We have been working on it for 
years, and it is time to get it done.
     I appreciate the comments of everybody. They have been 
excellent. It doesn't matter who we have testifying, even with 
Governors and veterans and others that we have had testify in 
past hearings, the message is pretty much all the same. And 
that is we really need to do something in this area, that we 
need to get rid of the silos, build in some flexibility, and 
there needs to be increased funding.
    Now, I believe that if we ever get this reauthorized, there 
will be more funding. Right now, we are not using all of the 
funds because of the silos, and that is a counter argument to 
provide more funding. I think we can make the changes.
    I will begin with Mr. Stalknecht. Last week, I was in 
Wyoming. I went to an organization that is now nationwide. They 
train mechanics for diesel trucks and cars and do what you were 
talking about. It is called WyoTech. I agree that we need to 
change the culture, and we need to have the on-the-job 
training. I am committed to a workforce system that job seekers 
and employers can use.
    How can we continue to engage business to be a part of the 
decisions related to skill training, to education, and 
workforce development? What types of roles does business find 
most meaningful?
    Mr. Stalknecht. Thank you, Senator.
    Small businesses and the ones I represent, as I indicated 
before, average about $1 million revenue, less than 10 
employees. Obviously, we have some that are much larger. It is 
time constraints that they have as business owners, trying to 
operate a small business and also working with some of the WIA 
boards around the country.
    Their frustration is the bureaucracy that is there and the 
inertia that happens at some of these workforce development 
boards, where they spend a lot of time, and they just don't 
have the time to give. They sort of lose their interest in 
that.
    If there is some way that they can streamline the processes 
at these workforce development boards, where it would be more 
objective to the effort rather than just continually having 
meetings and meetings and requiring small businesses to attend. 
They just don't have the time. There has to be some 
flexibility, as we heard from my colleagues here today, in some 
of these activities, but more importantly, recognizing the 
constraints on the small businesses. They want to help, but 
they just don't have the time in many cases.
    Senator Enzi. In some of the hearings I have held, the 
number of small businesses has been small--they said, ``How 
come that is all that showed up?'' I said, ``Well, if they had 
enough people to come to a meeting that they didn't think was 
worthwhile, they would fire them.''
    [Laughter.]
    Mr. Templin, as a former small business owner, I believe 
that it is important to encourage entrepreneurship in 
communities, and that is why I host an inventors conference 
each year in Wyoming, which opens the door to businesses to 
help make ideas a reality. Based on your experience, how can 
community programs that train entrepreneurs impact the 
workforce development system, and what, if anything, could 
reauthorization include to encourage more entrepreneurship in 
the communities?
    Mr. Templin. That is an excellent question. Community 
colleges are just at the early stages of making linkages 
between entrepreneurs and formal training, and we have 
significant models of success. Unfortunately, the stovepipes 
that we have between WIA training and higher education training 
tend to have different rules and different metrics that create 
different incentives.
    Consequently, it is the unusual community college that 
works with the workforce investment board around the area of 
entrepreneurship. More likely, they are going to develop a 
relationship with a community-based nonprofit that is already 
serving minority, low income, or immigrant populations and 
encourage those students to enter their continuing education or 
credit courses without a connection to WIA.
    It is a missing opportunity for us to work across 
boundaries and to integrate the region's resources to the 
benefit of our people.
    Senator Enzi. Thank you. My time is almost up.
    I have questions for all of you, and I appreciate you 
volunteering to be on this panel. I hope that you will answer 
some questions in writing because we can usually get into a 
little bit more detail. It is really the detail that helps us 
on this.
    I would appreciate that, and I will yield back the rest of 
my time.
    Senator Casey. Thank you, Senator Enzi.
    Senator Brown.

                       Statement of Senator Brown

    Senator Brown. Thank you very much, Mr. Chair. Thanks for 
going a bit out of order. I appreciate that.
    Ms. Feldman, I would like to ask you about sectors and the 
importance that you have attached to it and the community 
colleges, Dr. Templin, the importance that you have attached to 
it. Our SECTORS Act, our legislation is basically founded on, 
as Senator Enzi suggested, that it is from the bottom up. That 
you work with local businesses, local labor unions, local 
workforce investment boards, and local schools, universities, 
especially community colleges. My State has a terrific network 
of them, as many other States do.
    One example in Ohio of where this has worked. In Fremont, 
Ohio, a city not too far from Lake Erie, they have had a marine 
trade sector partnership. It is in northwest Ohio. Most of the 
boats registered in Lake Erie, some 400,000, are not far or are 
in the northwest part of the State between Cleveland and 
Toledo.
    There is a demand for trained skilled labor in the marine 
trade industry, but they simply don't have enough people in 
those that are skilled to do the kind of maintenance and other 
things for these 400,000 boats that are registered there.
    Talk to me about, and you think about--I think any one of 
us could take a tour of our States and point out, for instance, 
I would say in Toledo, Toledo has more solar energy 
manufacturing jobs than any city in the country. That would be 
something that local businesses and community college would 
want to concentrate on. Or you could go to Philadelphia. You 
could go different places and do the same around the country.
    A couple of questions. What, in your mind, Ms. Feldman, are 
the key elements of effective sectors partnerships? Also, how 
do existing WIA programs help or hinder the development of more 
robust sector partnerships? If you could speak generally and as 
specific as you can about both of those?
    Ms. Feldman. OK. I think what makes sector partnerships 
work, first of all, is you have to have an innovative leader to 
the partnership. That can vary from community to community. In 
some cases, it might be a community college. In other cases, it 
might be a WIB or it might be a labor-management partnership.
    I think there has to be flexibility in letting that bubble 
up out of the community or the region that is involved because 
that workforce intermediary has to be respected to bring those 
partners around the table, multiple partners. To really 
initiate workforce programs that are not just run of the mill, 
but involve a lot of innovation, which requires that people 
break down the barriers between their various organizations and 
work together to create the kind of innovative opportunities 
that are possible.
    The other piece is it has to be results-oriented, in my 
opinion. The work of that sector needs to really look at data, 
carefully analyze the labor market data, and then decide on a 
strategy driven by that data that is going to get results for 
that industry. That employer voice is really important. The 
labor voice is really important in determining that. All voices 
need to be heard at that table.
    I think I could give you some examples. In Philadelphia, 
for example, we were able to actually use an H-1B grant, as 
opposed to a WIA grant, to train 1,700 nurses that met the 
nursing needs across numerous employers. Forty-five schools 
were involved in this partnership at the community college 
level, at the hospital level, schools of nursing, as well as at 
the university level.
    In order to make that happen, we had to have the support of 
the businesses because they provided a lot of in-kind and cash 
match to it. We had to have the support of the WIA system to 
embrace it and support it. Most importantly, I think we needed 
a leader, and that came in the form of our labor-management 
partnership that had the vision that this was possible.
    Senator Brown. Let me interrupt you for a second.
    Ms. Feldman. Yes.
    Senator Brown. What you just said about a leader, and what 
you said earlier, that it is important that someone rise to the 
occasion on this. If we integrate this SECTORS Act into our 
reauthorization, as most people, I think, in both parties want 
to see us do something along those lines as a central part of 
workforce investment, can we assume that in community after 
community, creating it this way will make the leader rise to 
the top? Is there a way of guaranteeing that?
    I mean, we don't obviously mandate it needs to be in this 
case a community college, this place a business leader, this 
time a union leader, this time a workforce investment board 
person. I mean, how do we build this so it produces one or two 
or three people that are really going to pick it up like that?
    Ms. Feldman. I think this is where the legislation really 
needs to support flexibility and really needs to support the 
opportunity for communities to come forward and say here is 
this track record. We already have capacity. We don't have to 
start from scratch. As opposed to initiatives which constantly 
ask us to form new partnerships and prove something when it is 
already existing. Are you following me?
    The WIA legislation has not been particularly supportive of 
sector initiatives. The only reason we have been able to do it 
successfully in Philadelphia is because of the industry 
partnership model that was established at the State and also 
our training fund, our Taft-Hartley fund, which created this 
industry partnership in 1974. We have 49 employers that pay 1.5 
percent of gross payroll into the Taft-Hartley fund.
    We all sit around the same table. We all have common 
interests to resolve the problems that face us as an industry.
    Senator Brown. OK. Thank you very much.
    Thanks, Mr. Chairman.
    [The prepared statement of Senator Brown follows:]

                  Prepared Statement of Senator Brown

    Thank you, Chairman Harkin and Senator Enzi for calling 
this hearing. And thank you to the witnesses for joining us 
this morning.
    The reauthorization of the Workforce Investment Act should 
be a central plank in our jobs recovery strategy.
    At this point last year, we were hemorrhaging jobs at a 
rate of more than 600,000 per month. Today, we have stopped the 
bleeding but economists tell us that the job market will not 
fully recover for several years.
    According to the Bureau of Labor Statistics, since the 
start of the recession, 5 million people have joined the ranks 
of the long-term unemployed. We now have 6.3 million workers 
who have been without jobs for 27 weeks or more compared to 1.3 
million at the start of the recession. In Ohio, 641,000 people 
are unemployed--an increase of 196,000 from last year.
    Even during these very tough times in the job market, I 
hear from employers who are struggling to find workers with the 
skills that are needed to grow their businesses. Some of these 
are in the technology, health, and energy sectors. There has 
been a mismatch between our education and job training programs 
and the emerging sectors in our economy.
    That is why I introduced the Strengthening Employment 
Clusters to Organize Regional Success Act--also known as the 
SECTORS Act to align our education, job training, and economic 
development with key industry sectors to strengthen regional 
economies. We know that sectoral strategies work, yet our 
stove-piped workforce systems do not facilitate them.
    Consider the results of the marine trades sector to 
partnership in Fremont, OH. In and around the rural communities 
that surround Lake Erie, marine trade occupations are difficult 
to recruit and maintain a high level of expertise. But each 
year, there are more than 400,000 boats registered in Ohio, 
with most in northwest Ohio. So, there is a demand for trained 
skilled labor in the marine trades industry. Labor and 
community colleges, along with the WIBs, have teamed up with 
employers to develop the ``Skills for Life'' Marine Trades 
Training Initiative.
    This is just one example in my State, but there are dozens 
more in Iowa, Wyoming, Washington, and Georgia.
    We cannot return to sustainable job and wage growth without 
modernizing our workforce investment system. I am eager to hear 
the witnesses' recommendations on how we can break down the 
silos in the current system and create the conditions for 
advancement for our workers and for our economy.
    Thank you.
    Senator Casey. Senator Reed.
    Senator Reed. I yield to Senator Franken.

                      Statement of Senator Franken

    Senator Franken. Thank you, Senator.
    I guess I will go to Mr. Stalknecht. You represent small 
businesses, right, that do air conditioning, and you basically 
use WIA and workforce investment boards as a source of the 
people you represent, source of getting good workers, right?
    Mr. Stalknecht. Senator, that is one avenue we use. I don't 
know specifically to the extent of how widespread it is in our 
industry. We do know that, in fact, we had some information on 
that, and I can provide it to you a little bit later on, as to 
the placements from the WIA into the HVAC industry. I don't 
have that right at my fingertips.
    What we found most successful in our industry is two 
things. One is when we developed our own apprenticeship 
programs that were funded by the local contractor in 
conjunction with, for example, Montgomery Community College.
    Then we also found that many companies, the ones who are a 
little bit bigger of scale, had the ability to create their own 
apprenticeship program. We had one very successful one, Service 
Legends in Des Moines, IA, for example. They created their own 
program, and they get, from what I understand, over 100 
applicants a month just to go into that program.
    The question we have is, is when we have these companies 
that can afford to have apprenticeship programs and we have 
then an interest in the community, there is a disconnect where 
we don't get them from the high school feeder system into the 
industry. That is really our frustration because what we found 
in our experiences in dealing with guidance counselors around 
the country, they just are not proficient in understanding the 
opportunities in the skilled trades.
    Senator Franken. They can go to a board, a workforce 
investment board and get referrals?
    Mr. Stalknecht. That is correct. We have to back that up a 
little bit and get some information into the high school 
guidance counselors, into the high school systems about skilled 
trades. Not just for our industry, but you have the electrical 
trades. You have the plumbing trades. You have the construction 
trades, the whole gamut of a skilled workforce base.
    Senator Franken. Is it fair to say, and I will ask this of 
everyone, that one of the jobs of WIA is to be sort of a one-
stop shopping place for both people who need jobs and local 
people who need employees? Anybody?
    Mr. Carnevale. Well, there is a distinction. That is, there 
are the U.S. employment services, which are a separate 
institution pretty much entirely, that are separated from the 
WIA One-Stops. The employment services are where we keep 
information on what the--that is where you apply if you are 
looking for a job.
    The opportunity loss there, I think, because it is our 
labor exchange, is that people--I think we are talking 30 
million or so in this recession--have applied for unemployment 
insurance, and nobody ever gave them any conversation, 
counseling, and the information they might need to figure out 
what they are going to do next.
    The One-Stops have essentially been an attempt to do that, 
but they have become very separated from the core institution 
where the data is, which is in the employment where the people 
come and where the data is. For instance, if you wanted to know 
whether we should fund this industry partnership or not, first 
thing I would want to know is are there going to be any jobs 
there based on retirement of current workers and on projected 
growth?
    You would have to figure that out from the trends. If 
someone started a brand-new industry, you wouldn't have much to 
say about it. I am not sure you would want to start brand-new 
industries with public money, frankly. I think you would want 
some kind of track record.
    If you wanted to know what the wages are, the employment 
service knows. They track the wages of all Americans on a 
quarterly basis, and they can tell you which occupations pay 
and which don't. In many respects, we separated our WIA system 
from the mother ship over the last quite a few years.
    Senator Franken. You are saying we should get more 
coordination?
    Mr. Carnevale. I am saying in the end that I think 
reorganizing institutions tends to be a waste of time. I think 
we ought to do this with information. That is, we ought to know 
where the jobs are going to be, what they are going to pay. We 
ought to know the programs we put people into. If we attach the 
programs to the wage records that are kept by the employment 
service, we can know exactly how much they made and if they 
were employed as a result of the program.
    I would coordinate these institutions with information 
systems and counseling, not by reorganizing the institutions 
themselves.
    Senator Franken. OK. I am out of my time. Mr. Chairman, may 
I ask Mr. Templin one question?
    Senator Casey. You may.
    Senator Franken. Thank you.
    I have heard concerns from representatives of both business 
and labor organizations in Minnesota about training offerings 
in their community, and in some areas, community college 
programs vital to local businesses have been cut, and in 
others, community college programs have been created that 
appear to duplicate existing training programs provided by 
labor organizations. For example, the IBEW in Rochester, MN, is 
training their workers in working on wind energy, and at the 
same time, some of the community colleges are doing the same. 
The jobs just aren't there.
    Has this been a problem that you have run into, and can you 
suggest strategies for ensuring better coordination between 
training programs?
    Mr. Templin. I have seen some duplication, but not what I 
would call unnecessary duplication. In other words, I have seen 
multiple providers in a particular space where the demand for 
jobs really is there.
    In cases where demand is projected, but not currently 
there, I would hope that WIA would encourage this collaboration 
across lines so that the union and the community college could 
develop appropriate divisions of labor. A union will not be 
able very easily to grant a portable credential that you can 
stack toward a bachelor's degree if an individual experiences 
success and wants to go on.
    Similarly, a community college probably cannot create the 
kind of workplace training that a union can create. We need 
incentives that cause these institutions to work together for 
greater efficiency and effectiveness and hold them accountable 
for it.
    Senator Franken. Thank you. Thank you very much.
    Thank you, Mr. Chairman.
    Senator Casey. Thank you, Senator Franken.
    Senator Reed.

                       Statement of Senator Reed

    Senator Reed. Thank you very much, Mr. Chairman.
    Thank you for your excellent testimony.
    Let me address a question to you individually and to the 
whole panel, which reflects some of the comments that were 
raised in Senator Franken's question. What is the general 
ability and adequacy of aligning training programs with jobs, 
which, we hope, is going to be part of the reauthorization? How 
do we make sure that we are responding to the jobs of the 
immediate present and the near future and not training the 
proverbial rope-maker or something like that?
    Mr. Carnevale, do you have any thoughts? Just quickly your 
comments, and we will go down the line.
    Mr. Carnevale. Yes. To be sort of mechanical about it, I 
would use employer-based wage records, which are reported 
quarterly, tie those to transcript curriculums wherever they 
come from, proprietary schools or community colleges, 4-year, 
unions, or whatever. Thereby, I would know whether or not 
somebody got a job, how many hours they worked, and how much 
they made as a result of completing the program.
    Then I would use that same information as counseling 
information for the workers themselves. The information is not 
useful to the workers, I think, unless there is some counseling 
as a piece to it.
    We do not do a very good job at all of connecting our 
programs to current or prospective labor demand. We largely 
operate on the basis of whatever somebody wrote in the U.S. 
News and World Report this week.
    Green jobs is a case in point. Between now and 2018, we 
will probably have about 3 million green jobs, probably 5 
million or 6 million openings given retirements. That is out of 
162 million jobs.
    There is a certain sort of style factor that goes decade by 
decade with jobs. We do have the data. That is what is pretty 
stunning about all this.
    Senator Reed. Thank you.
    Mr. Carbone.
    Mr. Carbone. Yes, this is, I think, part of a leadership 
role on a regional level for workforce investment boards. We 
are supposed to be a voice. We are supposed to be a convener. 
Our job is to collect the data, interpret it, and communicate 
it.
    It seems to me that it brings it down to that local 
delivery level again. That if it is functioning as it is 
prescribed under the Workforce Investment Act, all the partners 
are getting all the information, and it is the same 
information, and there is leadership at the top of the system 
to ensure that all the partners are cooperating. Which means 
that the trainers are getting programs ready that are 
consistent with economic trends, that everybody is not trying 
to do the exact same thing.
    We are taking the best of what the community colleges can 
do or training from the labor side or other groups. It is being 
done in a way in which there is leadership to it.
    I think the act clearly gives that responsibility at the 
local level to workforce investment boards. I think what is 
incumbent upon this committee as you consider the 
reauthorization is to put the tools in the act to make sure all 
workforce boards do what workforce boards are supposed to do.
    Senator Reed. Mr. Stalknecht.
    Mr. Stalknecht. Yes. My recommendation would be to look at 
some of the private sector apprenticeship programs that are 
ongoing right now, that are very successful. As the one 
illustrated that I talked about before with the Washington, DC 
area capital, they receive, to the best of my knowledge, very 
little or no Government funding.
    The problem we have is trying to expand those successful 
models around the country, which can work. We know they can. 
The problem with supporting a private sector type of 
apprenticeship program, it could be tied in very easily to some 
of the workforce boards, but there are models out there in 
various private sector industries that do work, and we need to 
find out why they work, why they are successful.
    They are jobs. They are the energy-related jobs that are 
out there. We just need to find mechanisms to expand them 
throughout the country for the workforce that we need of the 
future.
    Senator Reed. Before I recognize Ms. Feldman, would it be 
helpful to require or as part of the Federal contracting 
process, at least give credit for apprenticeship programs as an 
incentive to move the process along? Has that been considered?
    Mr. Stalknecht. We have a program in the National Capital 
Chapter that works with Montgomery Community College. As I 
indicated before, there is about 640 classroom hours and 8,000 
on-the-job hours. There is an accreditation program that goes 
along with recognition of the on-the-job training.
    Senator Reed. My thought would be if, for example, one of 
the factors in a contract for a radar system was a plus for a 
valid apprenticeship program in the applicant, would that be 
helpful, in your view?
    Mr. Stalknecht. Well, it would be something to think about, 
and I would assume it would be very helpful. Recognizing that 
in the HVAC industry, we are a microcosm of business in 
general, where probably about 90 percent of the businesses in 
the industry are nonunion. So they are smaller companies. What 
we have is very, very good union apprenticeship programs, but 
where we need help and support is to represent those 90 percent 
of businesses that are not union and don't have the wherewithal 
to put together an apprenticeship program.
    You take the residential side. Residential are the 
technicians or the businesses that serve your home and 
everybody in this room. Probably 99 percent of those companies 
are nonunion. And what we need to find is the workforce to help 
that and programs that would help the nonunion contractors with 
apprenticeship programs.
    Senator Reed. Ms. Feldman, would you like to respond to 
your comrades' comments, or respond to the issue of aligning 
supply and demand?
    Ms. Feldman. I would like to do both. In terms of, first, 
the aligning jobs, I think that is where the sector approach 
that Senator Brown was talking about is really important. 
Because when you get employers and labor and others around the 
table from the same sector--health and life sciences, for 
example--they know what is going on on the ground, and they 
know where the jobs are going. That kind of strategic thinking, 
as part of that sector approach, is really important.
    In Pennsylvania, we established the Pennsylvania Center for 
Healthcare, which is a statewide sector for the healthcare 
industry. We have done incredible data work to identify where 
the jobs are and where they are going through 2016, and it has 
driven then all the decisions we are making in the State 
through the WIB level and through our partnership. So I think 
that sector approach is really important.
    In terms of apprenticeships, we have done some in our 
union. Not as much as the construction trades, but I think that 
there are models certainly on the labor side that are really 
beneficial to linking apprenticeship to college credits and to 
the credentials that they need so that it is more of a portable 
credential that is recognized across the industry.
    We have become a big fan of giving credit for technical 
training. I think that kind of model brings in the community 
college piece, the labor piece, the employer piece. Once you 
have a model like that, it can be replicated, and I think that 
is really important.
    Senator Reed. Thank you.
    Mr. Templin.
    Mr. Templin. My advice would be that taking pieces of what 
have been said, that the watch word isn't a cookie cutter 
approach, but that the WIB must be given flexibility. In a 
sector strategy, the WIB might not be the appropriate 
organization to lead the sector activity, but it could be very 
important to convening it and supporting it.
    With regard to data, having data available for the sector--
meaning the employers, labor, and the training providers--to 
talk with one another is incredibly important to connect jobs, 
training with jobs. Just looking at the data through the WIB 
without that conversation is not necessarily valuable. Let me 
give you a case in point.
    Right now, if you talk to at least hospitals in this 
region, healthcare systems in this region, they will tell you 
that they are not hiring many RNs. That doesn't mean that there 
is not a shortage. It takes years to develop that talent.
    If we crank down the system so that there aren't people in 
the pipeline, without a conversation and go only by the data, 
you will be seriously misled. It only works when industry is 
involved not as a spectator, but as a business proposition, 
knowing that it is vital to their future and that they are 
giving something, not just taking something, but they are 
contributing something.
    And that training organizations are held accountable not 
just for completing programs, but placing graduates in real 
jobs. That is what the WIB can do as a facilitator in a 
process. It doesn't have to always be the actor in a sector 
strategy. It often doesn't have the expertise, but it does have 
a framework that if it is given flexibility can help this 
country a great deal.
    Senator Reed. Thank you very much.
    Thank you, Mr. Chairman.
    Senator Casey. Thank you, Senator Reed.
    I want to thank our witnesses for your testimony. I have a 
number of questions. Let me just start by way of a comment.
    I have often said--and it might be somewhat of an 
exaggeration, but I think it is within the ballpark of what is 
out there in the real world--that if you had to boil down to 
two words what is the biggest economic challenge the 
Commonwealth of Pennsylvania faces, and I think it is true 
across the country, you could probably boil it down to those 
two words meaning ``workforce development.''
    Obviously, when you talk about this subject and you say 
flatly that that is one of, if not the central challenge of our 
economy going forward, there is a lot under that umbrella.
    Obviously, when you talk about if you are going to have a 
workforce development or a skills strategy so that we can 
compete in the world economy, that means that a child gets 
healthcare, nutrition, and early learning. It means that we 
have good primary and secondary education. It means that we 
have the whole range of higher education opportunities. It 
means that we have great training programs in place.
    It is easy to say it in two words, but it does imply, I 
think, having a lot of pillars to undergird that goal. I know 
that in Pennsylvania--and Ms. Feldman referred to a couple of 
examples. I know that in Pennsylvania, we have made great 
strides not only with the implementation of the act and making 
improvements, but she just mentioned, for example, the regional 
partnerships.
    We have talked a lot about partnerships today, and I am 
looking at a--I won't obviously read all this. It is a 
publication by the State industry partnerships in Pennsylvania. 
Here on page 7, you have the Northeastern Pennsylvania Regional 
Healthcare Industry Partnership, as well as the South Central 
Pennsylvania Healthcare Partnership.
    It is happening, I know, not only in Pennsylvania, but in 
other States. We can further develop that.
    One additional comment about what I have seen in 
Pennsylvania, especially when I was in State government for a 
decade, the remarkable story of community colleges. We have 14 
in Pennsylvania. We could probably use a few more.
    Maybe one of the most unheralded, underrated, 
underestimated, underappreciated education sectors that I can 
think of or, for that matter, beyond education. Tremendous 
strides we have made because of the impact of our community 
colleges.
    Let me get to a question. But before I do, I do want to 
recognize someone over the right shoulder of Ms. Feldman, Henry 
Nicholas, a distinguished labor leader with tremendous 
experience, real experience in training people for the jobs of 
the future in healthcare. Henry, we are grateful you are here. 
Next time we have one of these, we will add a chair and you can 
come up and provide testimony.
    Your work has been your testimony for a lot of years. We 
are grateful for your leadership.
    I wanted to get back to some of the questions we have moved 
through before, and I want to try as best we can, and I won't 
direct these in every instance to an individual witness but 
have people jump in when you want to. Two broad questions--one 
about flexibility and the other about this, it has been 
expressed in different ways, but something that I have heard 
over the years when I have been on the road, so to speak, 
listening to the complaints, concerns, or criticisms about our 
workforce development system and, in particular, the act.
    Some of this is a little dated because I think we have made 
progress on it. Just this disconnect between the needs of 
employers and what or who is coming through the pipeline, that 
basic disconnect.
    I know, Ms. Feldman, I will start with you, but I want to 
involve everyone in this. On I think it is the second page of 
your testimony, you say, ``Employers in the region lack a 
strong talent pipeline to fill critical jobs.'' Now I have 
heard this over the years in a lot of different contexts. Not 
just they lack enough of a pipeline of a specific skill. That 
is one thing I have heard.
    I have also heard that sometimes there is a broader base 
and a sometimes lower, but important skill level. If someone is 
hired to work in an office as something as basic and 
fundamental as a receptionist, they don't know sometimes how to 
answer a telephone. They don't know how to interact with 
people. They don't have some basic literacy skills. Then it 
goes above that to higher and much more precise skill levels.
    I wanted to have you comment on that in the context of 
Philadelphia and Pennsylvania. Then I want to have others weigh 
in as well.
    Ms. Feldman. I really thank you for that opportunity 
because one of the things we haven't talked about today is the 
importance of literacy, and what we are finding in Philadelphia 
is that--and there is a great publication called Tale of Two 
Cities put out by our Philadelphia WIB.
    Senator Casey. I have it here, actually.
    Ms. Feldman. There you go. That 50 percent----
    Senator Casey. I am sorry. This is called Help Wanted. But 
it is similar.
    Ms. Feldman. OK, same. Second edition. Fifty percent of our 
citizens in Philadelphia do not have the literacy skills 
needed, and that includes working people. We seem to focus, you 
know, on the needs of the K through 12 system. We have adults 
who are working and not working who don't have the literacy 
skills to serve as that talent pipeline for employers.
    The statistics we came up with in Philadelphia was that 30 
percent of the jobs require some kind of higher level--not even 
higher level, but some real literacy skill. We have 50 percent 
of our population trying to squeeze into 30 percent of the 
jobs. That is a real problem.
    What happens in the WIA system is we don't have the funds, 
and sometimes it is expensive. We don't have the funds to 
really work with that--with half of our population who are 
ready, willing, and able to get the skills they need to move 
into real jobs in the healthcare system. With the budget cuts 
at the State, part of our literacy money comes from the Feds, 
part comes from the State--30 percent cut in the State budget.
    I don't see literacy being addressed in the WIA Act as 
something----
    Senator Casey. I was going to ask you that.
    Ms. Feldman. As something that can be used to really impact 
this pipeline. The employers need the talent pool, and the 
workers need the jobs. But without that piece that is missing, 
how are we going to get there? I mean, there are so many great 
models, including ones that we have developed, but we don't 
have the funding for it.
    It really is an enigma to me why we can't understand that 
our economy is being held hostage by the lack of literacy 
skills of huge chunks in our population.
    Senator Casey. I want to involve others. In addition to 
literacy, just on this question of the disconnect because 
business leaders have said to me over the years--well, they 
have said a couple of things about sometimes they don't feel 
adequately represented on workforce investment boards. I think 
we have probably made progress on that.
    The main point they make is ``I need this skill level'' or 
``Five of us business leaders need this skill level coming 
through the pipeline, and we are not getting it.'' Anyone else 
on this issue? We can maybe just start left to right. That 
might be easier.
    Mr. Carnevale.
    Mr. Carnevale. I think part of what we are dealing with 
here is there has been a fundamental change in what is required 
at work. In 1969, which is the last good data we have, about 
almost 60 percent of people who were high school dropouts were 
in the middle class. That is, they were in jobs that gave them 
earnings in the middle five deciles in the income distribution. 
They weren't in the bottom three, and they weren't in the top 
three.
    Now, almost the same number, almost 60 percent of people 
who are high school dropouts are in the bottom two deciles of 
the earnings distribution. So this has been a fight. I mean, we 
have all been involved in this for a long time, trying to 
upgrade the overall skill quality.
    The other thing I would say is that we have a huge mismatch 
problem. Most Americans are either working in an industry or an 
occupation that is not growing and is unlikely to grow very 
much and where wages are not growing. Where the jobs and the 
wages are growing, we are under producing talent, both through 
the education system and in workplace systems.
    Senator Casey. In your testimony, actually, the first line 
of your testimony, you describe the mismatch as between job 
growth and skill.
    Mr. Carnevale. Yes, it is pretty striking. This recession, 
the last three recessions have accelerated this change. It is a 
new phenomenon in American economics, and that is that things 
change more in recessions now than they do when the economy 
grows robustly. Recessions kill off high school and dropout 
jobs very rapidly and institutions that house them.
    Senator Casey. Mr. Carbone.
    Mr. Carbone. Yes. As part of my written testimony, I 
included a chart that we use at The WorkPlace every day, which 
is education and training pays. It shows in the year 2008, the 
differential based upon education as to what the average weekly 
wage was and the corresponding unemployment rate.
    That is the basis for it, there is almost never enough 
money to do a literacy program the way it ought to be done. 
Again, if a workforce investment board is able to coordinate 
all of the dollars and the agencies and the entities that offer 
some kind of literacy assistance in the community, you can make 
a lot better use of the money that is there in terms of the 
return on investment.
    We actually have programs in literacy done right from the 
One-Stop system itself. We get resources from the adult ed 
departments of the communities of our region, and right there, 
when people are there to talk to their counselors and talk 
about careers, we enroll them in classes at the One-Stop.
    We have extended it now because we don't have a lot of jobs 
to give out. Jobs are scarce so we are now doing it evenings. 
We are doing it weekends. We have done a lot more of putting 
learning into our system.
    The issue of literacy that was raised is a very, very 
important one. If there is a reason for ensuring that you have 
a good infrastructure on a local level to attract funding from 
a whole variety of sources, I mean, we are always going to 
probably say that there is not enough of money in the system. I 
keep getting us back and bringing us back. The local system 
that this act does create is supposed to lead the system, and 
in doing so, there are other sources.
    My remarks today are entitled ``Beyond Formula Funding.'' 
Formula funding ought to be a leverage point to grow from there 
to bring other resources into your system to do things as godly 
as this. I mean, this is one of the most important objectives 
that I think workforce investment boards have, and yet it is 
one that stares us in the face. I don't think any of us can 
look at it and say that we are doing enough in this area.
    The disconnect issue that you raise here, Senator, is one 
that I think we have heard earlier today and I think we will 
hear it almost everywhere that you go. If we are going to bring 
businesses to the table, like this gentleman on my left, again, 
the workforce investment board has to have the credibility to 
understand the data and to understand that they are busy 
people, make the best use of their time. Either you can be 
helpful or you can't, but don't ever put somebody in a position 
where they feel like their time is being wasted.
    It brings us back to the point that as you move forward to 
reauthorize this act, pay attention to that local delivery 
point. We often defer that to the States, and I am not 
suggesting that we don't. Among the recommendations that I made 
is, be it the Department of Labor or another entity, to provide 
incentives for States to actually create a data-driven system 
to determine what is a region.
    What is it? Are they comfortable political boundaries, or 
is it the economy and commuter patterns and a lot of other 
issues, common industries, things of that sort? There is a 
science to it.
    When it is done that way, workforce boards are empowered 
with resources and minds and ideas to do a lot more and truly 
lead that system.
    Senator Casey. Mr. Stalknecht.
    Mr. Stalknecht. The responses were well stated by my 
colleagues. I really have nothing more to add to that.
    Senator Casey. Mr. Templin, anything?
    Mr. Templin. I would like to leave you with a thought. A 
number of the Senators today have indicated their personal 
knowledge about community colleges and the wonderful jobs they 
do. Without pointing fingers, I would suggest that too often, 
in too many instances, the connection between workforce 
investment boards and community colleges aren't as strong as 
they need to be.
    If we would think for a moment that, in effect, America's 
community colleges represent a public workforce system that 
isn't being leveraged to its fullest ability. We are considered 
under WIA as just another training provider rather than a 
strategic resource, an asset that the Nation has to leverage.
    I would hope that as WIA reauthorization takes place that 
we look at the Nation's community colleges from a strategic 
perspective and not only create a place at the table, but 
expect them to perform. I am not sure that that is always the 
case.
    I would recommend that America's community colleges 
represent a powerful delivery system in workforce training and 
development, that they have a responsibility and a place at the 
table as a partner, as a hub of the workforce system, not 
simply just another training provider.
    Senator Casey. That is great. If you could provide a 
specific change for the reauthorization that would incorporate 
that theme, we would appreciate that. That is why we have these 
hearings. At least that is the reason for having a hearing.
    I did want to ask two or three more. I know we are a little 
bit over time, but I don't see anyone ready to kick us out. I 
wanted to ask a question that Senator Harkin raised that 
focuses on those with a disability in the context of the so-
called One-Stop locations.
    Apparently, when you talk about One-Stop places in our 
workforce development system, there isn't a great history on 
them being effective at serving individuals with disabilities, 
and I want to get your sense of that and why that is. If you 
don't agree with that, I would like to hear why.
    But if we can accept that premise, why that is and how can 
we correct that problem in the context of a One-Stop location 
and an individual with a disability, why doesn't that seem to 
work as well as we had hoped?
    Mr. Templin. Senator, if I might?
    Senator Casey. Sure.
    Mr. Templin. I think too often we think of the workforce 
investment board in the sense that it has to be the center of 
everything. The One-Stop, by its nature, is supposed to bring 
resources together.
    In fact, when you are looking at targeted populations like 
those with disabilities, it might make more sense to go to 
where the programs are that serve them. I will use as an 
example, as I did earlier, Goodwill International, one of the 
largest training providers working with the disabled.
    Just as community colleges are places where lots of people 
come, we have learned that we have to go to where the people 
are. We have to deliver our systems to those places that are 
working well, rather than expecting them to come to us. I think 
that the workforce investment board as a centerpiece is a 
concept, but it doesn't mean that everyone has to go there for 
everything.
    If we can develop the capability of reaching out to where 
the people are, where they are being successful, then it is 
much more likely that we will be able to serve them.
    Senator Casey. Going to them, I mean, just the question of 
location or access is a big part. Is that what you are saying?
    Mr. Templin. The concept of a One-Stop isn't a physical 
location.
    Senator Casey. Mm-hmm. Right.
    Mr. Templin. It is an essence of service, of integrated 
services that meet people where they are, in times and places 
that are convenient to them. Too often, we think of One-Stops 
as a physical location that everybody has to be at in order for 
anything to get done.
    Senator Casey. I was using that phrase ``location.'' I 
probably shouldn't.
    Mr. Carbone.
    Mr. Carbone. Yes, actually, that is what One-Stops are 
really put there for. I mean, they are supposed to be, under 
the purest form of the Workforce Investment Act, to create this 
umbrella entity where under one roof you would have access to a 
host of services, career being central, but anything that was 
needed to be supportive to that.
    Senator Casey. But you agree it is a problem?
    Mr. Carbone. I agree it is a problem, but I do think it can 
be corrected. Again, I think it has to do with the leadership 
of the workforce investment board, getting agencies to really 
collaborate.
    I gave a couple of examples when I spoke earlier----
    Senator Casey. In your testimony, right.
    Mr. Carbone [continuing]. About two entities of the State 
of Connecticut that serve people with disabilities. Very 
important to us. They actually spend a day, a week at our 
center. Several other agencies, including the Goodwill and 
others, have a seat at the table at our One-Stop system.
    They are brought in. They are not there 5 days a week all 
day, but they are brought in at particular times. The case 
counselors, the managers of the activities there, know exactly 
what everybody does, when they are going to be there, and we 
try to coordinate and take advantage of every program that is 
offered.
    Senator Casey. Do you call it case conferencing?
    Mr. Carbone. Yes, case conferencing means with the State of 
Connecticut, in order to give assistance to a person with 
disabilities, it is on a most in need kind of a basis. A 
discussion between the counselors from the State and the 
counselors at the One-Stop about what is the most in need at 
this moment is important. That conversation keeps the State 
entities tied to the One-Stop.
    Both of those State entities actually spend a full day a 
week each at the One-Stop. So everybody knows each other. 
Everybody does work together. There is not conflict here. There 
doesn't need to be.
    Now there are a host of other private not-for-profits that 
offer services to people with disabilities. As I stated in my 
testimony, we have received a number of special competitive 
grants to serve people with disabilities. We actually have a 
disability service center at our comprehensive One-Stop in 
Bridgeport.
    Again, you need extra dollars beyond the formula dollars in 
order to be able to more adequately serve people with 
disabilities. From the One-Stop, that is exactly where it is 
supposed to be. Under the purest sense, people are supposed to 
be able to go to that one location and not just get help with 
career, but whatever supportive services are needed to be 
successful in that endeavor.
    It is incumbent upon the regions to bring together that 
partnership. Even if they are not there in person, for the 
counselors to know what they can do, who does it, how it is 
done, and to involve our case counselors with that entity. That 
is exactly what the purpose of One-Stops were when the 
Workforce Investment Act was passed some 12 years ago.
    Senator Casey. I know we have to wrap up. Ms. Feldman, do 
you have a comment?
    Ms. Feldman. Just a quick one. I also think we should 
recognize the disability advocates. In Pennsylvania, we have 
the Centers for Independent Living.
    Senator Casey. Yes.
    Ms. Feldman. I don't think that we are really moving in the 
right direction by not having them at the table as part of the 
solution. They are on the outside looking in. I would say that 
there is great opportunity and potential to bring them to the 
table and really work together as partners as to how to address 
the issues.
    Because they have their own workforce programs also that 
they initiate on their own, but if it is not part of the WIB 
system or the WIA system, it is not being recognized when there 
are some really exciting things happening. I would say that we 
need to focus on this from the perspective that they need to be 
at the table, driving this agenda.
    Senator Casey. OK. Before they kick us out of here, I 
better wrap up. I wanted to make a comment that may elicit 
written responses just in the interest of time. What I want to 
end with is what I might call a lightning round. Everybody has 
20 seconds to make their 20-second message on what we should 
do, providing us the kind of guidance that we need for specific 
changes during reauthorization to make the act better.
    I know it is hard to do it in 20 seconds, but if you can 
just make one quick point. Before we do that, this is something 
you may want to followup on in writing, or we may want to 
develop further at another hearing. One of the problems that we 
have in Washington is that we pass major pieces of legislation 
over time, and sometimes they are not integrated. There is not 
a seamless integration or a coordination or a strategic focus 
to major pieces of legislation.
    I will give you one example that may elicit some written 
commentary. We are in the midst of talking about reauthorizing 
the Workforce Investment Act. A couple of years ago, we passed 
the America Competes Act, which has, as many, almost everybody 
in the room knows, has as its central focus, for example, the 
STEM disciplines--science, technology, engineering, math.
    We are just beginning, through funding and the Obama 
administration's focus on this, beginning not just to fund it 
and make it a priority, but we have to think about 
strategically how do you make those two massive pieces of 
legislation work together? I am not sure that has been thought 
through, and if it has, it hasn't been emphasized enough. Think 
about that as you provide further guidance.
    Let me go from right to left, Mr. Templin, for your 20-
second message on what we should do on reauthorization?
    Mr. Templin. Sector strategies work. Community colleges can 
and should be one of the hubs of any workforce system, and we 
need to incentivize training that moves beyond entry level and 
moves toward a post-secondary credential.
    Senator Casey. Thank you.
    Ms. Feldman.
    Ms. Feldman. Sector strategies work. I also believe that 
labor-management partnerships need to be considered as a huge 
resource to build capacity within the sector strategies, that 
we need to break down the silos between literacy and workforce 
development and fund literacy. We need the opportunity to build 
the stackable credentials connected to college credits that 
give credit for technical training, moving into collegiate 
training, and producing portable skills.
    Senator Casey. Thank you.
    Mr. Stalknecht.
    Mr. Stalknecht. I would say to try to help change the 
messaging in this country that skilled trades offer tremendous 
opportunities for jobs and future growth and career paths to 
entrepreneurialism and business ownership. It would be about 
that. And yes, the cooperation with the sectors, business 
sectors is very, very important for the future workforce 
development.
    Senator Casey. Thank you.
    Mr. Carbone.
    Mr. Carbone. All of these wonderful ideas and wonderful 
programs and certainly worthy programs will eventually make 
their way down to the local delivery level. Let us not ignore 
it. Let us provide the incentives in the act to encourage every 
State to make them robust, exciting, interesting, and 
enterprising institutions.
    Senator Casey. Thank you.
    Mr. Carnevale.
    Mr. Carnevale. I would emphasize that the real challenge 
here is integrating these different systems. Bob Templin 
represents community colleges and the post-secondary system. In 
a sense, it is a carrier. It is several hundred billion dollars 
in public money.
    The workforce investment system is four. If we fund it at 
the level we funded it in 1979, it would be 25. It is a small 
institution. Essentially, what it can do that has the highest 
return is leverage the big institutions. If you can use the 
workforce investment system to get the education system, the 
disability apparatus, all the other big ships of the line 
focused on jobs, that is where my bias is, that we should use 
this money for building capacity, not for services directly, 
frankly.
    Senator Casey. Well, thank you very much.
    Let me just say for the record that the record will remain 
open for more written commentary or both from our witnesses and 
from individual Senators. Unless you don't want your testimony 
to be part of the record, it will be made part of the record. 
Some were doing summaries of your statements. We want to make 
sure that you know that your whole statement will be in the 
record.
    That goes for Senators as well.
    Senator Casey. Unless there is nothing further, this 
hearing is adjourned.
    [Additional material follows.]

                          ADDITIONAL MATERIAL

                   Prepared Statement of Senator Dodd

    Mr. Chairman, I want to thank you for holding this hearing, 
and for your leadership on the Workforce Investment Act 
reauthorization.
    We all know that our unemployment rate is unacceptably 
high. Too many people have lost their jobs, have been unable to 
find work, have simply given up. These are good workers, 
talented and dedicated, and just as their families are 
suffering from the loss of the income that accompanies a good 
job, so too is our Nation suffering from the loss of their 
productivity.
    In my State of Connecticut, we are seeing more clearly than 
ever that our economy is changing. Many of the industries that 
built Connecticut's prosperity during the 20th century are in 
decline, a fact sadly driven home with every plant that closes 
and every blue-collar job that is lost.
    The sad but unavoidable truth is that many of those jobs 
aren't coming back. But that doesn't mean Connecticut's economy 
can't rebound. And it doesn't mean these workers can't 
contribute.
    In fact, America needs those workers back on the job if 
we're to remain on top in an increasingly competitive global 
economy. That means we must empower our businesses--and we must 
empower our workforce. And there is no better way to do that 
than through job training.
    American workers are the best in the world when equipped 
with the knowledge and training to take on the jobs of the 21st 
century.
    And today, I'm proud that we're joined by a man who knows 
that better than anyone.
    Joe Carbone is the President and CEO of The WorkPlace, 
Inc., a 26-year old non-profit that serves as the Workforce 
Investment Board in southern Connecticut.
    Through its innovative use of career coaching, training, 
education, and counseling programs, the WorkPlace has carefully 
managed more than $200 million in public funds and helped tens 
of thousands of people in Connecticut reach for better jobs and 
better lives.
    The success of the WorkPlace stems from its work to bring 
together Federal agencies, State government, and the private 
sector. It is that kind of cooperation and commitment that will 
be critical as we seek to get our economy back on track and put 
people back to work.
    I'm proud to have Joe here today and look forward to 
hearing his thoughts on how we can replicate his successful 
model across the country.
    Thank you.

                  Prepared Statement of Senator Murray

    Thank you Chairman Harkin and Senator Enzi for calling this 
very important hearing today.
    Personally, I can't remember a more important time than 
right now for our workforce investment system.
    Our worker training system is the place they can turn to 
help get a leg up--the place where workers can obtain new 
skills or increase their education levels to get and keep 
permanent, family-wage jobs.
    And the value of our workforce system has only increased as 
our economy has changed.
    That's because, as I have seen when traveling to many of 
the new high-tech manufacturing plants and growing industries 
in my home State--the needs of our employers have fundamentally 
shifted.
    Today the skill sets needed by employers that are actually 
expanding and hiring increasingly require at least 1 year of 
post-secondary training or education, and a degree, 
certificate, or credential that has real value in the labor 
market.
    So it's very clear today that we have an obligation as a 
nation to improve the systems and services these workers rely 
on for their continuing education and training.
    We need to ensure that as demand on our workforce system 
rises due to this recession, we are also building our workforce 
system to handle the strain.
    And it's abundantly clear that demand is growing. In fact, 
over the past 3 years the number of adults served by our 
workforce system has increased by 200 percent; increasing from 
1.7 million in 2006 to 5.2 million in 2008.
    Reauthorizing WIA is only the first step that is necessary 
to improve our Nation's workforce development system and meet 
this growing challenge--but it is a critical one. And it comes 
at a critical time.
    So I'm glad that we have put together such a wide ranging 
panel and I really look forward to a productive discussion on 
how we can best strengthen our workforce system to meet the new 
realities our job seekers face.

                  Prepared Statement of Senator Bennet

    I would like to thank Chairman Harkin and Ranking Member 
Enzi for holding this hearing and their efforts to reauthorize 
the Workforce Investment Act. Reauthorization of WIA must be a 
key part of our economic recovery. Too many workers are either 
out of work or are underemployed. These workers need a 
workforce development system that is accessible and enables 
them to get back on their feet. Beyond these workers, though, 
all workers need a workforce development system that provides 
them the opportunity to obtain the skills for upward mobility. 
The economic realities of today mean that education must not 
stop at the school house door, but be a lifelong experience.
    We will struggle to compete in the global economy if we do 
not update our current system to fit the needs of our economy. 
It is necessary that we make sure that American workers have 
the skills to take on jobs in emerging industries such as clean 
energy, health care and technology. In my State of Colorado, 49 
percent of workers are middle skilled--meaning that these 
workers are in jobs that require more than a high school 
degree, but less than a 4-year degree.
    Whether it is reforming the current workforce development 
system or finding new ways to connect workers to the skills 
sought by emerging sectors, there needs to be a sustained 
effort to train and retrain these workers. We also need to look 
more broadly at our education system to make sure we are 
connecting our youth to the skills demanded by business.
    Last month, I held a ``Putting Colorado to Work Jobs 
Forum.'' This Forum brought together key leaders from business, 
labor, the State workforce development system and academia to 
discuss how to grow the Colorado economy. One of our most 
important roundtables focused on workforce training. We had 
participants from across the State share best practices and 
offer suggestions for reaching both employed and unemployed 
workers in need of training. This helped provide both an urban 
and rural perspective of what the State and local communities 
are currently doing to train workers, as well as offer 
suggestions for how to improve workforce training.
    Two key takeaways from this conversation were the need to 
have a workforce development system that is flexible and 
improve engagement with business. We need flexibility because 
the types of jobs being created in the State require different 
skills than 10 years ago. The system also needs to be flexible 
in terms of the types of workers being trained. There is a 
growing number of English language learners in our workforce. 
We need to be make sure we are reaching these workers and 
providing training responsive to their needs. We also need to 
have small businesses at the table collaborating on how best to 
train their current and future workers. Small business is the 
driver of our economy. Engaging small business will help drive 
results since business owners understand best what skills are 
in demand. This will also help to connect workers being trained 
with jobs that are available.
    Our economy is changing and the skills required to compete 
are evolving. It is my hope that today's testimony and future 
conversations focused on the reauthorization of the Workforce 
Investment Act are centered on this. My staff has provided a 
list of my priorities to the committee that I hope to see 
included in a reauthorization. I look forward to future 
conversations about how we can move this legislation forward.

                  Prepared Statement of Senator Hagan

    Thank you, Mr. Chairman, for holding this hearing, and 
thank you to all of the witnesses. I am thrilled to have the 
opportunity to be here and to talk about this critical piece of 
legislation.
    North Carolina, like many States, is seeing some of the 
highest unemployment rates we've ever seen--in fact, we hit a 
new record high rate of 11.2 percent this past December. My No. 
1 focus right now is jobs, jobs, jobs, and a critical piece of 
the solution is workforce training. I think my State has a few 
advantages--we have one of the best community college systems 
in the country, the businesses in our State are active players 
in the workforce system, and all of the stakeholders are coming 
together to make sure that we are doing everything we can to 
invigorate our economy, equip our workers with the skills they 
need, and make our State a great place to do business, However, 
we still have a long road ahead, and reauthorizing and updating 
the Workforce Investment Act will be an important step along 
that path.
    I am looking forward to hearing more about how we can 
improve delivery of services, help dislocated and underemployed 
workers update their skill sets, and better streamline and 
integrate the various pieces of the Workforce Investment Act, 
from assistance for dislocated workers, to adult education 
workers with disabilities to youth training programs. I also 
look forward to supporting the great work that is already being 
done in my State, and providing the resources, flexibility and 
accountability so we can continue to attract innovative 
businesses and workers.
 Response by Anthony Carnevale to Questions of Senator Harkin, Senator 
 Enzi, Senator Murray, Senator Reed, Senator Brown, Senator Hagan, and 
                             Senator Bennet
                      questions of senator harkin
    Question 1. In your testimony you indicate that 64 percent of job 
openings between 2008 and 2018 will require at least some post-
secondary education. What is the single most important change we can 
make to the act during reauthorization to ensure that our young people 
are prepared for these jobs?
    Answer 1. WIA and post-secondary education and training programs 
tends to operate as if the Internet was never invented. The most 
important thing to do is to create internet-based information and 
counseling systems capability that connects job openings, job 
projections and career pathway to post-secondary education and 
training. With this information in hand we could provide useful 
information and counseling. The information required exists in a 
variety of government agencies but no one has connected the dots 
between the information and the people who need it. To do so will 
require a major culture change in the executive and legislative 
branches that can overcome the governmental silos.
    The required information already exists, like books in the library 
existed prior to the age of the Internet. If you know where to go and 
are skilled in using the information, then you can get it, but if not 
you are out of luck. It is not simply a matter of connecting the dots 
in the information across institutional and cultural boundaries; it is 
also about creating a user friendly internet-based dashboard usable to 
individuals at home, in libraries, and a wide variety of government 
agencies, CBO's, private employers and education institutions that are 
interested in jobs and skill requirements.
    Like most information and service systems connected to computer 
technology at your bank machine or on Internet, the core efficiency 
improvements comes from the interaction of the technology and the tools 
attached to it in combination with the participation of the consumer.
    WIA is way too small and isolated to provide real counseling and 
other intermediary services that connects people to jobs and skill 
upgrading. The only real affordable alternative is to bring information 
and counseling services to the public online.

    (1) We could provide the information and counseling necessary to 
help those looking for jobs to find the jobs that are open as well as 
target jobs that are likely to be open in the future.
    Currently there are roughly 3,000,000 job openings every day in the 
United States both in particular industries like healthcare due to 
industry growth and across a much broader array of industries because 
of retirements and other reasons that cause people to withdraw from an 
occupation. The number of daily job openings will grow to 7,000,000 per 
day within 5 years as the recovery proceeds.
    (2) An information and counseling system that helps those who have 
lost good jobs or cannot find one to expand their job search beyond 
their geographic boundaries and the personal and occupational networks 
available to them.
    (3) An information and counseling system that helps people discern 
the marginal value of additional post-secondary education or training 
for improving their economic prospects.
    (4) An information and counseling system that matches post-
secondary education and training curriculums to job openings and viable 
career pathways. It should also make available information about public 
funding for their education and training.
    (5) A system that ties wage data to education and training programs 
and also allows education and training program providers to figure out 
if their programs are generating earnings and employment. Real-time job 
openings data would also tell providers what occupations are in demand 
and what certificates, industry certifications and degrees are 
requested by job advertisements.

    We do not have this information and counseling system at present. 
The information is, for the most part, available but has never been 
integrated or assembled in easily accessible online formats.

    <bullet> States and One-Stops do have job openings data as 
submitted by employers but their job openings information is generally 
incomplete and varies in quality and accessibility. More complete data 
on job openings is available. Federal regulations give employers an EEO 
and a Federal contracting check-off if they submit full openings data 
to Job Central in Indianapolis, IN. Many but not most States ``scrape'' 
job openings from online Web sites. No States have tied this job 
openings data to post-secondary education and training curriculums 
using student transcripts or other curriculum data sources.
    <bullet> Since the 1930's, every State has wage records data but 
very few (e.g. Florida, Washington State) have tied wage records to 
post-secondary certificates and degrees.

    More than 60 million people have applied for UI during this 
recession and only a small portion have ever spoken with a real person. 
We cannot afford traditional counseling as it exists, and particularly 
personal counseling that offers the kind of state-of-the-art 
information I am describing here. Person-to-person counseling, whether 
face-to-face or over the Internet on Skype, is labor intensive. We 
already face a huge counseling deficit in our K-12 system, and jobs and 
skill development counseling, for all practical purposes, is non-
existent for adults.
    The need for these information and counseling capabilities is more 
necessary as the pace of economic change increase and we move through 
the greatest restructuring of the economy and employer/employee work 
relationships since the shift from agriculture to industry a century 
ago.
    Evidence of the need for these kinds of capabilities is already 
evident in the rapid development of private sector capabilities in 
response to the increasing churn in the job market. But these service 
capabilities are still relatively primitive in the public domain. The 
private economy has already been investing in these capabilities for 
some time. The fee-based employment services industry including 
employment placement agencies, temporary help services, and 
professional employer organizations is already a $208 billion industry 
and is projected to grow by another $90 billion over the next decade as 
demand for temporary help grows at every skill level.
    There are a variety of online job boards like Monster, 
CareerBuilder, etc. However, these only include a small share of job 
openings and do not come with any tools to match individual skills and 
experience to jobs, to match available education and training to jobs 
or to provide information on earnings, occupational skills, skill 
assessments or projections. Nor do the business models in these private 
job boards allow for development of these tools or access to them for 
people who cannot afford to pay.

    Question 2. Iowa has lost more than 60,000 jobs in the last 2 
years--mostly in the manufacturing sector. Many of the new job 
opportunities require workers to upgrade and advance their education 
and employment skills. How can the reauthorization of the Workforce 
Investment Act be used to encourage and support individuals seeking to 
obtain and advance in 21st century careers?
    Answer 2. Iowa, like many States, suffers from a decline in the 
manufacturing and natural resource industries. But it is important to 
note that there will continue to be job openings in both of these 
industries. In the next decade there will be job openings for 
manufacturing and natural resource workers due to the retirement and 
advanced age of current workers. With the exception of coal, which will 
grow, all openings in these industries will come from retirement.
    Ultimately, the number of jobs in manufacturing and natural 
resources will decline. Along with construction and finance, 
manufacturing jobs have taken the hardest hits in the recession and 
will come back strong. In the first years of the recovery job growth in 
manufacturing, like other hard hit industries, will appear promising. 
To some extent, though, the recovery in these industries is a false 
dawn. With the exception of finance, these industries will continue to 
decline in employment and certainly as a share of overall employment 
due to productivity growth within the industries themselves.
    True job growth in the next decade will come in high skill services 
industries with relatively high post-secondary education requirements. 
Post-Secondary education will lead growth in both industries and 
occupations between 2008 and 2018.

    <bullet> With the exception of Leisure and Hospitality Services, 
the fastest growing industries have the highest concentrations of post-
secondary education demand. At least 75 percent of employees in five of 
the six fastest growing industries require post-secondary education or 
training.\1\ These five industries include 40 percent of all employment 
in 2018.
---------------------------------------------------------------------------
    \1\ The six fastest growing clusters and their post-secondary 
concentrations include: Healthcare Services (75 percent), Private 
Educational Services (86 percent), Professional and Business Services, 
Leisure and Hospitality (46 percent), Financial Services (82 percent) 
and Information Services (92 percent).
---------------------------------------------------------------------------
    <bullet> With the exception of Healthcare Support Occupations, the 
fastest growing occupational groups also have the highest 
concentrations of post-secondary education demand. Roughly 90 percent 
of the jobs in four of the five fastest growing occupations require 
post-secondary education.\2\
---------------------------------------------------------------------------
    \2\ The six fastest growing occupation clusters and their post-
secondary concentrations include: Healthcare Support (53 percent), 
Healthcare Professional and Technical Occupations (93 percent), 
Education (93 percent), STEM (90 percent) and Community Services and 
the Arts (89 percent).

    As a result of these shifts, by the end of the recession, we will 
need more post-secondary education and training for adults whose jobs 
in these industries have been lost, adults who will have to change 
their industry, and probably their occupation. The best and cheapest 
way to provide this, is, as I stated in my testimony, is by sponsoring 
compressed and accelerated programs for certificates in high-demand 
occupations. These programs will cut more than a year from normal 
---------------------------------------------------------------------------
educational programs and grant certificates with labor-market value.

    Question 3. Can you explain further how ``siloing'' hurts the 
workforce investment system's ability to leverage resources and 
strengthen supports for job seekers and employers. How do you propose 
we break down these silos through reauthorization? How can One-Stops 
more effectively serve the increasing numbers of individuals seeking 
education and employment services and supports? What strategies have 
successful One-Stops employed to meet increased needs?
    Answer 3. Because of its market flexibility the American economy 
has always created and destroyed jobs faster than any other. This 
flexibility is clearly an enormous part of our international 
competitive advantage and needs to be preserved. The job churning that 
comes with that flexibility has been accelerating since the eighties 
because of the fundamental structural changes that come with the shift 
from a manufacturing economy to a post-industrial services economy. The 
basic mechanism at work is advancing computer technology, which 
automates repetitive tasks and increases the value of non repetitive 
functions in all jobs. Jobs with high levels of non-repetitive tasks 
are growing and jobs dominated by repetitive tasks are declining. The 
value-added from non-repetitive jobs like design, management, finance, 
marketing, professional and business services is growing.
    The iPod is an example of a product where less than 5 percent of 
the cost and value comes from manufacturing and the rest of the value 
and cost comes from service occupations.
    Non-repetitive tasks create two kinds of jobs: low-wage service 
jobs like fast food servers and waiters and high-wage service jobs like 
designers and brain surgeons. Similarly, non-repetitive tasks create 
demand for high-level and low-level general skills. Brain surgeons and 
food servers at fast food outlets both perform non-repetitive tasks. So 
the two kinds of jobs that survive computer automation and ``off-
shoring'' are low-wage/low-skill jobs that require high school or less 
and high wage high skill jobs that require varying degrees of post-
secondary education or training.
    As a result education has become employment policy. Our problem is 
that the alignment between our post-secondary education institutions 
and our labor markets is very weak. Our institutional silos and our 
politics make it very hard to align education policy, most importantly 
post-secondary education policy, with employment.
    Prior to the information and Internet revolution we might have 
tried to force this alignment by eliminating the Department of Labor 
and the Department of Education and combining them into a Department of 
Human Resources. This was a hot proposal in the early seventies 
originating with the Nixon administration and supported by many members 
of the Senate who wanted a stronger focus on human resources, including 
my old boss Ed Muskie. But this is a bad idea for many reasons as well 
as a political stomach ache.
    In modern times we can better align our post-secondary education 
and training system with labor markets by using information and outcome 
standards rather than governmental reorganization. It is this kind of 
information system I have discussed above and referred to in my 
testimony.
    We do not want the education system enslaved to the economy. 
Education has more missions than making good workers for the economy; 
those other missions need to be preserved and supported. At the same 
time, however, in the knowledge economy, education is the only 
institution we have for preparing people for middle class jobs. 
Furthermore, people with no access to middle class jobs, especially 
those who become unemployed or chronically underemployed, find it very 
difficult to be good citizens, good parents, or good neighbors. 
Consequently, if educators don't empower people as workers they 
undermine their mission to empower their student as autonomous 
individuals, citizens and full members of the community.
    It is increasingly obvious that we cannot afford a universal post-
secondary education and training system at the current costs of our 
post-secondary system. We need to build education programs that move 
working students and adults into good jobs as efficiently as possible. 
This is why I recommend:

    <bullet> Structured ``learn and earn'' programs like 
apprenticeship, structured work experience, as well as paid internships 
and paid work study programs for students;
    <bullet> Credentialed learning that leads to both employability and 
further learning;
    <bullet> Compressed and accelerated occupational training programs 
that provide credit for prior learning (CPL), integrate basic skills 
preparation with fast and intensive occupational training, leading to 
post-secondary certificates with clearly demonstrated labor-market 
value;
    <bullet> Modular programs that allow for exit and re-entry and 
create transparent pathways among certificates, industry based 
certifications, and degrees;
    <bullet> The development of blended forms of instruction that mix 
online, work-based and classroom learning;
    <bullet> Job and skill counseling for unemployed and underemployed 
experienced workers and working students tied to state-of-the-art 
information on earnings trajectories and career pathways;
    <bullet> The provision of family support including child care;
    <bullet> Accountability systems for maximizing the labor-market 
value of post-secondary education and training programs by tying post-
secondary transcript data with employer wage records data currently 
housed in the U.S. Employment Services; and
    <bullet> Alignment between statewide, regional and nationwide 
online job boards (Job Exchanges) tied to (Learning Exchanges) that 
match job openings and career pathways to available courses offered by 
post-secondary institutions as well as online courseware.

    In addition to these program interventions for adults and post-
secondary students who are working, there is also a need to revive 
Career and Technical Education programs at the high school level as 
alternative pathways to post-secondary education and training or to 
industry-based certificates and certifications that make students 
employable after high school.

    Question 4. In your testimony, you said that recessions ``kill-off 
'' low-skill jobs, changing the labor market more than in times of 
economic growth. Going forward, what will the current recession mean 
for youth, and especially youth with disabilities, who have 
traditionally relied on low-skill jobs? How can the act be improved to 
better support this population?
    Answer 4. One of the ironies in the current American labor market 
is that more advantaged a youth is, the more likely he or she will be 
able to find work in part because they live in the communities where 
the retail jobs are concentrated. The labor market for disadvantaged 
youth and youth with disabilities has been in decline for decades. In 
order to give them access to work experience and career ladders we need 
to do so with highly targeted and structured programs that would 
provide subsidies and ``learn and earn'' curriculums leading to stable 
employment.
    In general, however, youth, including disabled youth face a labor 
market where success will depend on their ability to stay in school 
through high school and to get at least some post-secondary education. 
All youth programs need to be guided by that developmental imperative.
    In the current recession with so many college graduates out of 
work, young people, and many adults, understandably believe that post-
secondary education is no longer a ticket to the middle class. They 
couldn't be more wrong.
    Adults need to help young people to understand that increasingly 
post-secondary education and training has become the threshold 
requirement for middle class jobs. And the future promises more of the 
same.

    <bullet> Our projections show that in 2018 there will be 162 
million jobs. One-hundred one million of those jobs, representing 64 
percent of all jobs will require 
post-secondary education including:

        <bullet> 16 million jobs for people with graduate degrees;
        <bullet> 37 million jobs for people with BA degrees;
        <bullet> 20 million jobs for people with AA's;
        <bullet> 28 million jobs for people with some college but no 
        degree;
        <bullet> 13 million jobs for people with post-secondary 
        certificates;
        <bullet> 44 million jobs for High School Graduates; and
        <bullet> 16 million jobs for high school dropouts.

    Our projections forecast that between 2008 and 2018, the economy 
will create 47 million job openings: job vacancies, 14 million new 
jobs, and 33 million job openings to replace retiring baby boomers and 
others who leave occupations permanently. Job openings that require at 
least some post-secondary education or training will make up 64 percent 
of all job openings and will include the majority of long-term career 
jobs. We project a cumulative increase of:

    <bullet> 5 million more job openings for people with Master's 
Degrees or better;
    <bullet> 11 million more job openings for people with Bachelor's 
Degrees;
    <bullet> 14 million job openings for people with some college or 
AA's;
    <bullet> 15 million job openings for people with post-secondary 
Certificates \3\;
---------------------------------------------------------------------------
    \3\ There is undoubtedly double counting of certificates because 
many certificate holders are also reported as having ``some college but 
no degree.''
---------------------------------------------------------------------------
    <bullet> 17 million jobs for people with high school or less.\4\
---------------------------------------------------------------------------
    \4\ Job openings that require only high school or less tend to be 
over-counted because many of them are in low-wage service occupations 
and industries with large shares of part-time jobs or jobs with very 
high turnover. Low-wage service jobs account for about 20 percent of 
the jobs but only 14 percent of the hours worked in the economy. Many 
workers in these jobs are just passing through low-wage/low-skill jobs 
as part of a natural career progression. Jobs that require post-
secondary education or training are more likely to be career jobs. 
There are many more brain surgeons who used to be cashiers than there 
are cashiers who used to be brain surgeons, but the statistics tend to 
treat the two jobs equally. For example, for every new job for cashiers 
that will open up between 2008 and 2018, there will be another 13 job 
openings to replace people who leave the cashier occupation. By way of 
contrast, for every new job for physicians there will only be 0.8 job 
openings to fill the jobs of physicians who leave the occupation. 
Roughly half the workers in low-skill/low-wage occupations move into 
higher wage categories within 5 years. Ultimately about 11 percent of 
Americans are stuck in low-wage/low-skill jobs.

    Question 5. How can technology improve the workforce system? Have 
you seen any promising examples of technology helping the system reach 
new populations?
    Answer 5. In current dollars the workforce system was funded at 
about $25 billion in 1979 and is currently funded at less than $4.0 
billion. If anything, the need for workforce information and counseling 
has grown as the funding has declined. The only way to make the 
workforce system effective at matching people to jobs and the skill 
they need to get those jobs is through information technology. 
Technology allows a different service delivery model. It reduces the 
labor intensity of providing services and empowers the client to 
customize the service to themselves. Technology reduces the need to 
provide services and enables people to serve themselves. It is the only 
way workforce services can be scaled up dramatically, given current and 
emerging funding constraints.
    Promising examples of public systems that approach state-of-the-art 
are the use of advanced job boards in New Jersey and New York, and 
there are also many others.
    We desperately need public investment in the development of 
internet-based public information and counseling systems that connect 
job openings to careers and training opportunities. Developing an 
effective system on the national level would be a remarkably low-cost 
venture, costing no more than $15 million to build basic capabilities 
that could be used by State and local governments, post-secondary 
education and training institutions, community-based organizations, the 
military, and assistance programs for individuals with disabilities.
                       questions of senator enzi
    Question 1. Many of today's workers are working in jobs that did 
not exist 5 years ago. How can the education and workforce development 
system prepare workers to be successful and advance in jobs that 
haven't yet been created?
    Answer 1. Current capacity to project and predict job growth and 
skills requirements goes far beyond current government practices or 
their use in or One-Stops or educational institutions. The primary 
reason we do a poor job of connecting skill training to jobs is that 
training resides in education agencies and labor-market services 
resides in the DOL. As a result, for example, neither the DOE nor the 
BLS projects the relationship between emerging jobs and skill 
requirements. The BLS, for example holds education and training 
constant in its employment projections. This makes them consistently 
low in measuring education and skill demand. Their 2008 data for 
example understates post-secondary demand by almost 13 million jobs, 
compared with the actual number as measured by the Census Bureau.
    We know quite a bit about where jobs will and will not be. Because 
of advances in computer technology that allow us to scrape job 
advertisements and employer Web sites across the economy we can read 
and aggregate job openings and qualifications requested across the 
economy on a daily basis for well over 80 percent of all job openings. 
This information is being used in the private sector for a variety of 
purposes, but public agencies show little interest in developing it as 
a basic foundation for a modern Labor Exchange or to guide training.
    We also know more about jobs that will be available in the near 
future because of data improvements. We know, for example, that jobs 
will decline in manufacturing and natural resources. We know in some 
detail about the coming job growth in health care as well as 
professional and business services. Our failure has been our 
inattention to building information systems that tie training to the 
employer wage records that have been in existence since the 1930s. One 
approach is connecting wage records to transcripts in order to connect 
education to jobs that exist and those who pay. And the second is to do 
a lot more serious work connecting job openings to the labor market and 
to job seekers through information systems.

    Question 2. Given the economic downturn and high unemployment 
rates, many more individuals are seeking services offered through One-
Stops. How can One-Stops more efficiently serve the growing numbers of 
people who need education and job training in order to be prepared for 
the jobs that will be available when the economy returns? What 
strategies have successful One-Stops used to make sure the demand from 
both workers and employers is met?
    Answer 2. The great deficit in the American workforce development 
system is twofold. The first is information, and the second is 
counseling. Given the size of the WIA system, it is simply not possible 
to provide all the counseling required by unemployed and underemployed 
workers or to fulfill the needs of employers. We will never have enough 
money to provide sufficient counseling. The way forward is using 
technology, not face-to-face advising, and to use technology to triage 
populations and reserve the advising for those most in need, and those 
unable to find employment through the use of information alone.
    Systems that have relied on more labor-intensive counseling 
strategies have collapsed under the weight of this recession. 
Therefore, emerging best practices all begin with a core investment in 
internet-based information and technology.

    Question 3. The labor market is demanding increased academic and 
technical skills. Employers are looking for formal recognized academic 
and technical credentials such as a high school diploma, an Associate's 
degree, and industry-recognized certifications. With this in mind: Is 
there need to change the outcome measures for WIA? Should there be more 
weight on completion and credentials and less on placement and wages? 
Is the system capable of delivering these outcomes?
    Answer 3. Currently the WIA system is based on placement outcomes. 
Measures of outcome should be value-added measures, meaning that all 
measures of success should focus on employment and earnings. In 
general, however, the message in the growing importance of post-
secondary education and training as the arbiter of opportunity is that 
we need to integrate labor market and post-secondary education 
services.
    It would be a mistake to develop a system based on certificates for 
certificates' sake. Certificates have no value unless they result in 
increased employability. The best composite measure of success will 
measure improvement in person's prospects relative to their initial 
circumstances. This approach would discourage counselors from 
practicing ``cream-skimming'' by which they take the most employable 
and find them placements, and instead encourage them to help those who 
need the most help and can benefit the most from that additional 
attention.
                      questions of senator murray
    Question 1. As you discuss in your testimony, if current trends in 
education and workforce development continue, even with robust job 
growth over the coming years, we will fall short of meeting the demand 
by at least 3 million college-educated Americans, and a growing share 
of Americans will be left behind with no access to the middle class.
    What, in your opinion, is the single most important step we can 
take at the Federal level to change these trends and make sure we have 
the skilled workforce necessary to meet emerging needs?
    Answer 1. In simplest terms, the most effective strategy is to 
align post-secondary education and training with employment services 
and labor markets. Presently there is no accountability system tying 
curriculums to wage records and other measures of employability. As a 
result, curriculums are not built on a view towards matching 
curriculums with job openings in occupations and occupation clusters.

    Question 2. As Congress considers reauthorization of the Workforce 
Investment Act and other education, training, and employment policies, 
what are your recommendations for common accountability elements that 
demonstrate the labor-market value of post-secondary education and 
training programs?
    Answer 2. The simplest and most immediately available way is to 
connect 
post-secondary education and training with post-secondary transcripts 
and wage records available on a quarterly basis both nationally and 
from every labor market in the country.
                       questions of senator reed
    Question 1. There are more than 16,000 public libraries in the 
United States, most of which provide job/career information and 
resources, such as access to computers so that patrons can search for 
jobs and file for government services such as unemployment benefits; 
take classes on resume writing; and access business databases. In the 
economic downturn, libraries are a community resource increasingly in 
demand, especially by those who are unemployed.
    How can we better integrate libraries into our workforce system so 
that they receive the support they need to continue providing these 
services to the public?
    Answer 1. All libraries, along with public and private institutions 
and even private homes should share in the common internet-based 
information systems discussed in my initial response above.
    The FCC Broadband initiative is one advance that could help break 
down program silos, increasing points of contact so that every American 
can access the tools they need to connect to the job market. However, 
this program can only be as effective at promoting employment as the 
jobs-focused information sources we develop.

    Question 2. There is evidence that the unemployed are opting to use 
their local library for services that the One-Stops are designed to 
provide due to location or other reasons. One-Stops are also referring 
users to libraries for job assistance or collaborating with libraries 
to provide help to job seekers, such as in North Carolina.
    How can we support and expand these collaborations? Would co-
locating One-Stops within libraries better serve job seekers?
    Answer 2. The institutions should not be moved. The information and 
the counseling should be available to the people who need it, wherever 
they are. The information, the exchanges and the overall information 
systems discussed above should be developed and should be made publicly 
available through the Internet, to private homes, post-secondary 
institutions and libraries alike.
                       question of senator brown
    Question. In your testimony, you state that 64 percent of job 
openings between 2008 and 2018 will require at least some post-
secondary education. However, the National Commission on Adult Literacy 
has reported that 80-90 million adults do not have the basic education 
and communication skills required for post-secondary education or 
family sustaining jobs. Our adult education programs funded through WIA 
reach only 3 million adults annually? How do we close that enormous 
gap?
    Answer. Given the limits on public resources, the best use of adult 
education funding is a part of occupationally based training programs. 
Too often, basic skills and adult education programs focus on academic 
curriculums in reading and math that can discourage potential 
participants. The state-of-the-art in this arena is in integrating 
basic skills preparation with occupational training or upgrading. Given 
existing resources, this should be the priority.
                       questions of senator hagan
    Question 1. Research shows that every 9 seconds in America, a 
student becomes a dropout. That being said, I believe that as we 
consider President Obama's challenge for our country--to gain an 
additional 5 million community college degrees and certificates by 
2020, it is critical to consider the role in which community colleges 
can play in reconnecting dropouts to the workforce. There is evidence 
that many GED recipients get their GED and just stop there. They do not 
recognize the value of or even think that they have the option of 
obtaining an Associates or even a 4-year degree. What are your thoughts 
on ways that we can support young adults who have dropped out of school 
to not only get a GED, but to understand how important it is to obtain 
a post-secondary degree?
    Answer 1. The primary way to get people interested in post-
secondary education and training is tying it to opportunities for 
better jobs. We can encourage young adults to stay in the education 
system by tying job openings and career pathways in very explicit ways 
to compressed post-secondary curriculums that will move people toward 
certificates and degrees with a clear, measurable labor-market value as 
quickly as possible.

    Question 2. North Carolina needs and wants to expand its training 
abilities for jobs that require a working knowledge of modern machines 
and programs, such as health care and advanced manufacturing. 
Unfortunately, it's also much more expensive to equip a facility to 
train those workers versus workers who do not need to be familiar with 
such expensive equipment--for example, it can be up to 50 percent more 
expensive to train someone in the field of health care. Can you share 
any thoughts about how we can help States pay for this kind of 
equipment and facilities when necessary to train workers to meet the 
needs of local businesses? Have other States confronted this issue, and 
if so, what are the lessons we've learned?
    Answer 2. For the most part, post-secondary institutions are funded 
on the basis of their full-time equivalent (FTE) students, and most 
programs and the students who participate in them are treated as though 
they were the same. As a result, post-secondary institutions are 
encouraged to move students through the lowest-cost and most 
traditional programs. In general this encourages academic AA degrees 
with less labor-market value rather than occupational AA's or 
Certificates in high-demand fields. Those programs do not match with 
employment opportunities. We need funding systems that move beyond the 
FTE-centric one that weigh student loads against the costs of different 
programs, and as needed, provide additional funding to those that 
require more expensive labs, personnel, etc. Some States do weight 
programs differently, but it is a relatively small number, and this 
practice is going out of vogue due to the recession and funding cuts.

    Question 3. While the One-Stop system appears to have the very best 
intentions, my State has found it difficult to offer services in all 
rural locations at all times. Some of the entities that are located at 
a One-Stop center might only be available certain hours of the day or 
certain days of the week. Some people in our State have started to 
offer virtual services to increase the availability in rural areas, and 
the option has been met with positive feedback thus far. Have virtual 
One-Stops been attempted elsewhere in the country? If so, have they 
been successful? What are the lessons or guidance for Congress so we 
can encourage more innovation like this, either virtual programs or 
otherwise, with the goal of increasing availability to job seekers, 
particularly in rural areas?
    Answer 3. The use of information technology, satellite systems and 
distance learning programs are growing very rapidly in rural areas, 
particularly where in-person job and educational counseling systems are 
relatively rare. The great leap forward will be providing these 
services on the Internet, so that individuals will not have to travel 
long distances to counseling centers or locations with satellite 
hookups.
                      questions of senator bennet
    Question 1. What role can business play in furthering workforce 
development? Are there on the ground examples of private sector 
initiatives that have helped to close skill gaps in our economy? Where 
do you think the law can be improved to foster more partnerships 
between business and workforce development providers? What are some 
ways that the private sector, government, non-profits and labor can 
partner in the development of our workforce?
    Answer 1. The most effective training programs are those that 
combine learning in classrooms with learning on the job. There are ways 
to promote these. Apprenticeship programs are the most intensive models 
of this kind. One way to promote these kinds of partnerships is by 
encouraging apprenticeship programs to use community colleges in order 
to get certification for skills learned at the workplace. Another 
alternative is to use work study money to pay for ``learn-and-earn'' 
programs, including internships in the private sectors.
    Given the coming retirement boom among the baby boomer generation, 
over the next decade employers will have to hire 33 million more 
workers. As retirements mount, this should create an opportunity to 
fill skill shortages. There is a clear need to align post-secondary 
curriculums with present and future workforce needs. Employers should 
play a clear goal in providing labor-market information to help form 
education and training policy and shape curriculums.

    Question 2. Do you find the current workforce development system to 
be responsive to emerging industries and employment opportunities in 
energy and health care? Do you find the training in these fields and 
resources required for such training to be different? Are there 
training models on the State level that we should replicate nationally?
    Answer 2. Job openings in energy and green jobs, including public 
utilities will be largely growth from the retirement of existing 
workers. So-called ``green jobs'' will total around 2.5 million new 
jobs by 2018, compared to 4.1 million new jobs and 3.3 replacement jobs 
in healthcare. Due to the rapidity of retirement, there are 
likely to be some shortages. The ability of the One-Stops to serve 
energy, health care and other industries depends almost entirely on the 
sophistication of their job openings data, and that quality currently 
varies significantly.
    In general it is useful to follow industry growth but people work 
in occupations and skills are tied to occupations. Industries include 
many occupations with very different skill levels and pay levels. Hence 
any strategy that focuses on industry needs to simultaneously focus on 
occupations. Many industries that will grow will not produce many jobs. 
This is true both for old line industries like manufacturing, natural 
resources, and utilities, and for many of the fastest growing 
industries.
    Because of its extraordinary productivity, Information Services is 
distinguished by its output growth and the intensity of its demand for 
post-secondary education more than for its employment share. 
Information Services produced $769 billion in output in 1998, grew to 
$1.1 trillion in 2008, and is projected to grow to $1.9 trillion in 
2018. Information Services moved from our ninth largest industry in 
overall output in 1989, to seventh in 2008, and is projected to move 
into sixth by 2018. Information Services employs only about 2 percent 
of the workforce, which ranked it among the three smallest industry 
employers in 2008 and it will not grow substantially between now and 
2018.
 Response by Joseph M. Carbone to Questions of Senator Harkin, Senator 
 Enzi, Senator Murray, Senator Reed, Senator Hagan, and Senator Bennet
                      questions of senator harkin
    Question 1a. You've achieved great success working to ensure the 
One-Stop Centers you operate are fully accessible. What types of 
incentives can the Federal Government provide workforce investment 
boards and One-Stops to ensure that the system is physically and 
virtually accessible to individuals with disabilities?
    Answer 1a. Require accessibility; WIBs and One-Stops should be in 
compliance with ADAA for all public spaces.
    For virtual access, provide incentives for WIB's to develop a 
virtual system.

    Question 1b. How can we better use the workforce system to address 
the educational and employment needs of individuals with disabilities 
through reauthorization?
    Answer 1b. Provide dedicated funding streams/incentives for serving 
people with disabilities.

    <bullet> Create specific funding streams for Adults with 
Disabilities (AD) Youth with Disabilities (YD)
    <bullet> Establish performance metrics that address the needs of 
special populations

    Leverage Federal Voc Rehab funding to support.

    <bullet> Hard cash contribution to One-Stop Service or;
    <bullet> Reinforce Voc Rehab staff as a mandated partner in the 
system.

    Provide incentives to WIB's that find creative ways of connecting 
the partner base.

    <bullet> Solidify the system, using WIB's role as convener/planner/
voice.

    Question 2. How can we hold the WIBs accountable for ensuring that 
plans, policies and practices reflect the needs of all populations, not 
just those that are more easily served or are closer to achieving 
performance outcomes?
    Answer 2. Do it! Write it into the act. Require WIBs to submit a 
plan and actual performance re: services to People with Disabilities. 
Provide bonus for good performance, and threaten sanctions if poor 
performance.

    Question 3. It's important to me that individuals with disabilities 
are able to access resources and support, no matter which door they 
enter. How can the workforce investment system be improved to better 
align and coordinate services provided through the Vocational 
Rehabilitation system and the One-Stop system?
    Answer 3. One-Stops should be required to work out specific times 
of the week where Voc-Rehab staff are at the One-Stops.
    Use Case Conferencing as an effective means of integrating 
services.
    Local WIBs could be required to submit annual reports on how they 
are coordinating service with Voc-Rehab.
                       questions of senator enzi
    Question 1a. The One-Stop Centers that you operate are all 
systematically and pragmatically accessible. What specific steps did 
you take to make sure people with disabilities had access to the 
services in your One-Stops?
    Answer 1a. We're located in, and specifically chose, a building 
that meets the requirements of accessibility.

    Question 1b. As a followup to my first question, what advice would 
you give the committee, as we work to reauthorize WIA, to help people 
with disabilities access and utilize the services available at One-Stop 
Centers throughout the country?
    Answer 1b. It takes a local commitment, but it ought to be 
specified in the act that failure to comply with ADAA could lead to 
sanctions. For those not in compliance, work out a timetable.

    Question 2. It is my belief that the Workforce Investment Act is a 
piece of legislation that brings together multiple skill development 
and training providers in one place in order to provide such services 
to job seekers, help create a more advanced workforce, and help 
employers find employees--qualified, well-trained employees. This 
philosophy includes people with disabilities. What is the ideal 
relationship between the One-Stop Center and the Vocational 
Rehabilitation program when attempting to achieve these goals?
    Answer 2. Some degree of co-location; Commitment to Case 
Conferencing; and Training of One-Stop Case Managers (and other staff) 
on working with People with Disabilities, and knowledge of entities in 
community which can be assistive.

    Question 3. Certain people believe that the One-Stop Centers should 
be able to offer services to anyone who comes through the door and 
referrals to the Vocational Rehabilitation program should take place 
only for people with the most significant disabilities, yet the overall 
One-Stop system cannot obviate responsibility and must continue to work 
with the Vocational Rehabilitation program to assure that the 
individual receives the training and support they need. Would you agree 
with that statement? Do you have anything to add? Finally, how do we 
get to that point?
    Answer 3. With Case Conferencing, two staff people who are expert 
in their respective fields reach agreement on most in need customers. A 
One-Stop Case Manager, a Voc-Rehab Case Manager, and often a Job Coach 
and others together develop plans to ensure that people with 
disabilities have access to WIA services.
    It is important to ensure connections between the One-Stop and Voc-
Rehab agencies because training and work are different. The role of 
WIBs is to make sure training is in an in-demand field, and to make 
connection to employment after training.

    Question 4. Please describe how your organization, Workplace, works 
with employers, small, medium-sized, and large? How does the 
``WorkPlace'' help employers understand the economic development needs 
of their communities?
    Answer 4. The WorkPlace provides training funds to upgrade the 
skills of workers and to ensure that Connecticut employers are more 
competitive in a global economy. Beyond funding from the State of 
Connecticut we have aggressively pursued competitive grants from the 
Federal Government and private foundations. Customized training 
programs are designed to benefit both employees and businesses by 
enhancing the skills of workers, thereby increasing their productivity 
and the competitiveness of employers. Our objective is to enhance 
employees' performance in their current positions and prepare them for 
future advancement.
    We assist employers in defining the goals and objectives they wish 
to achieve through selected training initiatives. At times this will 
necessitate the development of customized curriculum for individual 
business needs. If needed we help employers determine the skill gaps of 
their employees through assessments. Additionally we leverage our 
extensive network of public and private training providers to procure 
the best solution for employers.
    The need for each of these services is dependent upon the size of 
the business we are assisting. Frequently small businesses do not have 
the internal resources to support employee development programs and 
will require assistance every step of the way. Large businesses 
typically have a handle on the development needs of employees but are 
not aware of local training providers. They look to the workforce board 
for quality training providers, partnership development and project 
management skills.
    In addition, we conduct a ``Community Audit & Needs Assessment'' 
planning process periodically in which we both survey business needs 
and provide information back to employers and other stakeholders.

    Question 5. As the demand for academic and technical credentials 
increase, there is a growing need to ensure that the delivery system is 
effective, efficient and user friendly. The workforce development 
system could be improved by using more technology. The system could 
benefit from being more cost effective and capable of continuous 
access. Is the WIA system prepared to deliver more training through 
recognized on-line systems? Should WIA be making use of social 
networking tools and communications?
    Answer 5. In this area, like others (above), one way to encourage 
this would be to include in an annual performance evaluation of WIBs a 
question such as ``how is your WIB taking advantage of technology?''
    Not all WIBs can take full advantage of technology, including on-
line training systems; if they are too small, they won't have the 
resources to support use of technology which is continuously changing.
    The WIA system should make better use of technologies--including 
distance learning, Second Life, Skype, and other tools--which provide 
the ability to reach more individuals.
    Social networking, used in a targeted and informed way, makes 
sense. Our system needs to reach potential customers (including 
businesses) where they go to get trusted information.

    Question 6. There is a growing need for WIA administrators, 
community colleges, vocational educators, and students to have ongoing 
access to consumer friendly labor-market information that will clearly 
identify the high-wage, high-demand jobs, the credentials needed to 
secure those jobs, and the institutions and training programs that 
offer these credentials. Do the WIA program managers and the One-Stop 
operators have access to clear labor market information? Is the 
information specific and consumer friendly? What recommendations do you 
have for the development of more robust and consumer friendly labor-
market information?
    Answer 6. In general, available labor market information is 
excellent, and new tools are becoming available all the time.
    One of the best (but little-used) tools is O*NET, which has a 
wealth of occupation-specific information. Consumers find this very 
valuable.
    USDOL/ETA does a good job hosting webinars, communities of 
practice, and Web sites which promote the use of new and existing tools 
and information by workforce professionals. Some of these could be made 
available for use by consumers.
                      questions of senator murray
    Question 1. You have talked about the need for the workforce 
development system in general, and workforce boards in particular, to 
be more flexible, responsive, and innovative. I know that you run a 
number of programs in your region that are great examples. One of those 
is your Mortgage Crisis Job Training Program that was designed to 
connect people to the workforce system to prevent foreclosure and 
increase their earnings potential.
    Please provide some results from this program and the 
characteristics that boards need to demonstrate to be better able to 
develop and offer these kinds of responsive and innovative programs.

                  Mortgage Crisis: Job Training Program
------------------------------------------------------------------------
                                                                 Program
                        Program metrics                          to date
------------------------------------------------------------------------
People Assessed for Program Eligibility........................    1,226
Training Scholarships Awarded..................................      577
Provide Career Coaching \1\....................................      971
Employment Support Services \2\................................    1,580
Financial Literacy.............................................      704
Credit Counseling..............................................      376
------------------------------------------------------------------------
\1\ Provide Career Coaching includes: Information on career pathways &
  required skills and Review training opportunities.
\2\ Employment Support Services includes: Resume Prep; Interview Prep;
  Assistance With Employment Applications; and Referral to One-Stop
  Workshops.


            Mortgage Crisis: Job Training Program--[continuing]
------------------------------------------------------------------------

-------------------------------------------------------------------------
1. The only program of its kind in the United States. The Mortgage
 Crisis Job Training Programs is a unique partnership of Connecticut's
 workforce system and the Connecticut Housing Finance Authority.
2. Currently 993 homeowners are enrolled in the MCJTP and receiving
 services. Of this population 470 are unemployed.
3. Even with minimal recruitment efforts over the past 6 months, 780
 homeowners are waiting to meet with a program specialist and verify
 their eligibility for the program.
4. Since the program's inception we have issued 577 training
 scholarships in topics as diverse as Health Care, Office Management,
 IT, Cosmetology and Financial Services. Of the 577 (380 completed, 58
 did not complete, 139 training is ongoing).
5. Even with the current high unemployment rate, 78 homeowners have
 found new jobs and 19 others obtained a second job.
6. In partnership with CHFA, Judicial Mediators and Housing Counselors
 we have helped 136 homeowners avoid foreclosure. (70 Loan
 Modifications, 50 New Payment Plans, 7 Participants in EMAP, 9 Sale of
 home)


    Answer 1. In order to develop and offer responsive and innovative 
programs such as the Mortgage Crisis Job Training Program, boards need 
to demonstrate characteristics which enable them to move out of their 
traditional areas of expertise. Innovation is found through 
collaboration and exploration of new partnerships which maximize 
competencies of other organizations. Below is a list of characteristics 
which we believe have led to our successful partnerships and new 
programs:

    1. Senior managers need to seek and find the common causes. These 
are issues where the resources of the workforce development system can 
partially address problems and with strong partnerships complete 
solutions can be identified.
    2. When building partnerships, do not assume you know all the 
capabilities of your potential partners. Taking the time to learn about 
other organizations may reveal hidden resources.
    3. When soliciting the support of the business community, it is 
essential to use professional practices.
    4. Understand what is important for each partner and what they need 
to get out of the program.
    5. Take the time to learn about the people, processes and 
terminology of partners. Spend the time up front to help their key 
people understand your program & their role.
    6. Make room for different levels of commitment.
    7. Networking works.
    8. Boards need to remember that workforce development is relevant 
to many challenges, and potential partners abound. It is important to 
reach out to others and let them know what you can bring to the table.
    9. As part of WIA Reauthorization, USDOL should be directed to 
connect the American Workforce System with Regional Foreclosure 
Mitigation efforts.
    We The Workplace will be happy to help.

    Question 2. To what extent has being a non-profit, 501(c)(3) 
organization helped or hindered you in your work and in meeting your 
goals?
    Answer 2. Being a non-profit 501(c)(3) has helped The WorkPlace, 
Inc. tremendously. It provides the flexibility to raise funds, easily 
subcontract with partners, and develop additional programs to meet the 
needs of participants.
    For example, we solicit private funding for ``WorkPlace 
Scholarships'' and other programs. This has generated value-added of 
more than $7 million over the past 13 years, creating incremental 
training opportunities.
    A non-profit has fewer limitations and can use Federal funds as 
leverage to create a larger system.
    The act should provide incentives for States and regions to move 
the system to 501(c)(3)'s.

    Question 3. As Congress considers reauthorization of the Workforce 
Investment Act, what specific recommendations do you have for building 
the system's capacity to respond to a changing economic climate?
    Answer 3. This question is at the heart of the system. There needs 
to be a direct relationship between formula funding and the economic 
situation--more real-time vs. the current lag (of at least a year). 
Funding needs to be more closely ``on-track'' with conditions.
    For example, current economic conditions are quite different from 
those considered in the act. The infusion from ARRA, when cutoff, will 
leave the system facing a ``steep cliff.''
    Base line numbers could be established, then the key elements of 
capacity for One-Stops adjusted (with supportive funding) in response 
to changing conditions: Space, Staff, and Services (the ``3S's''). Set 
benchmarks for WIBs to ensure adequate resources to meet training and 
job search needs.
                       questions of senator reed
    Question 1. There are more than 16,000 public libraries in the 
United States, most of which provide job/career information and 
resources, such as access to computers so that patrons can search for 
jobs and file for government services such as unemployment benefits; 
take classes on resume writing; and access business databases. In the 
economic downturn, libraries are a community resource increasingly in 
demand, especially by those who are unemployed.
    How can we better integrate libraries into our workforce system so 
that they receive the support they need to continue providing these 
services to the public?
    Answer 1. Natural integration opportunities include distance 
learning (e.g. One-Stop workshops shown at libraries via streaming 
video) and One-Stop staff located at libraries.

    Question 2. There is evidence that the unemployed are opting to use 
their local library for services that the One-Stops are designed to 
provide due to location or other reasons. One-Stops are also referring 
users to libraries for job assistance or collaborating with libraries 
to provide help to job seekers, such as in North Carolina.
    How can we support and expand these collaborations? Would co-
locating One-Stops within libraries better serve job seekers?
    Answer 2. Consider requiring (as part of WIB annual performance 
report) an update on the WIB's/One-Stops' interaction with/connection 
to libraries.
    Continued partnership building is the most likely way to identify 
specific arrangements which could benefit each community.
                       questions of senator hagan
    Question 1. Research shows that every 9 seconds in America, a 
student becomes a dropout. That being said, I believe that as we 
consider President Obama's challenge for our country--to gain an 
additional 5 million community college degrees and certificates by 
2020, it is critical to consider the role in which community colleges 
can play in reconnecting dropouts to the workforce. There is evidence 
that many GED recipients get their GED and just stop there. They do not 
recognize the value of or even think that they have the option of 
obtaining an Associates or even a 4-year degree. What are your thoughts 
on ways that we can support young adults who have dropped out of school 
to not only get a GED, but to understand how important it is to obtain 
a post-secondary degree.
    Answer 1. We need to provide continued exposure to careers and 
earning potential (Bureau of Labor Statistics data on how ``Education 
Pays'' and insulates you from unemployment is compelling to most 
youth.) In addition, key elements include mentors from business, 
opportunities for work experience (Summer Youth programs are very 
important here), and project-based learning.
    WIB accountability could include: ``what is your WIB doing to 
recruit and connect these youth?'' and ``what is your WIB doing to keep 
the issue of dropouts on the agenda of your community?''

    Question 2. North Carolina needs and wants to expand its training 
abilities for jobs that require a working knowledge of modern machines 
and programs, such as health care and advanced manufacturing. 
Unfortunately, it's also much more expensive to equip a facility to 
train those workers versus workers who do not need to be familiar with 
such expensive equipment--for example, it can be up to 50 percent more 
expensive to train someone in the field of health care. Can you share 
any thoughts about how we can help States pay for this kind of 
equipment and facilities when necessary to train workers to meet the 
needs of local businesses? Have other States confronted this issue, and 
if so, what are the lessons we've learned?
    Answer 2. No comment.

    Question 3. While the One-Stop system appears to have the very best 
intentions, my State has found it difficult to offer services in all 
rural locations at all times. Some of the entities that are located at 
a One-Stop Center might only be available certain hours of the day or 
certain days of the week. Some people in our State have started to 
offer virtual services to increase the availability in rural areas, and 
the option has been met with positive feedback thus far. Have virtual 
One-Stops been attempted elsewhere in the country? If so, have they 
been successful? What are the lessons or guidance for Congress so we 
can encourage more innovation like this, either virtual programs or 
otherwise, with the goal of increasing availability to job seekers, 
particularly in rural areas?
    Answer 3. No comment.
                      questions of senator bennet
    Question 1a. What role can business play in furthering workforce 
development?
    Answer 1a. Businesses can participate on WIB Boards and committees. 
Their input is critical in developing curricula and competency models, 
ensuring relevance of education and training to their needs. They can 
participate by providing opportunities for work experience, including 
internships and apprenticeships. Businesses can help with early 
exposure to careers through School-to-Career and other programs.

    Question 1b. Are there on the ground examples of private sector 
initiatives that have helped to close skill gaps in our economy?
    Answer 1b. In Connecticut, insurance and financial service 
organizations made significant contributions to the development of the 
Insurance and Financial Services Center for Educational Excellence (IFF 
CEE) which was created through a high-growth grant award from the U.S. 
Department of Labor. Business leaders gave their time and expertise by 
participating on committees that created Connecticut's first 2-year 
associates degree in Insurance and Financial Services. Essential to 
this effort was the input of senior managers who saw the value of 
creating a pipeline where workers could enter and move up career 
ladders.

    Question 1c. Where do you think the law can be improved to foster 
more partnerships between business and workforce development providers?
    Answer 1c. Business partnerships as part of service delivery should 
be a key measure for WIB performance.
    Larger, stronger WIBs with more of a regional focus are better 
positioned to demonstrate the value of the local delivery system to 
businesses and other providers.

    Question 1d. What are some ways that the private sector, 
government, non-profits and labor can partner in the development of our 
workforce?
    Answer 1d. Regional initiatives (like WIRED) and sector-based 
initiatives provide excellent reasons to partner--developing a talent 
pipeline and enhancing competitiveness. Major initiatives should invite 
all these stakeholders ``into the tent'' and define meaningful roles 
for each, in relation to the challenge/opportunity in focus. Education 
is another critical partner for most workforce development initiatives.

    Question 2a. Do you find the current workforce development system 
to be responsive to emerging industries and employment opportunities in 
energy and health care?
    Answer 2a. Yes, to the extent possible. In the health care field, a 
significant portion of ITA dollars are used to train individuals in 
entry-level health care occupations (Certified Nursing Asst.; Patient 
Care technician). It is difficult to move people along a career ladder 
to mid-level positions because of the length of programs (WIA ITA's are 
focused on short-term training that must result in a nationally-
recognized credential) and the significant educational gap among 
participants. WIA funding is not conducive to remedial education 
courses.
    In energy, there are a number of courses and certifications that 
are being developed as we focus more on ``Green'' occupations. The 
workforce system is definitely responding well, in large part due to 
the separate funding streams that have provided dedicated funding--such 
as, Pathways Out of Poverty (Dept of Labor); Weatherization (Dept of 
Energy). The system, including both private and non-profit training 
providers, responds to the market. It is responding to opportunities in 
energy and health care in a somewhat fragmented, localized way, but it 
is responding.
    WIBs serve as regional planning entities; with relatively little 
money, our job is to run a system with a multitude of partners, many of 
which have money for specific populations and needs. Planning for 
emerging needs is essential to shifting supply to meet demand. The 
``responsiveness of the system to emerging needs'' should be a key 
measure for WIBs, separate and beyond One-Stop performance measures.

    Question 2b. Do you find the training in these fields and resources 
required for such training to be different?
    Answer 2b. Yes, many of the energy or green jobs training program 
are short-term by nature and provide many options for those with 
barriers and/or limited education. In the healthcare arena, additional 
resources are necessary to bring many participants to the educational 
level that's necessary to move into higher levels (i.e., nursing and 
allied health occupations).

    Question 2c. Are there training models on the State level that we 
should replicate nationally?
    Answer 2c. USDOL is in the best position to identify best practices 
and create a process for replication. This is a value-added role and 
might be formalized as an ``after-grant'' activity.
    In addition, intermediaries have emerged in support of ``sector-
based'' initiatives and ``regional'' development initiatives. These 
could be encouraged, with linkage to government as appropriate. There 
are not particular barriers to knowledge-sharing, but it needs a point 
of coordination.
  Response of Paul Stalknecht to Questions of Senator Harkin, Senator 
 Enzi, Senator Murray, Senator Reed, Senator Brown, Senator Hagan, and 
                             Senator Bennet
                      questions of senator harkin
    Question 1. How can the act be changed to improve and encourage 
broad support and participation from the business community? What role 
can business play in helping workers, especially out-of-school or 
disadvantaged youth, develop the skills and experiences needed to gain 
and advance in 21st Century careers?
    Answer 1. In my view, the business community wants to see an 
optimized workforce development system through the Workforce Investment 
Act. Small business owners don't always have the resources to be active 
participants on Workforce Investment Boards, but they can participate 
in other ways. For example, many small business owners in the HVACR 
industry employ apprentices from local apprenticeship programs and 
community colleges. The act could strengthen this arrangement so that 
more prospective HVACR technicians could find on-the-job training and a 
potential future employer.

    Question 2. In what ways should ``on-the-job'' training, 
apprenticeships, and other supported employment opportunities be 
included in the reauthorization? What should we do to ensure that 
students are able to access the educational and career training and 
supports needed to be successful in the 21st century labor market?
    Answer 2. Technicians in the HVACR industry need on-the-job 
training to compliment their classroom studies. Incentives to small 
businesses to provide on-the-job training as part of an apprenticeship 
program or an associate's degree would create more opportunities for 
education and career training. A common complaint from employers is 
that recent graduates from community colleges lack the ability to be 
placed in the field right away. If the Federal Government made funding 
or incentives available to support on-the-job training with local 
contractors in the trade, trainees would be able to hit the ground 
running.

    Question 3. How would a new emphasis on on-the-job training help 
individuals with disabilities enter into and succeed in the workforce? 
Are there examples of apprenticeship programs that do a good job of 
integrating and supporting individuals with disabilities?
    Answer 3. The general and detailed work activities required of 
HVACR technicians may prevent some individuals with certain 
disabilities from performing those tasks. I am not aware of any 
examples of apprenticeship programs that integrate and support 
individuals with disabilities.

    Question 4. What changes can we make in reauthorization to address 
the unique needs for small and rural businesses?
    Answer 4. Congress should consider assisting small businesses that 
develop their own in-house training programs, especially in rural areas 
where alternatives may not exist. Several ACCA member companies that 
qualify as small businesses have created their own apprenticeship 
programs with rigorous standards that are recognized and certified by 
the Department of Labor. These are especially critical in rural areas 
where trainees may not have access to an associate's degree. I would 
recommend Congress provide financial support to small business and 
trade association apprenticeship programs. And I would encourage an 
effort to streamline the approval process for certification.
                       questions of senator enzi
    Question 1. In the air conditioning industry what are the common 
knowledge and skill gaps for those workers entering the industry for 
the first time? How has your industry worked with community colleges 
and other training providers to make sure entrants are prepared?
    Answer 1. On-the-job training is crucial since a trained technician 
will face many different kinds of HVACR systems and problems in the 
field. Many contractors have found new recruits that lack on-the-job 
training are not ready to work on their own. The apprenticeship 
programs developed and managed by ACCA chapters work with local 
community colleges to provide slots for students to work as 
apprentices. On-the-job training is part of the curriculum and a 
requirement in order to earn a certificate.

    Question 2. As a former small business owner, I believe it is 
critical for small businesses to attract, retain, and grow a skilled 
workforce. What role can business play in helping workers get the 
skills they need to grow and advance in the workforce?
    Answer 2. Along with providing on-the-job technical training, 
apprenticeship with small businesses can expose trainees to the skills 
it takes to run a business. Too many graduates of an apprenticeship 
program or certificate program excel at the technical side of the HVACR 
business, but lack the accounting, management, and finance skills to 
succeed. Future programs could include programs to teach these skills.
                      questions of senator murray
    Question 1a. I believe apprenticeships are one of the most under-
utilized resources we have to prepare workers for careers with good 
wages, benefits and long-term prospects for stable employment.
    Based on your experience, how can we improve apprenticeships?
    Answer 1a. Congress can support the apprenticeships offered through 
specialty trade organizations like ACCA at the chapter level. One 
common complaint by program administrators is compliance with Federal 
paperwork and recordkeeping requirements for certification. 
Apprenticeship program administrators must jump through many 
bureaucratic hoops to gain approval from State and Federal agencies, 
including the Department of Labor and the Veterans Administration. 
What's needed is a change in policy to streamline the process for start 
up programs and those already in existence.

    Question 1b. How can we use apprenticeships better in rural areas?
    Answer 1b. To facilitate apprenticeships in outlying areas, the 
government should partner with trade associations and rural small 
businesses that want to provide apprenticeships and training. ACCA 
chapters and members have found success in attracting interested 
students to these apprenticeships and training programs. In many 
places, the number of applicants outnumbers the slots available.

    Question2. Where do your members most often turn to get the 
training and education their employees need?
    Answer 2. In the HVACR industry, contractors turn to local chapter 
apprenticeship programs and community colleges for training and 
education.
                       questions of senator reed
    Question 1. There are more than 16,000 public libraries in the 
United States, most of which provide job/career information and 
resources, such as access to computers so that patrons can search for 
jobs and file for government services such as unemployment benefits; 
take classes on resume writing; and access business databases. In the 
economic downturn, libraries are a community resource increasingly in 
demand, especially by those who are unemployed.
    How can we better integrate libraries into our workforce system so 
that they receive the support they need to continue providing these 
services to the public?
    Answer 1. The answer may be to integrate the workforce system so 
that more library patrons can access information online.

    Question 2. There is evidence that the unemployed are opting to use 
their local library for services that the One-Stops are designed to 
provide due to location or other reasons. One-Stops are also referring 
users to libraries for job assistance or collaborating with libraries 
to provide help to job seekers, such as in North Carolina.
    How can we support and expand these collaborations? Would co-
locating One-Stops within libraries better serve job seekers?
    Answer 2. Again, making more information available online and 
simplifying the information so that anyone can access it quickly and 
easily.
                       question of senator brown
    Question. What are some ways that our Workforce Investment Act 
System could better meet the employment needs of small businesses?
    Answer. Small businesses don't always have the resources to 
integrate or fully utilize the programs created under the Workforce 
Investment Act system. There appears to be a disconnect between the 
potential employers in the specialty trades and workers looking for a 
career. Apprenticeship and training programs that require on-the-job 
training with a contractor often lead to a job offer from the 
contractor.
                       questions of senator hagan
    Question 1. Research shows that every 9 seconds in America, a 
student becomes a dropout. That being said, I believe that as we 
consider President Obama's challenge for our country--to gain an 
additional 5 million community college degrees and certificates by 
2020, it is critical to consider the role in which community colleges 
can play in reconnecting dropouts to the workforce. There is evidence 
that many GED recipients get their GED and just stop there. They do not 
recognize the value of or even think that they have the option of 
obtaining an Associates or even a 4-year degree. What are your thoughts 
on ways that we can support young adults who have dropped out of school 
to not only get a GED, but to understand how important it is to obtain 
a post-secondary degree?
    Answer 1. First, Congress needs to create Federal policies that 
change the ``culture'' of job training and career counseling. The HVACR 
industry should be an attractive and rewarding option for those who do 
not seek a degree beyond secondary school. While you need certain skill 
levels and a base educational foundation to work in the HVACR industry, 
you don't need a 4-year college degree. In the last few decades, it 
seems our society has denigrated the skilled trades in favor of 4-year 
colleges. Government policy and cultural shifts have created a world 
where young people ``look down'' on the skilled trades that still offer 
tremendous opportunity, job security, a comfortable lifestyle, and a 
career path to entrepreneurialism and business ownership.

    Question 2. North Carolina needs and wants to expand its training 
abilities for jobs that require a working knowledge of modern machines 
and programs, such as health care and advanced manufacturing. 
Unfortunately, it's also much more expensive to equip a facility to 
train those workers versus workers who do not need to be familiar with 
such expensive equipment--for example, it can be up to 50 percent more 
expensive to train someone in the field of health care. Can you share 
any thoughts about how we can help States pay for this kind of 
equipment and facilities when necessary to train workers to meet the 
needs of local businesses? Have other States confronted this issue, and 
if so, what are the lessons we've learned?
    Answer 2. An HVACR technician needs on-the-job training in order to 
succeed. There are thousands of contractors across America willing to 
open their doors to apprentices in community colleges and other 
training programs. This arrangement does not require extra facilities 
with expensive equipment.

    Question 3. While the One-Stop system appears to have the very best 
intentions, my State has found it difficult to offer services in all 
rural locations at all times. Some of the entities that are located at 
a One Stop Center might only be available certain hours of the day or 
certain days of the week. Some people in our State have started to 
offer virtual services to increase the availability in rural areas, and 
the option has been met with positive feedback thus far. Have virtual 
One-Stops been attempted elsewhere in the country? If so, have they 
been successful? What are the lessons or guidance for Congress so we 
can encourage more innovation like this, either virtual programs or 
otherwise, with the goal of increasing availability to job seekers, 
particularly in rural areas?
    Answer 3. ACCA cannot speak to the questions of the success of the 
virtual One-Stop Career Centers but our experience with online webinars 
and other training has shown increasing acceptance in the HVACR 
industry.
                      questions of senator bennet
    Question 1. What role can business play in furthering workforce 
development? Are there on the ground examples of private sector 
initiatives that have helped to close skill gaps in our economy? Where 
do you think the law can be improved to foster more partnerships 
between business and workforce development providers? What are some 
ways that the private sector, government, non-profits and labor can 
partner in the development of our workforce?
    Answer 1. Many small businesses in the HVACR industry have created 
successful apprenticeship programs that are certified by the Department 
of Labor. The same is true for local chapters of ACCA. The curriculums 
require classroom and on-the-job training. In some cases, the programs 
work with local community colleges and participants can earn a 2-year 
certificate or a 4-year degree. Yet these small businesses and local 
organizations get little or no help from the State or Federal 
Governments. The Workforce Investment Act needs to encourage these 
programs, especially in rural areas, where there may not be 
alternatives.

    Question 2. Do you find the current workforce development system to 
be responsive to emerging industries and employment opportunities in 
energy and health care? Do you find the training in these fields and 
resources required for such training to be different? Are there 
training models on the State level that we should replicate nationally?
    Answer 2. The HVACR industry is on the forefront of the energy 
efficiency movement since so much residential and commercial energy 
consumption is used for heating, cooling, and ventilation. As new 
energy efficient technologies emerge, the training will have to keep 
up. To provide the level of energy savings promised by new HVAC 
equipment, the actual installation in the field must be accurately and 
professionally executed.
  Response by Cheryl Feldman to Questions of Senator Harkin, Senator 
 Enzi, Senator Murray, Senator Reed, Senator Brown, Senator Hagan, and 
                             Senator Bennet
                      questions of senator harkin
    Question 1. 1199C is a shining example of how resources and 
partners can be leveraged to provide job seekers with education and 
career pathways that are seamless, comprehensive, and lead to good jobs 
(those with family sustaining wages and opportunities for advancement). 
How can we support and strengthen education and career pipelines that 
provide opportunities for individuals, especially individuals with 
barriers to employment, to obtain and advance in 21st century careers?
    Answer 1. A major barrier to employment is low literacy skills that 
prevent individuals from accessing education and training opportunities 
connected to career pathways. Individuals with barriers to employment 
often need support from adult education programs to address their 
literacy needs, and they need support from skills training programs to 
provide them with the skills needed by employers. Below I describe 
policies that would better align the adult education and workforce 
systems to provide job seekers with a more seamless experience that 
addresses both their literacy and job training needs. Individuals with 
barriers to employment also need programs that include a strong 
counseling component, which is usually not possible given the current 
funding constraints. Job seekers with challenging barriers will have 
much greater success if programmatic funding allows for high quality 
educational programming along with fiscal support for full time 
counselors/career coaches.
    There are many things that can be done to strengthen education and 
career pipelines by better aligning K-12 education, adult basic 
education, occupational training, and higher education to allow 
individuals to move more easily across programs and between 
institutions. One immediate opportunity to address this issue is to 
include policies that better align title I (occupation training) and 
title II (adult and family literacy) in the reauthorization of the 
Workforce Investment Act. Such policies include:
Title I
    Clarify that the focus of the program should be on the provision of 
high quality education, training and related services which provide 
individuals with the necessary skills and experience to access jobs 
that pay family-supporting wages and have advancement potential.

    <bullet> Eliminate the ``sequence of services'' provisions and 
allow individuals to immediately access needed services;
    <bullet> Establish a required percentage (consistent with current 
averages) of WIA formula funding that must be spent by States and 
localities on worker services, with an emphasis on training; and
    <bullet> Clarify that WIA funds can be used in conjunction with 
Pell grants to ensure that low-income students receive the full support 
they need to succeed in training.

    Increase the focus and capacity to serve individuals who have 
limited skills or have other barriers to economic success.

    <bullet> Ensure that lower-skill individuals have a priority of 
service for education, training and related services; and
    <bullet> Allow local areas the flexibility to provide training 
through Individual Training Accounts (ITAs) or contract training, as 
appropriate.

    Revamp the current performance measurement system.

    <bullet> Require use of an empirically supportable methodology to 
adjust performance levels based on participant characteristics and 
labor-market conditions;
    <bullet> Review and revise current performance measures to 
encourage provision of services to individuals who have limited skills 
or have barriers to employment; and
    <bullet> Develop and, over time, implement a system of shared 
accountability across workforce and other education and training 
programs.

    Improve coordination between the workforce development and adult 
education systems and promote better integration of occupational 
training, basic skills, and English language services.

    <bullet> Require States to set targets that steadily increase over 
time the percentage of participants co-enrolled in WIA titles I and II.
Title II
    Set the purpose of title II to assist students to attain career and 
post-secondary success.

    <bullet> Explicitly allow the three required local activities 
funded by title II--Adult education and literacy services (including 
workplace literacy services), Family literacy services, and English 
literacy services to be provided before or in combination with work or 
post-secondary education and training and recognize that program 
strategies can include, but are not limited to, approaches that 
integrate basic skills and post-secondary education and training 
content or which may dual or concurrently enroll students in basic 
skills and post-secondary education and training.

    Mandate that a portion of federally funded title II State grants be 
used for seeding and scaling up approaches that integrate basic skills 
and post-secondary education and training or which dual or concurrently 
enroll students in basic skills and post-secondary education and 
training.
    Expand work-based literacy and increase access to adult education 
for lower-skilled incumbent workers in other ways--for example, through 
flexible delivery modes, including weekend, compressed, or accelerated 
formats, and technology-based strategies.

    Question 2. What are your recommendations for improving labor-
management partnership participation in the workforce investment 
system?
    Answer 2. Labor management partnerships are usually multi-employer 
industry partnerships (although they sometimes involve only one large 
employer) that support and provide workforce programs which 
simultaneously meet employer and worker needs. Like workforce 
intermediaries, they engage both large and small employers. These 
partnerships have the capacity to develop and implement large-scale 
workforce interventions. In general, more long-term initiatives will 
enable labor management partnerships to build capacity to create larger 
interventions with greater opportunity for sustainability. My 
recommendations for improving labor-management partnership 
participation in the workforce investment system are as follows:

    (1) Create incentives for career ladder education for newly placed 
workers that continues post-employment by incentivizing educational 
providers to offer programs that meet at the times and locations that 
are accessible to the working adult. Workers would be able to take an 
entry level position while continuing to train for better paid and more 
skilled jobs. This approach of supporting ongoing workforce development 
would not only benefit job seekers but also provide opportunities to 
incumbent workers to move up a career ladder while creating room for 
new workers to begin employment. (2) Create labor management 
partnership demonstration projects that support capacity building in 
connecting the unemployed and dislocated workers to industry-based 
career ladder opportunities and simultaneously allow for low-wage 
workers to advance. (3) Create more opportunities for multi-employer, 
sector-based education and employment projects. (4) Create more 
opportunities for addressing the education and training needs of low-
wage and mid-wage incumbent workers with the goal of helping them 
access career advancement opportunities at the same time that 
employers' needs for a high-skilled workforce are addressed. (5) Create 
incentives for the development of new labor/management partnerships as 
one way of expanding industry-based training and education. (6) Support 
the National AFL-CIO (Working for America Institute) to provide 
technical assistance and other capacity building support that enables 
labor management partnerships to participate more fully in the 
workforce investment system.

    Question 3. How has your partnership with the Workforce Investment 
Board been beneficial or meaningful? How can we improve the climate for 
WIB partnerships in reauthorizing the law?
    Answer 3. Our partnership with the WIB has been extremely 
beneficial in Philadelphia. As a result of the efforts of the WIB, the 
RCEP, and the Youth Council, public agencies, private agencies, and 
businesses have aligned to create a system to address the needs of 
youth (Project U-Turn), of adults with literacy needs (EXCEL 
Philadelphia), and adults without degrees (Graduate! Philadelphia). The 
District 1199C Training & Upgrading Fund has actively supported and 
engaged with each of these initiatives. We are attempting to build 
seamless delivery systems in lieu of the fragmented systems that have 
existed for decades. Under the leadership of Mayor Nutter, we are 
working together as a city to bring the resources to bear that will 
halve our high school dropout rate and double our college graduation 
rate. In reauthorizing WIA, it would be beneficial for WIB's to be 
viewed as responsible for the workforce system rather than a single set 
of services, and therefore focused on building strong, supportive 
collaborations with partners like the District 1199C Training & 
Upgrading Fund to achieve strategic goals that address the workforce 
needs of the local community.
                        question of senator enzi
    Question. There are approximately 30 million Americans who have not 
completed high school and 58 million who have completed high school but 
have no post-secondary education credential. Is the WIA system capable 
of providing services to these 88 million people? Is the WIA system 
capable of providing more academic remediation, or high school degrees? 
Is the system prepared to focus on industry recognized certifications? 
If not, what are the legislative or regulatory constraints? What are 
the fiscal constraints?
    Answer. When WIA passed in 1998, there was a promise of additional 
resources to support implementation. Those resources did not 
materialize, and in real dollars, we have seen a 47.1 percent reduction 
in Pennsylvania's WIA appropriation since 2002. (In non-inflation 
adjusted dollars, the percent reduction is 35.2 percent.) At the same 
time, the gap has significantly widened between where people are (in 
terms of literacy levels, occupational skills, and degrees) and what 
businesses need to compete in a global economy. These are simply 
realities the system faces. So in my estimation, the idea that we can 
achieve efficiencies sufficient to offset these losses and 
fundamentally expand services into new areas while maintaining all 
current functions may be unrealistic. Therefore, leveraging and 
aligning resources is our best path to building a human capital system 
in this country that is positioned to take on these new challenges.
    Under current funding levels, of course, it is not possible for the 
WIA system to provide services to the 88 million adults currently in 
the labor force who could benefit from obtaining post-secondary 
education leading to an industry recognized credential, vocation 
certificate, or Associate's Degree. The system currently lacks the 
funding to purchase the education and training and supportive services 
such workers require, and also the capacity necessary to provide such 
services for so many individuals. Realistically, no system--K-12, 
higher education, adult basic education, or occupational training--is 
uniquely equipped to provide services to this population.
    However, it is critical that Federal policymakers address this 
problem. The National Skills Coalition has documented that nearly half 
of all jobs in our economy now and for the foreseeable future are 
``middle skill'' jobs requiring more than a high school diploma, but 
not necessarily a 4-year college degree. Another 30 percent of all jobs 
require a 4-year degree or beyond. This means that 8 out of 10 jobs in 
our economy are beyond the skills of approximately 60 percent of our 
current workforce. We must recognize that workforce education and 
training is not a ``second chance'' or ``last chance'' system for 
individuals who have failed in other systems, but rather is an integral 
part of a system by which workers in this country obtain the skills 
they need to enter and succeed in the labor market. Our Nation will 
struggle to maintain our competitive position in the global economy if 
we fail to address the existing skills deficit in our workforce.
    The WIA system is uniquely positioned to begin to address this 
problem. If the WIA system were restructured, and adequately resourced, 
to truly serve as a ``no wrong door'' entry point for workers into 
adult basic education, occupational training, and higher education--and 
these systems were much better aligned to allow both integration of 
programs (i.e., combined occupational and literacy training, dual or 
concurrent enrollment, real career pathways that allow for the 
combination of work and learning, etc.) and seamless transitions across 
programs (i.e., articulation agreements, pre-apprenticeship programs, 
on-going supportive services, etc.)--it could function as a kind of 
intersection point across numerous Federal programs and funding streams 
and serve many, many more people.
    The system is prepared to focus on industry-recognized credentials, 
and is already doing so in many places, including Pennsylvania. Areas 
that have adopted industry or sector partnership models, in particular, 
are very conscious of the need to ensure that workers can obtain 
industry recognized credentials, and work very closely with employers 
to develop curriculum that lead to credentials that have value to those 
employers. However, there is a great deal of variability across 
existing credentials and what has value to one employer may not have 
value to another. It would be important, and extremely useful, for the 
Federal Government to convene and advance meaningful conversations 
about how we determine what is a credential that has value to an 
employer in the labor market--and by extension, how we invest Federal 
training and higher education dollars. The Federal Government should 
not attempt to define what counts as a meaningful industry recognized 
credential. Just as the Federal Government does not try to define what 
counts as a college degree, but rather sets the broad outlines of the 
accreditation process, the Federal Government should strive to help set 
the broad outlines of the process by which employers (working with 
other key stakeholders such as labor management partnerships) develop 
industry-recognized credentials.
                      questions of senator murray
    Question 1a. One of the most challenging aspects of our system is 
how best to provide education and training opportunities to incumbent 
workers in a way that balances the needs of employers and the workers' 
family obligations.
    Based on your experience, how can we better provide work-based 
learning and on-the-job-training opportunities in our workforce 
development systems?
    Answer 1a. Federal dollars are relatively rigid and subject to 
intense oversight. This can limit the willingness of local entities 
that are liable for these dollars to innovate. Further, much of the 
activity from the USDOL prior to last year was focused on finding 
things wrong rather than defining what works and helping others to 
replicate it. Clarifying congressional intent in the law would help, 
particularly around the technical assistance role the Federal 
departments can play in assisting local areas to use dollars in new and 
innovative ways that help people secure and maintain employment, and 
assist employers in increasing their productivity and growth.
    An example of an innovative, extremely successful strategy used by 
labor management partnerships and employer-based partnerships is the 
use of work-based learning as part of a career advancement strategy for 
incumbent workers. The success of work-based learning depends on a 
number of factors. Most important is the need for release time or paid 
time for participating in an instructional program, which is often not 
an allowable cost within federally funded projects. Release time 
enables incumbent workers to participate in education and still meet 
their family obligations. Other important aspects of work-based 
learning include: preparatory, basic skills instruction along with job 
skills training to ensure that the worker can be successful; 
counseling/career coaching support to ensure that the worker is 
supported in the learning experience; engaging supervisors in the 
learning experience to ensure that the employer is engaged in the 
instructional design; and, connecting work-based learning to an 
industry-recognized credential and access to college credits. Lastly, 
whenever possible, it is important that successful completion of work-
based learning related to skills needed on the job results in a wage 
increase for the worker. These work-based learning programs are often 
lengthy and time consuming to design and implement. Giving partnerships 
the flexibility to implement these types of work-based learning 
programs will enable workers to successfully advance in their careers 
and enable employers to grow their own high-skilled workforce.

    Question 1b. How has your organization's partnership with your 
local workforce board been beneficial to meeting to your goals?
    Answer 1b. Our partnership with the WIB has been extremely 
beneficial in Philadelphia. As a result of the efforts of the WIB, the 
RCEP, and the Youth Council, public agencies, private agencies, and 
businesses have aligned to create a system to address the needs of 
youth (Project U-Turn), of adults with literacy needs (EXCEL 
Philadelphia), and adults without degrees (Graduate! Philadelphia). The 
District 1199C Training & Upgrading Fund has actively supported and 
engaged with each of these initiatives. We are attempting to build 
seamless delivery systems in lieu of the fragmented systems that have 
existed for decades. Under the leadership of Mayor Nutter, we are 
working together as a city to bring the resources to bear that will 
halve our high school dropout rate and double our college graduation 
rate. We have worked with the WIB to build a workforce system rather 
than a single set of services, working to achieve strategic goals that 
address the needs of our local community.
                       questions of senator reed
    Question 1a. There are more than 16,000 public libraries in the 
United States, most of which provide job/career information and 
resources, such as access to computers so that patrons can search for 
jobs and file for government services such as unemployment benefits; 
take classes on resume writing; and access business databases. In the 
economic downturn, libraries are a community resource increasingly in 
demand, especially by those who are unemployed.
    How can we better integrate libraries into our workforce system so 
that they receive the support they need to continue providing these 
services to the public?

    Question 1b. There is evidence that the unemployed are opting to 
use their local library for services that the One-Stops are designed to 
provide due to location or other reasons. One-Stops are also referring 
users to libraries for job assistance or collaborating with libraries 
to provide help to job seekers, such as in North Carolina.
    How can we support and expand these collaborations? Would co-
locating One-Stops within libraries better serve job seekers'
    Answers 1a and b. The greater use of libraries to deliver workforce 
services is a great idea, if those libraries have existing resources 
(e.g., are appropriately staffed and have space) and if there is a 
commitment at the library leadership level to these services. That is 
something that can only be determined locally. In addition to 
libraries, other excellent vehicles which can successfully deliver 
workforce services may include recreation centers, schools, community-
based organizations, union halls, or labor management partnership 
learning centers. The key point is to enable decisionmaking at the 
local level that allows for flexibility based on local opportunities 
and conditions.
    Our labor management partnership works closely with the library 
system in Philadelphia. In fact, the Philadelphia Mayor's Commission on 
Literacy, which is tasked with coordinating all of the city's adult 
education agencies, operates within the Free Library of Philadelphia. I 
would be happy to seek input from the Free Library of Philadelphia on 
your questions if you wish. Please let me know if you would like me to 
followup, and I would be happy to do so.
                       question of senator brown
    Question. I am interested in hearing more about your experience in 
implementing sectors strategies. What are the key elements of effective 
sectors partnerships? How do existing WIA programs help or hinder the 
development of robust sector partnerships?
    Answer. Key elements of effective sector partnerships can be 
expressed in two ways: those that are crucial generally and those that 
are crucial to the planning, design, and partnership building phase of 
sector partnership development.
Key Elements That Are Crucial Generally
    The goal of a sector partnership is to make it possible for 
individuals with low incomes and/or low skills to obtain good jobs, 
while addressing the needs of multiple employers in an industry sector, 
and of job seekers and workers in that industry sector.
    Sector partnerships share the following characteristics:

    1. Focus intensively on an industry within a regional labor market, 
and multiple employers in the industry, over a sustained period of 
time.
    2. Are led by a workforce intermediary, including labor management 
partnerships, with credibility in the industry.
    3. Create new pathways for low-wage workers into the industry with 
the opportunity to access good jobs and careers.
    4. Achieve systemic changes that are ``win-win'' for employers, 
workers, and the community.

    In regard to systemic changes, sector partnerships focus on three 
areas:

    <bullet> Education/training, support services, and business 
services (both the services themselves, and the ways they partner/
coordinate);
    <bullet> Industry practice; and
    <bullet> Public policy.

    Sector partnerships pursue three strategies:

    <bullet> Increase access to good jobs;
    <bullet> Improve the quality of jobs; and
    <bullet> Support job creation.

    Most pursue the first strategy. Increasingly, sector partnerships 
also pursue the second strategy. A few sector initiatives pursue the 
third strategy. Predictions of slow job growth over the coming decade 
create great concern, and sector partnerships are well-positioned to 
develop the capacity to support job creation.
    Several success factors of sector partnerships for involving 
employers in an industry sector and meeting their needs include:

    <bullet> Deep knowledge of industry, its culture, and employers' 
needs;
    <bullet> Credibility with industry, or an effective strategy to 
gain it;
    <bullet> Entrepreneurial character;
    <bullet> Capacity to develop solutions for businesses and workers;
    <bullet> Meaningful measures of results, and effective ways to 
report;
    <bullet> Focus on quick response to changing industry needs;
    <bullet> Commitment to long-term involvement; and
    <bullet> Governance that involves business and labor leaders in key 
decisions.

    Success factors of sector partnerships for recruiting workers and 
meeting their needs include:

    <bullet> Deep understanding of workers' and job seekers' needs and 
perspectives;
    <bullet> Credibility with community and labor leaders;
    <bullet> Effective communication vehicles;
    <bullet> Programmatic capacity to address specific needs regarding 
skill development and support services; and
    <bullet> Influence to bring about systems changes that increase 
access and retention in programs and employment.

How Existing WIA Programs Help or Hinder the Development of Robust 
        Sector Partnerships
    WIA focuses resources on individuals who are unemployed. However, 
most low-income people are members of the ``working poor.'' WIA should 
provide resources for post-employment services that make it possible 
for those who have low incomes 
and/or limited skills to advance along career paths to good jobs.
    WIA limits funding for ``admin'' in ways that make it difficult to 
support intermediary services that are crucial to sector partnerships. 
WIA provisions supporting sector partnerships should target resources 
to organizations with the key characteristics and capacities of 
industry sector-focused workforce intermediaries.
    Characteristics of a workforce intermediary include the following:

    <bullet> It has an entrepreneurial culture.
    <bullet> It has a results-driven focus that promotes flexibility 
and accountability amongst partners.
    <bullet> It has the capacity to act as a project manager and to 
manage partnerships with multiple organizations in order to deliver 
services that respond to the needs of the industry and its workforce.
    <bullet> It has the capacity to manage multiple sources of funding 
in order to meet the needs of an industry's employers and workforce.
    <bullet> It has expertise and credibility with the industry 
sector's employers and labor, and an understanding of the sector and 
the needs of its employers, its workforce, and its potential workforce.
    <bullet> It has or develops an awareness of best and promising 
practices in service delivery.
    <bullet> It has or develops an understanding of systems change and 
a commitment to accomplishing it.
    <bullet> It plays a strong role in solving the workforce needs of 
the industry and addressing the need for good jobs for the community 
and its workers.

    The workforce intermediary has several specific roles in 
implementing the sector initiative:

    <bullet> Work across jurisdictional boundaries to manage sector 
initiative partners' activities throughout the regional labor market 
within which the sector initiative operates and has impact.
    <bullet> Coordinate the sector initiative's employer and/or 
workforce service delivery, providing a level and data-driven 
management capacity, information systems to coordinate the flow of 
services across multiple agencies to employers and individuals, and 
monitor outcomes for industry, workers, and job seekers.
    <bullet> Improve data collection and analysis capacity, and the use 
of it to drive sector initiative activities.
    <bullet> Anticipate challenges and technical assistance needs.
    <bullet> Build the capacity of service providers to better meet the 
needs of employers and job-seekers.
    <bullet> Bring about efforts to update understanding of employers', 
workers', and job seekers' needs, ensuring that service provider 
practices change to address these needs, and ensuring that systems 
change objectives do so.
    <bullet> Stimulate systems change, lead efforts to identify systems 
change strategies and to pursue them, and monitor the sector 
initiative's progress.
    <bullet> Bring about a structure for governance of the partnership 
and participate in it.
    <bullet> Secure financial support, involve sector initiative 
partners in doing so, and manage multiple funding streams so resources 
can be used most flexibly to meet the needs of employers, workers, and 
job seekers.
    <bullet> Examine possible areas for expansion of the sector 
initiative and its sustainability.
    <bullet> Market the sector initiative; publicize progress.

    Workforce Investment Boards and One-Stops may or may not be best 
suited to be workforce intermediaries that lead and manage sector 
partnerships, but the flow of WIA funding currently encourages them to 
play the intermediary role. Instead, WIA should incent funding of 
organizations that support the goal of sector partnerships identified 
above, and have the characteristics and capacity to be workforce 
intermediaries, including labor-management partnerships, community-
based organizations, and others.
    A large amount of WIA funding supports One-Stop Career Centers and 
the One-Stop infrastructure. In general, the role of the One-Stops is 
short-term and transactional (focused on job-matching). Sector 
partnerships have greater impact because they are long-term and 
relational, making it possible for them to meet the needs of multiple 
employers (improving productivity, developing the workplace as a 
learning environment, increasing productivity, improving job quality, 
and developing career paths), multiple workers (pre- and post-
employment assistance, long-term skill development, advancement along 
career paths), and achieving systems change.
    Currently WIA organizes services by groups of job seekers/workers 
(e.g., Adults, dislocated workers, youth). Instead, WIA should be 
designed to support advancement of those with low incomes and/or skills 
to good jobs, while reducing the division of services by category of 
job seekers/worker, so that programs can meet the needs of multiple 
categories of job seekers and workers and employers' related needs.
    Currently WIA's performance measures only focus on outcomes for job 
seekers and workers, and their short horizons make it difficult to 
dedicate resources to long-term skill development for those with low 
incomes and/or limited skills. They also make it difficult to meet 
industry sector needs over the long-term, and provide post-employment 
services that support workers' advancement up career paths. Finally, by 
focusing on worker outcomes rather than addressing a broader set of 
issues, current performance measures only obtain programmatic 
information, rather than addressing systems change. Instead, 
performance measures should address longer timeframes, and should 
address the following areas: benefits to workers, benefits to 
employers, the quality of sector partnerships, and the impact on 
systems change.
    Sector partnerships coordinate multiple funding sources to support 
their work, and States that support sector partnerships align multiple 
agencies strategies and resources. However, currently, WIA does little 
to incent coordination of other systems' strategies and resources; nor 
does it ease the burden sector initiatives face of coordinating 
multiple funding sources. WIA provisions should incent funding to align 
with its purpose of supporting sector partnerships that have the above-
stated goal by providing for matching funds for funding from sources 
such as States, local governments, labor-management partnerships, and 
foundations.
Key Elements That Are Crucial to the Research, Design, and Partnership 
        Building Phase
    Key tasks in the research, design, and partnership building phase 
include:

    <bullet> Convene key industry employers and unions.
    <bullet> Convene key service delivery partners.
    <bullet> Work with employers, unions and labor management 
partnerships, education and community partners to set vision/mission.
    <bullet> Manage analysis of the regional labor market, including 
which industry sector and occupations to address, which employers to 
work with and how, worker needs, the union role, and capacity of 
potential service delivery partners.
    <bullet> Work with employers, unions, and partners to design 
operations and systems change.
    <bullet> Manage development of start-up plan and raise funding for 
start-up and ongoing operations.
How Existing WIA Programs Help or Hinder the Development of Robust 
        Sector Partnerships
    WIA's funding is largely tied to programmatic outcomes. As a 
result, research, design, and partnership building activities are 
crucial to meeting employer and worker needs. Additionally, sector 
partnerships are often under-capitalized during the start-up phase; 
further, funding often ends too quickly for sector partnerships to 
complete start-up and produce outcomes at significant scale. WIA 
funding should support planning grants and 2- and 3-year long 
operational grants. Operational grants would be contingent on 
achievement of key research, design, and partnership building outcomes.
                       questions of senator hagan
    Question 1. Research shows that every 9 seconds in America, a 
student becomes a dropout. That being said, I believe that as we 
consider President Obama's challenge for our country--to gain an 
additional 5 million community college degrees and certificates by 
2020, it is critical to consider the role in which community colleges 
can play in reconnecting dropouts to the workforce. There is evidence 
that many GED recipients get their GED and just stop there. They do not 
recognize the value of or even think that they have the option of 
obtaining an Associates or even a 4-year degree. What are your thoughts 
on ways that we can support young adults who have dropped out of school 
to not only get a GED, but to understand how important it is to obtain 
a post-secondary degree?
    Answer 1. The system has historically focused on the acquisition of 
the GED as a terminal credential. In order to encourage young people to 
go beyond the GED, the culture and mind set must be changed to embed 
the conversation about post-secondary credentials as an integral 
component and expectation of the program from the beginning. GED 
programs must do more than just ``expose'' young people to college 
through college tours and the like but must ensure that they are 
academically preparing young people to be successful in college without 
remediation. Furthermore, in the same way that early and middle college 
high school models and dual enrollment enable youth to earn college 
credits while in high school, we need to export these types of models 
to the GED system. Finally, the GED program cannot stand on its own but 
must include work and experiential learning opportunities as well as 
social supports that remove barriers and encourage persistence to and 
through the associates and/or baccalaureate degree.

    Question 2. North Carolina needs and wants to expand its training 
abilities for jobs that require a working knowledge of modern machines 
and programs, such as health care and advanced manufacturing. 
Unfortunately, it's also much more expensive to equip a facility to 
train those workers versus workers who do not need to be familiar with 
such expensive equipment--for example, it can be up to 50 percent more 
expensive to train someone in the field of health care. Can you share 
any thoughts about how we can help States pay for this kind of 
equipment and facilities when necessary to train workers to meet the 
needs of local businesses? Have other States confronted this issue, and 
if so, what are the lessons we've learned?
    Answer 2. The question here is not how you get equipment the first 
time, but how you keep it state-of-the-art, which is not a one-time 
investment. Would Congress create some incentives for business to 
donate equipment to training/education providers? What about some 
credit to vendors for greatly reduced purchase prices for those 
institutions that use the equipment solely for training? Or incentives 
(and waivers) to companies that allow the use of their facility for 
non-employee training?

    Question 3. While the One-Stop system appears to have the very best 
intentions, my State has found it difficult to offer services in all 
rural locations at all times. Some of the entities that are located at 
a One-Stop Center might only be available certain hours of the day or 
certain days of the week. Some people in our State have started to 
offer virtual services to increase the availability in rural areas, and 
the option has been met with positive feedback thus far. Have virtual 
One-Stops been attempted elsewhere in the country? If so, have they 
been successful? What are the lessons or guidance for Congress so we 
can encourage more innovation like this, either virtual programs or 
otherwise, with the goal of increasing availability to job seekers, 
particularly in rural areas?
    Answer 3. I am not familiar with virtual One-Stops. Distance 
learning can be used to help obtain a GED or even access skills 
training.
                      questions of senator bennet
    Question 1. What role can business play in furthering workforce 
development? Are there on the ground examples of private sector 
initiatives that have helped to close skill gaps in our economy? Where 
do you think the law can be improved to foster more partnerships 
between business and workforce development providers? What are some 
ways that the private sector, government, non-profits and labor can 
partner in the development of our workforce?
    Answer 1. Business and labor can, and in many places do, play a 
central role in furthering workforce development. Particularly in areas 
that have adopted industry or sector partnership models, business and 
labor are leading drivers of the workforce development system. In 
particular, there are numerous examples in which labor management 
partnerships have provided leadership in developing innovative 
workforce models that meet the dual needs of employers and workers/job 
seekers. The District 1199C Training & Upgrading Fund, for example, has 
served as the lead in bringing together partners in the Jobs to Careers 
and National Fund for Workforce Solutions initiatives. These are 
private sector initiatives that have leveraged private employer and 
foundation funding with public dollars to implement long term workforce 
interventions with significant impact.
    Sector partnerships organize the stakeholders connected with a 
specific local or regional industry--multiple firms, labor management 
partnerships, education and training providers, and workforce and 
education systems to develop workforce development strategies within 
the industry. Successful sector partnerships leverage partner resources 
to address both short- and long-term human capital needs of a 
particular sector, including by analyzing current labor markets and 
identifying barriers to employment within the industry; developing 
cross-firm skill standards, curricula, and training programs; and 
developing occupational career ladders to ensure workers of all skill 
levels can advance within the industry.
    Sector partnerships are active in nearly 40 States and the District 
of Columbia. While many sector partnerships are driven at the local 
level, some States have made sectoral initiatives a central part of 
their overall workforce development strategies. For example, 
Pennsylvania has nearly 80 partnerships serving more than 6,000 firms 
across the Commonwealth, and more than 70,000 workers have received 
training and related services as part of the program. Pennsylvania 
partnerships have leveraged nearly $40 million in cash and in-kind 
contributions from participating employers since 2005. Washington State 
has also adopted sector strategies at the statewide level, and has 
established more than 50 ``industry skill panels'' in 16 key industries 
since 2000. The National Governors Association, the Corporation for a 
Skilled Workforce, and the National Network of Sector Partners have 
partnered on a multi-year project to accelerate State adoption of 
sector strategies. The project includes a Policy Academy for States 
looking to create or expand sectoral models, as well as a peer-to-peer 
Learning Network of six States with significant sectoral experience.
    Sector partnerships differ from Workforce Investment boards (WIBs) 
and One-Stop Career Centers in key ways. One-Stop Career Centers are 
designed to be universal employment and training resources, meaning 
that they provide services to all job seekers--and all businesses--
within a local workforce area, while WIBs are intended to have broad 
representation from the business community. Sector partnerships, by 
contrast, work within a single, specific industry that has been 
identified as critical to local or regional economic success. As a 
result, sector partnerships develop a depth of understanding of a 
specific sector that is neither practical nor desirable for a WIB. 
Sector partnerships are not meant to replace WIBs--in fact, WIBs are a 
key partner in many successful sector partnerships--nor are they meant 
to offer the universal services of One-Stop Career Centers. Instead, 
they are designed to help a local area or region develop depth and 
capacity within targeted, specific industries in ways that complement 
broader workforce efforts.
    Sector partnerships are guided by employers and often focus, at 
least initially, on skilling up an incumbent workforce. However, well-
designed sector partnerships can also have significant positive impacts 
on low-income workers. According to a multi-year, random assignment 
impact study conducted by the public interest research group Public/
Private Ventures, participants in sector-based training programs earned 
an average of 18.3 percent (or about $4,500) more than a control group 
over the 24-month period of the study. In addition, participants in 
sector programs were more likely to work in jobs with benefits, 
including health insurance and paid time off, and were more likely to 
find consistent work--about 1.3 additional months of employment over 
the 2-year period than the control group average.
    A 2002 report from the Aspen Institute similarly showed improved 
labor market outcomes for low-income workers in seven sector programs 
across the country. Participants saw an average increase in hourly 
wages of 31 percent over the 2 years of the study period, and 39 
percent of participants had been able to move out of poverty on the 
basis of their personal income alone.
    Although Congress established a sector grant program as part of the 
recently reauthorized Trade Adjustment Assistance (TAA) program, this 
program is only available for communities impacted by foreign trade and 
it has not yet been funded. WIA does not explicitly support sector 
partnerships, meaning that there is limited Federal support for these 
initiatives, and coordination between sector programs and other 
elements of the workforce system can sometimes be limited.
    Senators Brown (D-OH) and Snowe (R-ME), have introduced the 
``Strengthening Employment Clusters to Organize Regional Success 
(SECTORS) Act'' (S. 777), and have advocated for its inclusion in WIA 
reauthorization. The SECTORS Act would amend WIA to provide designated 
funding and distinct performance measures for industry or sector 
partnerships. The bill would establish a series of 1-year planning 
grants and 3-year implementation grants to eligible partnerships 
comprised of employers, labor organizations, local WIBs, post-secondary 
educational institutions, State workforce agencies or other entities 
providing State employment services. Partnerships receiving grant funds 
would be responsible for meeting a range of strategic objectives, 
including identifying training needs of multiple businesses; helping 
post-secondary educational institutions and training institutions align 
curricula and programs to industry demands; developing and 
strengthening career ladders within and across companies; and improving 
job quality through improving wages, benefits, and working conditions.

    Question 2. Do you find the current workforce development system to 
be responsive to emerging industries and employment opportunities in 
energy and health care? Do you find the training in these fields and 
resources required for such training to be different? Are there 
training models on the State level that we should replicate nationally?
    Answer 2. Models for service delivery exist at the local level more 
often than at the State level. The challenge with emerging industries 
is that until you have employers and labor at the table defining their 
workforce needs, you cannot design tailored services (one way to do 
this is to engage in the retraining of incumbent workers as industries 
or companies morph). On the other hand, the opportunity with emerging 
industries is that the public workforce system is on level ground with 
private vendors and has an equal opportunity to develop the supply 
pipeline--the advantage being that populations that are the target of 
public investments (veterans, disconnected youth, dislocated workers, 
economically marginalized adults, etc.) have a good shot at filling 
industry's need for emerging employment opportunities.
Response by Robert Templin, Jr. to Questions of Senator Harkin, Senator 
 Enzi, Senator Mikulski, Senator Murray, Senator Reed, Senator Brown, 
                   Senator Hagan, and Senator Bennet
                      questions of senator harkin
    Question 1. What is the single most important thing that community 
colleges can do to help meet President Obama's goal--for the United 
States to again lead the world in college completion rates. And what is 
the single most important thing that community colleges can do to 
ensure a competitive workforce now and in the future?
    Answer 1. The answer to both questions is the same: The single most 
important thing that community colleges can do to help meet President 
Obama's goal and ensure a competitive workforce is for them to serve as 
the ``on ramp'' for the growing number of Americans needing post-
secondary education, and once enrolled, these students need to be 
assisted by community colleges in completing a post-secondary 
credential in increasing numbers. If we are to reach the President's 
goal, many more Americans who have traditionally been left on the 
periphery of higher education, must become active and successful 
learners in post-secondary education and they must achieve market-
valued credentials. Among the target groups are recent high school 
graduates who would be the first in their family to go to college, high 
school dropouts, 17-24-year-old high school graduates who are out of 
school and who lack the training for a family-sustaining wage, low-
income wage earners, minorities, and immigrants. Community colleges are 
America's best national resource for achieving the President's goal.

    Question 2. How can the workforce investment system help students 
with disabilities transition from education or employment skill 
training programs into meaningful careers with opportunities for 
growth? What do we need to do in order to better support students who 
face barriers to accessing and succeeding in post-secondary education 
programs or employment?
    Answer 2. The current workforce investment system does not provide 
resources to meet the needs of students with disabilities who need 
support and guidance to help them advance from the classroom to the 
workforce. Student transition from high school and community college 
should begin in a student's freshman year of high school with 
opportunities to assess interests in the context of career exploration. 
All students should exit high school with career and post-secondary 
education navigation skills that will serve them for a lifetime.
    Many students with disabilities face employment barriers that make 
the move from education to the workforce more difficult. These students 
should have IEP-
directed services at both the secondary school and post-secondary 
education levels that leverage the full array of resources from the 
Workforce Investment Act-funded system and community-based 
organizations while they are in school or attending community college.
    While career navigation sets the course for these individuals, 
access to supports is essential to make the journey. Such individuals 
would benefit from the expertise of community-based organizations, such 
as Goodwill Industries, that have the experience and resources to help 
students with disabilities and disconnected youth to advance into 
college, the workforce, and careers. As established local stakeholders, 
such community-based organizations are strongly positioned to help 
students with employment barriers learn specialized skills required by 
local businesses and employers. Community-based organization's 
experience helping people with a range of barriers equips them to help 
students navigate a complex, often fragmented, maze of supports 
administered by numerous Federal agencies including the Departments of 
Labor, Education, Health and Human Services and others.
    Students with disabilities and other barriers need assistance in 
securing supports such as:

    <bullet> training,
    <bullet> appropriate professional clothing,
    <bullet> reliable transportation,
    <bullet> tools and materials,
    <bullet> assistive technology,
    <bullet> childcare,
    <bullet> stable housing,
    <bullet> help navigating ``benefit cliffs'' (sudden drops in 
benefits like TANF, Medicaid, or SSI people experience when 
transitioning to work), and
    <bullet> assistance in adjusting to the workplace.

    It is recommended that our country establish a clear multi-system 
goal of career and college readiness for all students; establish a 
multi-systemic structure involving the Departments of Education, Labor, 
and other agencies as needed, that provide career guidance to youth 
(ages 14-24) with priority given to youth with disabilities and other 
youth with characteristics that put them at higher risk of becoming 
court-involved, homeless, or otherwise disconnected; and provide 
funding for this specific program.

    Question 3. How can the act be reauthorized to encourage and 
support community college involvement with the workforce investment 
system?
    Answer 3. The American Association of Community Colleges (AACC) has 
developed a comprehensive set of recommendations for WIA 
reauthorization. Most of these recommendations directly answer this 
question, and I have provided a copy of those recommendations for your 
reference. (Attachment A) In brief, WIA should be authorized with an 
eye towards cementing the community college role in planning and 
executing workforce development strategies at the State, regional and 
local levels. Customer choice, as implemented in the Individual 
Training Accounts, should be better balanced with other types of 
``cohort'' approaches that prioritize the use of community colleges for 
training, including direct support for community college training 
capacity at the national level, increased use of training contracts and 
sector initiatives like the ones funded by the Community-Based Job 
Training Grants. These approaches better address the need that 
community colleges have to expand their training capacity. Finally, 
though their impact has been muted by DOL-granted waivers in many 
States, the subsequent eligibility requirements for training providers 
must be significantly altered. Regionally accredited, public 
institutions of higher education should be automatically eligible to 
participate in the workforce system.

    Question 4. Iowa's community colleges are essential partners in 
training and upgrading the skills of job seekers and workers--for 
example, by providing training opportunities to soon-to-be-released 
inmates. How can community colleges work more efficiently with the 
workforce system to ensure that individuals gain access to the courses 
and credentials they need. How can community colleges do a better job 
of working with local businesses to ensure those courses lead to good 
jobs?
    Answer 4. We must build upon and emphasize regional market 
approaches that answer threshold questions regarding what jobs are 
available now and in the future, what skills and credentials are needed 
for those jobs, and what skills gaps there are in the workforce. After 
those questions are answered, cohesive business-driven plans must be 
formulated and executed to address the identified employment needs. 
Sector-based initiatives that bring all the stakeholders together in a 
focused way are particularly effective structures for doing all of 
these things. Community colleges must endeavor to work more closely 
with businesses and the workforce system as they devise and refine 
their education and training programs, such as through the effective 
use business advisory boards and by having representatives on WIA 
boards. Perhaps most importantly, colleges must work closely with the 
workforce system to ensure that workers coming into the system are 
aware of all the tools available to them to help them access the 
training and credentials they need, particularly those offered by 
Federal and State student aid programs.

    Question 5. What key challenges will community colleges face as 
demand for their courses continues to grow and the economy changes?
    Answer 5. The overarching challenge that community colleges face is 
one of capacity, and many of the AACC recommendations for WIA 
reauthorization address the issue of how the system can better help 
colleges expand their training capacity in the face of growing demand. 
In addition, and outside the scope of the WIA bill itself, community 
colleges face tremendous challenges in expanding and modernizing their 
facilities to meet this demand. Estimates put this need at well north 
of $10 billion. The need is particularly acute for career and technical 
education programs that require specialized facilities and equipment. 
The American Graduation Initiative recognized this need by proposing to 
provide $2.5 billion in seed money for community college facilities, 
and there was nearly money for this purpose in the American Recovery 
and Reinvestment Act. Chairman Harkin has been an outstanding champion 
for facilities funds for community colleges, and we look forward to 
continue working with him to realize Federal support in this area.
    One other challenge, particularly in some career and technical 
education programs, is the ability to hire and retain the faculty 
needed not only to expand, but to maintain current training capacity. 
There are two principal forces at work here. First, since the average 
community college derives approximately 60 percent of its revenues from 
State and local support, recent declines in this support have severely 
impaired the colleges' ability to maintain sufficient faculty levels. 
Second, in many workforce programs, the salaries offered by the 
industries we are training for are much larger than those that colleges 
are able to offer to its faculty. This problem is especially acute in 
the nursing and allied health fields, but it is by no means isolated to 
them.

    Question 6. In your experience, what characterizes the most 
effective partnerships between community colleges and secondary 
schools?
    Answer 6. The four critical elements characterizing effective 
partnerships between community colleges and secondary schools are:

    <bullet> Mutual commitment of the community college and the 
secondary school system to students who are low-income, minority, and 
first generation college-going;
    <bullet> Joint recognition that preparing students to be ``college-
ready'' is a responsibility of both the secondary school system and 
community colleges;
    <bullet> Leadership at both the superintendent of schools and the 
community college president levels; and
    <bullet> Win-win incentives such as dual enrollment funding where 
both the schools and the community colleges are financially supported 
for their efforts.

    An area where critical attention and ``win-win'' incentives are 
critically needed now is in the area of assessing and preparing high 
school students to be ``college-ready'' so they are not required to 
attend remedial or developmental courses at the community college 
following high school graduation.
                       questions of senator enzi
    Question 1. Wyoming's seven community colleges are the backbone of 
the education and workforce development system in my great State of 
Wyoming and have strong relationships with local businesses. I would 
like to know how the Northern Virginia Community College works with 
employers to make sure the community college coursework will lead to 
credentials and certificates that are meaningful to those industries?
    Answer 1. NOVA's most powerful strategy in working with local 
businesses is through sector-based strategies. Currently we have three 
sector strategies under way: the health care system sector; the 
emerging energy and ``green'' industry sector; and the science, 
technology, engineering, and math-based business sector (STEM). In each 
of these sectors, the college president either personally leads or 
participates in a coalition of sector CEO's in commissioning a market 
demand study for jobs needed within the region. Based upon the results 
of that study, the coalition identifies the types of jobs where 
training is needed, sets targets for training and education outcomes, 
identifies and commits to raising the resources to meet those targets, 
sets the skill requirements for the projected job needs, and monitors 
progress in meeting those targets over time.

    Question 2. In our current economic climate, the Nation's community 
colleges are receiving more applicants than they have available slots. 
What will be some of the challenges for the community college system 
over the next 5 years in meeting the needs of job seekers and upgrading 
the skills of those already in the workforce?
    Answer 2. Expanding their capacity to meet growing demands is the 
major challenge for community colleges in the next 5 years, especially 
as they experience weakening State and local financial support. Many of 
the AACCs' recommendations for WIA reauthorization (attached) address 
the issue of how the system can better help colleges expand their 
training capacity in the face of growing demand. As Anthony Carnevale 
noted in his testimony before the committee, it may be a good idea to 
emphasize support for infrastructure more in a reauthorized WIA.

    Question 3. There is increasing focus on industry-recognized 
certifications that are stacked (increasingly levels of technical 
qualifications) and that carry academic credit. This represents the 
growing alignment between the employer, community and the post-
secondary education system. Do WIA administrators have access to 
information on industry-recognized certifications? Do they have access 
to those that are stackable and those that carry academic credit? If 
not, what recommendations do you have for ensuring quality data that is 
reliable and valid on industry-recognized certifications?
    Answer 3. Many Workforce Investment Act administrators, especially 
leaders in their local business community and those with close 
partnerships with the higher education community, understand the 
importance of industry-recognized certifications and the alignment 
between the employer and the post-secondary education system. This 
focus on industry certifications is especially important in regions 
with growing occupations in industries needing workers with technical 
expertise, but not necessarily a 4-year college degree. But most WIA 
administrators are not experts in post-secondary or higher education 
requirements in creating those stackable credentials or the challenges 
in identifying and retaining students within those programs. Therefore, 
the need for post-secondary educational institution representation on 
the local or State workforce board, to continually provide that needed 
level of expertise and involvement, is critically important.
    It is important for job seekers wishing to upgrade their skills 
with these increasing levels of technical qualifications, to understand 
how they, as a student, can work with their local community college or 
technical institute, to gain the certifications needed for a particular 
occupation. Educators must be actively engaged within the State or 
local workforce system to assure a broad understanding of identified 
credentials and the various pathways that can be followed to acquire 
those skills. Local WIA administrators must assure that these 
information sources are accessible to customers at the One-Stop Centers 
and that Center staff understand and can respond to questions, as 
needed.
                      question of senator mikulski
    Question. First, I'd like to thank Chairman Harkin for holding this 
hearing. Re-examining the ways in which our Federal workforce programs 
currently operate is vitally important, especially since State 
workforce systems across the country are facing acute, and in some 
cases, unfamiliar challenges with regard to education and training. My 
question is directed at Dr. Templin. You spoke briefly about how 
Community Colleges are viewed primarily as the ``trainers'' in our 
workforce development system, and that we on the committee should begin 
thinking about how community colleges could really be workforce hubs 
that are active partners in the workforce development system instead of 
just vendors. With that in mind, I realize that community colleges are 
facing some serious issues with regard to capacity, both organizational 
and physical. I know that the 16 community colleges in my home State of 
Maryland are receiving such a high number of applications that it 
threatens their ability to maintain their open-admission policies and 
low-cost tuitions: the very things that have made community colleges 
attractive for generations. We've been trying to address this issue of 
capacity over the past 5 years through the Community-Based Job Training 
Grants (CBJTG), which, as you know through experience, provides 
competitive grants to community colleges to train people for careers in 
high-growth, high-demand industries. Currently, those careers are 
mostly in the allied health professions, and we desperately need more 
nurses and technicians in our hospitals. So, if we consider how 
stretched and stressed community colleges are right now simply doing 
what they've been doing, what kinds of supports could we include in our 
reauthorization that would facilitate a move towards a fuller 
integration of community colleges in the workforce investment system?
    Answer. The American Association of Community Colleges (AACC) has 
developed a comprehensive set of recommendations for WIA 
reauthorization. Most of these recommendations directly answer this 
question, and I have attached them for your reference. (Attachment A) 
In brief, WIA should be authorized with an eye towards cementing the 
community college role in planning and executing workforce development 
strategies at the State, regional and local levels. Customer choice, as 
implemented in the Individual Training Accounts, should be better 
balanced with other types of ``cohort'' approaches that prioritize the 
use of community colleges for training, including direct support for 
community college training capacity at the national level, increased 
use of training contracts and sector initiatives like the ones funded 
by the Community-Based Job Training Grants. These approaches better 
address the real need that community colleges have for the support 
necessary to expand their training capacity. Finally, though their 
impact has been muted by DOL-granted waivers in many States, the 
subsequent eligibility requirements for training providers must be 
significantly altered. Public institutions of higher education should 
be automatically eligible to participate in the workforce system.
                      questions of senator murray
    Question 1. We know that increasingly people need some type of 
post-secondary degree, credential, or certification that has real value 
in the labor market to be successful in the long-term. This requires 
that our nearly 1,200 community colleges be responsive, flexible, and 
innovative. We know that you have developed such an institution in 
Northern Virginia.
    What are some principles from NOVA's success that could be applied 
more broadly to other community colleges?
    Answer 1. NOVA's success as an institution increasingly hinges upon 
its ability to partner with public school divisions, business and 
industry, workforce systems, and community-based non-profit 
organizations. The college must see its students and adult learners 
within the complexity of their life situations and partner with other 
organizations to see that wrap around support services are available. 
Similarly, the college must partner with regional businesses and 
workforce systems to create market-driven workforce training strategies 
that are synchronized with the business realities of the community. 
Appropriately executed, this partnership approach results in job 
training and education for family-sustaining career advancement for 
low-income workers and a sustainable resource of appropriately skilled 
workers who contribute to the economic vitality of their region and the 
competitiveness of the businesses that hire them.
    Below are some of the principles that guide such a partnership 
system:

    <bullet> Targeted Audiences: Programs target specific low-to-
moderate-income adult or youth audiences that would normally be 
unlikely to access college on their own;
    <bullet> Market-Driven: Occupational/Sectoral training focus driven 
by local employer needs and engagement;
    <bullet> Dual Outcomes: The overall program is designed to track 
achievement of new job/career advancement outcomes, as well as college 
or alternative credential attainment outcomes;
    <bullet> Career Advancement Credential(s): While learning new job 
skills for an immediate new career opportunity, programs build towards 
specified longer term college or alternative credentials for career 
advancement;
    <bullet> Support Services: Partners support the delivery of non-
instructional support services needed to achieve longer term life-
transforming outcomes;
    <bullet> College Process Re-Engineering: College identifies 
specific ways that it plans to adapt typical processes to serve the 
audience and program needs;
    <bullet> Academic Integrity: Programs must meet the college's core 
academic standards and external regulatory requirements;
    <bullet> Integration Plans: Programs identify specific roles for 
the college and partners in an integrated service delivery plan;
    <bullet> Sustainability: Partner organizations and the community 
college jointly own and share the burden for resource development and/
or resource-sharing plans that address long-term sustainability of the 
initiative; and
    <bullet> Scalability: Partner organizations work toward the 
development of solutions that may be piloted in small cohorts but that 
can scale once the need and solution are validated.

    Question 2. Your community college serves quite a large area. How 
do you work with the various workforce boards in northern Virginia?
    Answer 2. In Virginia, former Governor Tim Kaine and the General 
Assembly appointed the Virginia Community College System (VCCS) as the 
State's Workforce Investment Act grant recipient. As such, the local 
workforce boards follow policy guidance from State VCCS staff along 
with the private sector-led Virginia Workforce Council. This type of 
State leadership is quite conducive to smooth working relationships 
between local community colleges and local workforce boards in 
Virginia, as policy guidance and goals are consistent and well known.
    The area represented by NOVA is part of one labor market (northern 
Virginia) but also the Greater Washington region, which includes the 
District of Columbia and the State of Maryland. Workers and job seekers 
easily cross State boundaries in their pursuit of education, training 
and jobs. In northern Virginia, community college officials serve on 
the two (2) local Workforce Boards; one representing nearly 2 million 
residents and one representing roughly 300,000 residents. College 
representatives are actively engaged in Board policy considerations and 
NOVA is an Approved Training Provider in both workforce areas, in 
addition to the entire Commonwealth of Virginia. Because of the size 
and breadth of our course offerings, NOVA is usually the most active 
training provider in the region, receiving vouchers from Workforce 
Investment Act-eligible clients seeking to gain or improve job training 
skills. In fiscal year 2009, NOVA received over $285,000 in WIA 
vouchers; in fiscal year 2010, we are on track to receive $325,000.
    The college also works closely with both local workforce areas on 
independent grant funding solicitations, either with the college as the 
lead applicant or as a sub-grant recipient to the local board as the 
grant applicant. The college has been successful in receiving Federal 
Labor Community Job Training Partnership grant awards and have 
partnered with the local Boards in program implementation. We have a 
close working relationship with the Boards and their respective One-
Stop Center staff, which greatly expedites preparation of grant funding 
applications and working through any program issues.
    Further, our college and the local Workforce Boards can provide 
complimentary outreach and services to reach job seekers. For example, 
the Northern Virginia Workforce Investment Board has partnered with 
NOVA's Woodbridge Campus to develop and provide staff for a One-Stop 
Center on site at the campus. This initiative has helped our college 
students with having career development and job search assistance on 
our campus and the Workforce Board has expanded its outreach and 
services to an important population that might not necessarily enter a 
One-Stop Center located elsewhere in the community.
                       questions of senator reed
    Question 1a. There are more than 16,000 public libraries in the 
United States, most of which provide job/career information and 
resources, such as access to computers so that patrons can search for 
jobs and file for government services such as unemployment benefits; 
take classes on resume writing; and access business databases. In the 
economic downturn, libraries are a community resource increasingly in 
demand, especially by those who are unemployed.
    How can we better integrate libraries into our workforce system so 
that they receive the support they need to continue providing these 
services to the public?

    Question 1b. There is evidence that the unemployed are opting to 
use their local library for services that the One-Stops are designed to 
provide due to location or other reasons. One-Stops are also referring 
users to libraries for job assistance or collaborating with libraries 
to provide help to job seekers, such as in North Carolina.
    How can we support and expand these collaborations? Would co-
locating One-Stops within libraries better serve job seekers?
    Answers 1a and 1b. In an Associated Press news release on March 25, 
2010, a study funded by the Bill and Melinda Gates Foundation for the 
University of Washington Information School reported that one-third of 
all Americans 14 years or older, approximately 77 million people, use 
public computers primarily at libraries to look for employment or 
otherwise improve their lives. The Report also noted that for families 
living at or below the Federal poverty guidelines ($22,000 per year for 
a family of four), 44 percent report using computers at public 
libraries. The findings from this report are important in that it shows 
people across all age and ethnic groups use public library computers.
    In a poor economy, citizens appear to turn to their local public 
libraries to access information, seek assistance and look for 
employment. Regardless of the size of the State or local library system 
and its internal resources, several characteristics that are consistent 
across all libraries are that there are not sufficient numbers of 
computers or the patrons do not have enough time to fully utilize the 
existing computers. Library administrators also report that many 
patrons do not have adequate computer skills to be fully functional on 
the library computers, nor are sufficient library staff available to 
respond to customer needs. Further, many library staff are not 
sufficiently trained to adequately guide a job seeker using a library 
computer with their job search needs.
    It should be noted that the Institute of Museum and Library 
Services has funded a grant with the State Library of North Carolina 
(SLNC) to initiate Project Compass, a 1-year initiative to work with 
State libraries in support of public libraries' efforts to meet the 
urgent and growing demands of communities as they struggle with the 
loss of jobs and the needs of the unemployed. The key goals of Project 
Compass include: (1) supporting State library agencies in maximizing 
the effectiveness of local libraries providing services and outreach to 
unemployed residents; (2) to foster successful, ongoing collaboration 
among State library agencies; (3) to promote strategic partnerships 
with other organizations that serve the unemployed; and (4) increase 
awareness of library services and demonstrate the critical role 
libraries serve during times of economic crisis.
    Congress may wish to consider encouraging States and local library 
and workforce officials to align certain workforce services within a 
public library, possibly including designating space or computers 
specifically for job search and employment training purposes. In 
certain circumstances, workforce staff might be assigned to libraries, 
as affiliate workforce center sites, to meet the public where service 
demands are greatest.
                       question of senator brown
    Question. In Ohio, our community colleges have been first 
responders for our communities devastated by the loss of manufacturing 
jobs. Colleges such as Lorain Community College and Sinclair Community 
College have been at the center of economic development and retooling 
for their regions. Ohio created the Ohio Skills Bank, which is designed 
to align education and job training with economic development. One of 
the challenges our colleges have reported is identifying the stackable 
certificates that employers value and reward in the workplace and that 
will count towards a college degree. How have you identified the 
credentials that are valued in the workplace?
    Answer. Community colleges such as Lorain Community College and 
Sinclair Community College are national leaders in the community 
college field relating to workforce training. They would be among those 
institutions that understand that first and foremost, establishing 
market-valued post-secondary credentials must be a process driven by 
business, in collaboration with their education partners such as 
community colleges. Industry certifications are one growing trend that 
many community colleges infuse into their coursework, allowing workers 
both to obtain the knowledge and skills needed to obtain the 
certifications and to build up credits towards a certificate or degree. 
The information technology industry, for example, has been a leader in 
this area and has a well-developed system of industry certifications.
    In other industries that are not as far along, colleges sometimes 
work directly with businesses to identify discrete skill sets that then 
might comprise modules along the way to a degree program. The 
institution may offer certificates to signify completion of these 
steps.
    One other important element to this issue is the matter of what are 
often called, ``soft skills.'' There are a growing number of tools to 
measure and recognize when a worker has acquired certain sets of soft 
skills. Often completion of these units will be recognized by some sort 
of ``work readiness'' certificate that signifies to employers that the 
student has acquired the knowledge and tools to contribute in a work 
environment.
                       questions of senator hagan
    Question 1. Research shows that every 9 seconds in America, a 
student becomes a dropout. That being said, I believe that as we 
consider President Obama's challenge for our country--to gain an 
additional 5 million community college degrees and certificates by 
2020, it is critical to consider the role in which community colleges 
can play in reconnecting dropouts to the workforce. There is evidence 
that many GED recipients get their GED and just stop there. They do not 
recognize the value of or even think that they have the option of 
obtaining an Associates or even a 4-year degree. What are your thoughts 
on ways that we can support young adults who have dropped out of school 
to not only get a GED, but to understand how important it is to obtain 
a post-secondary degree?
    Answer 1. There are two promising ``best practices'' that are worth 
highlighting in responding to your question regarding post-secondary 
education opportunity for GED recipients:

    <bullet> Middle College: Middle College is a high school/GED 
completion program that is located on and integrated with the community 
college environment allows individuals without a high school degree to 
increase their income and employability by simultaneously pursuing a 
GED, community college education, and a workforce certification in a 
community college environment. The program offers targeted remedial 
courses, access to workforce readiness courses, enrollment in community 
college courses applicable to a degree or industry-based certificate, 
and comprehensive support services. Middle colleges now exist in some 
form in at least 20 States. In Virginia, results from our State's six 
middle colleges are that of those enrolled, over 70 percent of active 
students have received a GED; over 50 percent of GED completers are 
enrolled in a post-secondary education program; and nearly 60 percent 
of the GED completers earned a Career Readiness Certificate.
    <bullet> Year Up: Year Up is a 1-year, intensive training program 
currently offered in six U.S. cities that provides urban young adults 
18-24, with a unique combination of technical and professional skills, 
college credits (usually in cooperation with a local community 
college), an educational stipend and corporate internship. GED 
completers are eligible to participate in an information technology 
apprenticeship program and be paid during 1-year of learning. Success 
results to date include 100 percent placement of qualified students 
into internships, 83 percent student retention, 90 percent of interns 
meet internship partner expectations, and 87 percent of graduates are 
placed in full- or part-time positions within 4 months of graduation 
with $15 per hour average wage at placement.

    Question 2. North Carolina needs and wants to expand its training 
abilities for jobs that require a working knowledge of modern machines 
and programs, such as health care and advanced manufacturing. 
Unfortunately, it's also much more expensive to equip a facility to 
train those workers versus workers who do not need to be familiar with 
such expensive equipment--for example, it can be up to 50 percent more 
expensive to train someone in the field of health care. Can you share 
any thoughts about how we can help States pay for this kind of 
equipment and facilities when necessary to train workers to meet the 
needs of local businesses? Have other States confronted this issue, and 
if so, what are the lessons we've learned?
    Answer 2. What you have described, unfortunately, is the ongoing 
experience of most of America's community colleges. Federal programs 
from the Department of Education, National Science Foundation, and the 
Department of Labor's Community-Based Job Training Grants have been 
helpful, but woefully inadequate. In some communities, industry sector 
companies and organizations have teamed with local community colleges 
to make one-time purchases of expensive equipment and construction of 
facilities. In other instances, turning to the uses of technology-based 
simulations (expensive pieces of equipment themselves) have been 
options used. More typically though, most community colleges find 
themselves either using dated equipment and facilities or facing the 
reduction of programs requiring such specialized expenditures.

    Question 3. While the One-Stop system appears to have the very best 
intentions, my State has found it difficult to offer services in all 
rural locations at all times. Some of the entities that are located at 
a One-Stop Center might only be available certain hours of the day or 
certain days of the week. Some people in our State have started to 
offer virtual services to increase the availability in rural areas, and 
the option has been met with positive feedback, thus far. Have virtual 
One-Stops been attempted elsewhere in the country? If so, have they 
been successful? What are the lessons or guidance for Congress so we 
can encourage more innovation like this, either virtual programs or 
otherwise, with the goal of increasing availability to job seekers, 
particularly in rural areas?
    Answer 3. To assist me in answering this question, I have consulted 
with Ronald Painter, the Chief Executive Officer of the National 
Association of Workforce Boards, who is available for any followup 
questions in this area. Job postings are generally handled almost 
entirely on-line, so for that function many job seekers are able to 
find what they need without ever coming to a center.
    In addition to virtual centers, many areas also turn to their local 
libraries, which are far more numerous than One-Stop centers, for help 
in administering some of the One-Stop functions. Mobile offices are 
also used in these areas.
    While the use of virtual centers may provide some workers with 
easier access to services, there are some caveats. Surveys have 
suggested, for instance, that many people use a physical center because 
they feel more connected and comfortable ``talking'' to someone about 
their situations and options. So, virtual offices would need to have a 
good counseling system available. The Canadians have developed some 
good models of both eCounseling and eMentoring, so it is possible. On a 
similar note, proper assessment of the worker's needs can sometimes be 
difficult in a virtual setting, especially a full assessment of the 
worker's ``soft skills.''
                      questions of senator bennet
    Question 1. What role can business play in furthering workforce 
development? Are there on-the-ground examples of private sector 
initiatives that have helped to close skill gaps in our economy? Where 
do you think the law can be improved to foster more partnerships 
between business and workforce development providers? What are some 
ways that the private sector, government, non-profits and labor can 
partner in the development of our workforce?
    Answer 1. There are numerous examples of private sector initiatives 
aimed at closing skills gaps in the economy. One such example is the 
Walmart Workforce and Economic Opportunity Initiative, a 2-year $2.5 
million initiative sponsored by the Walmart Foundation. The initiative 
is administered by the AACCs' Center for Workforce and Economic 
Development in collaboration with the National Center on Education and 
the Economy. The purpose is to develop regional approaches to adult and 
post-secondary education, workforce, and economic development. Twenty 
community colleges will receive $100,000 in funding and technical 
assistance for 2 years. The aims of this program are to:

    <bullet> Improve leadership capacity of rural and remote college 
partnerships in response to regional labor-market needs.
    <bullet> Increase the number of community colleges coordinating 
education, workforce, and economic development to support regional 
growth.
    <bullet> Strengthen accountability.
    <bullet> Raise recognition of, and support for, education and 
workforce development as economic development tools.

    In reauthorizing WIA, we must make changes to the law to make the 
system more relevant to our business partners. Despite the fact that 
the law now mandates business leadership and majorities on the 
workforce investment boards, in some places the business community 
seems to feel that the boards are often too large, too bogged down in 
operational details, and not engaged in the high-level strategic 
planning that is the best use of the business partners' time. For this 
reason, Congress should re-examine what is in the law regarding the 
makeup of the boards and the language describing their missions and 
make any changes necessary to bring about the vision of the boards that 
was originally intended.
    WIA should also encourage more innovative structures for the 
delivery of services to workers and businesses alike. Sector-based 
strategies are one way to effectively keep the focus on what is needed 
by both of these constituencies in a structured and efficient way. 
These strategies should involve all the key stakeholders, including 
those cited in your question. The key advantage of approaching an 
area's workforce needs through the prism of a sector strategy, if done 
effectively, is that the system will better maintain the interest of 
the involved business community, as opposed to a more generalized 
workforce development strategy.

    Question 2. Do you find the current workforce development system to 
be responsive to emerging industries and employment opportunities in 
energy and health care? Do you find the training in these fields and 
resources required for such training to be different? Are there 
training models on the State level that we should replicate nationally?
    Answer 2. The current workforce development system, with its 
Federal funding and regulatory mandates layered with additional State 
funding and policy oversight, does not appear to respond quickly to 
emerging industries and employment opportunities in energy and health 
care. The clear focus of the current workforce development system is to 
align job seekers and businesses as efficiently as possible, in order 
to quickly train and transition unemployed workers into employment. 
Federal program performance measures, especially through the Workforce 
Investment Act (WIA), focus exclusively on job placement rates, 
compensation rates and retention, regardless of an existing or emerging 
industry.
    We know that the energy and health care industries are experiencing 
tremendous workforce challenges, as technology improves, demands 
continue to increase and the marketplace continues to evolve. The 
training requirements for both of these industries are a particular 
challenge as the workforce requirements are rapidly being updated, yet 
many education and training organizations are not able to stay current 
with updated marketplace demands. Funding constraints, especially on 
public-funded training institutions, limit our ability to lead students 
into emerging industry occupations without substantial funding support 
and leadership from private sector businesses who simply cannot wait 
for newly trained workers to materialize.
                                 ______
                                 
           Attachment A--AACC WIA Reauthorization Priorities
    In reauthorizing the Workforce Investment Act (WIA), Congress 
should reform the workforce system with the goal of providing workers 
access to the post-secondary education and training they need to 
support families in today's economy. In turn, businesses will be 
provided with the skilled workers they need to prosper. Currently, WIA 
and other workforce development programs are not doing enough to 
establish clear and multiple pathways to post-secondary education and 
training for workers, especially those with low-skill levels. To do 
this, the workforce investment system must spur greater degrees of 
innovation and collaboration between key stakeholders at all levels.
    Community colleges have had varied experiences under WIA. Some of 
them have played integral roles in the system by being active members 
of State and local workforce investment boards, hosting and running 
One-Stop Career Centers, and training great numbers of WIA 
participants. Other colleges, conversely, have played little or no role 
in the system, as addressed below. Too often, community colleges are 
mere vendors in a system in which they should be true partners.
    A successful workforce system cannot afford to underutilize 
community colleges in this way. Whether it be educating low-skilled 
adults and those with limited English proficiency and transitioning 
them to post-secondary education, developing and offering cutting edge 
occupational programs, working directly with businesses to help train 
their workers, or running programs that combine all three of these 
aspects and more, community colleges are a natural hub of the workforce 
development system.
    AACC urges Congress to give community colleges a central role in 
the WIA system. With the expected passage of the American Graduation 
Initiative early next year, the Administration and Congress will invest 
substantial resources in community colleges to help the Nation raise 
its level of higher education attainment. WIA reauthorization should be 
viewed as the next phase in serving that broader goal.
    Some States have already featured community colleges in their 
workforce development initiatives. On a national level, however, WIA is 
essentially agnostic as to training providers. Prioritizing the role of 
community colleges is key to strengthening the system overall. 
Community colleges are the closest thing this country has to a national 
network of ubiquitous, low-cost and high-quality training providers, 
and the WIA legislation should reflect that.
    Community colleges join other stakeholders in the workforce system 
in supporting new directions and innovations in the provision of 
services to WIA participants, including sector initiatives, regional 
partnerships, and above all greater alignment between programs, 
particularly WIA titles I and II.
    With this guiding principle in mind, the following are top issues 
for community colleges in WIA reauthorization.
        increase the quantity and quality of training under wia
    1. Provide More Support for the Expansion of Training Capacity: 
Community colleges place top priority on efforts to help students 
access post-secondary education and training. However, many community 
colleges are straining to serve all the students who are enrolling. In 
economic downturns such as the one we are now experiencing, double-
digit percentage increases in enrollment from 1 year to the next are 
the norm. These enrollment increases are often not covered by State 
appropriations, so colleges are forced to raise tuition (if they have 
that authority), cut expenses to the bone, or turn students away from 
their programs. Often, it will be a combination of all three. The 
average community college derives approximately 20 percent of its 
revenue through tuition and fees, which gives some idea of the 
percentage of the college's actual program costs that are covered by 
individual training accounts.
    Simply put, community colleges do not need to recruit to draw 
additional students, but those students place a great burden on the 
community college education and training services. Our member 
institutions further believe that they should be the primary provider 
of training services in the workforce development system. For this 
reason, AACC urges Congress to emphasize direct support for additional 
training capacity at community colleges in a reauthorized WIA. Without 
a Federal priority on developing this capacity, WIA participants will 
continue to face less effective, more expensive options if they wish to 
immediately access training. Businesses will struggle to find 
candidates with the skills that they need for available jobs.
    Congress can take some simple, but meaningful, steps in this 
direction under the current WIA structure:

    <bullet> First, it should authorize the Community-Based Job 
Training Grants (CBJTGs), which were created in 2004 in response to 
this capacity crunch. The CBJTGs are a sector initiative that is funded 
and is working. The program should be authorized as it was originally 
envisioned, namely a national competitive grant program that awards 
grants to community colleges, working in partnership with local WIBs, 
businesses and other key stakeholders to expand training capacity at 
the college and train workers for high-demand occupations.
    <bullet> Second, it should give local boards greater flexibility to 
utilize training contracts, especially with low-tuition training 
providers such as community colleges. This approach was taken in the 
American Recovery and Reinvestment Act because Congress recognized it 
as a way to expeditiously and effectively train workers and stimulate 
the economy. It should be made a permanent part of WIA.

    2. Encourage Innovative Modes of Delivering Training and Other 
Services: AACC also urges Congress to think more broadly about the most 
effective ways to deliver WIA funds at the regional and local level, to 
ensure the proper mix between assisting participant access to training 
and the development of training capacity.

    <bullet> Authorize Sector Initiatives: Sector initiatives bring 
together training providers, businesses, WIBs, economic development and 
other key partners to develop training programs and train workers and 
provide other services to help important local business sectors thrive. 
These initiatives are a particularly effective way of ensuring that 
workers are receiving training for available, good jobs. WIA should 
provide State and local areas with ample space to design such 
initiatives that best suit their needs. However, community colleges 
should be key partners in any such program that receives WIA support. 
The CBJTG program provides a model that should be used when designing 
sector initiatives within the WIA formula programs.
    <bullet> Establish Incentive Grants to Reward Innovative and 
Effective Programs: Incentive grants should reward more than just 
meeting a numerical benchmark, but instead they should spur the 
innovative, effective and coordinated approaches devised at the State 
and local levels that other areas should emulate. Effective utilization 
of community colleges should be one factor in deciding the grant 
recipients.

    3. Remove Current Impediments to Quality Training

    <bullet> Eliminate the Sequence of Services: Many local areas 
proceed under the assumption that WIA participants must go through core 
and intensive services before they are able to access training. WIA 
should explicitly state that, when an initial screening shows that they 
would benefit from it, WIA participants are able to immediately access 
training.
    <bullet> Modify the Performance Indicators to Recognize Skill 
Attainment and Allow for Longer Term Training: The WIA performance 
indicators have a tremendous impact on the attitude of local boards and 
One-Stop Career Centers to the longer term training that many workers 
need, especially low-skilled workers. The current performance 
indicators, which put a heavy emphasis on job placement, retention and 
earning, are ``work first'' measures. They should be modified to count 
interim and progressive indicators of skill attainment, including 
measures of ``work readiness'' for very low-skilled workers.
    <bullet> Streamline Trainer Eligibility: Quality control of 
training providers should be retained. There remain many training 
providers of suspect quality who would like to participate in the 
system in hopes of attracting WIA participants and the training funds 
that come with them. However, eligibility requirements should not drive 
quality trainers away from the system. Numerous community colleges cite 
the current eligibility requirements as a reason for their limited or 
non-participation in the WIA system, especially the requirement to 
track non-WIA participants in any program they seek to make eligible.
    AACC supports the direction that legislation in previous Congresses 
took in regard to the trainer eligibility provisions, but believes that 
new legislation should take one more step. Public institutions of 
higher education should be deemed automatically eligible as training 
providers. These institutions are subject to accreditation, State 
performance requirements, and other Federal reporting requirements that 
are more than enough to ensure they meet a quality threshold for 
participation in the workforce system. They are not the providers of 
questionable quality and motives that eligibility requirements should 
seek to weed out.
    Automatic eligibility for public institutions of higher education 
is not a ``free pass'' for these providers, nor will it result in a 
loss of crucial information. The success of these training providers in 
serving WIA participants would still be tracked through the WIA 
performance measures, and this information would still be available to 
WIA participants who are choosing among training providers. However, 
the current statute seems to have blurred the issues of basic 
eligibility and performance measurement with its extensive and 
burdensome eligibility requirements.
      strengthen pathways to post-secondary education and training
    1. Adult Basic Education: The Nation's economy requires that an 
unprecedented number and percentage of the population enter and succeed 
in post-secondary education and training. Achieving these goals will 
require a multi-faceted effort on the parts of institutions, States and 
the Federal Government. This effort will only succeed if we are 
effective in reaching out to populations that are currently 
underrepresented in post-secondary education. In WIA reauthorization, 
Congress has a significant opportunity to assist this effort by 
providing support for increased linkages between adult basic education, 
workforce training and post-secondary education. The ABE to post-
secondary ``pipeline'' is vital to achieving the post-secondary 
participation rates that will be necessary to maintaining this Nation's 
quality of life. The recent increase in the number of States where the 
community college system administers the adult education program 
reflects this. To improve the functioning of the ABE to post-secondary 
pipeline, we recommend the following:

    <bullet> Add ``transition to post-secondary education and 
training'' to the purposes of the act and the definition of adult 
education, and clarify throughout the act that transition programs can 
and should be funded with adult education funds.
    <bullet> Require consultation between the eligible State agency 
under the Adult Education Act and other key WIA stakeholders, including 
the State community college system, both in the development of the 
State plan and in the awarding of grants or contracts to eligible 
providers.
    <bullet> Include a measure of the total number of people served by 
the adult education system who make the transition to post-secondary 
education and training in the performance accountability system.
    <bullet> Require eligible agencies to consider, when deciding on 
local grants and contracts, whether grantees offer post-secondary 
transition programs, with special consideration given to programs that 
are administered by an institution of higher education or take place on 
the campus of an institution of higher education.
    <bullet> In addition, AACC urges Congress to create a new national 
program that would nurture and disseminate innovative approaches 
bridging the current gap between adult basic education and post-
secondary education and training. Community colleges believe that there 
is a vital Federal role to play in spurring greater activity in this 
area. The Federal Government played a similar role in driving the 
development of high school/college dual enrollment programs, now a 
vital pathway to college for millions of students, through the former 
Tech Prep Demonstration program. We envision a similar approach here.
    <bullet> Finally, Congress should not view adult basic education 
only through the lens of title II. The need for these services is so 
vast that we must find ways to better integrate basic skills (including 
English language) and occupational training within the title I 
programs. Career pathways are an essential strategy to achieving these 
ends. Many of the recommendations above, especially modifying the 
performance indicators to allow for longer term training and awarding 
innovative training programs, would help with this.

    2. Youth Services: For the same reasons that apply to adult basic 
education, Congress must also prioritize youth programs that have 
strong connections to 
post-secondary education. Indeed, there is tremendous overlap in the 
populations served by the youth services and adult basic education 
programs when the youth age is extended to 24. Yet, despite what they 
have to offer, community colleges are even perhaps less involved in the 
youth programs than any other aspect of WIA. AACC urges Congress to 
apply its recommendations for bolstering the connection between adult 
basic education and post-secondary education to the youth programs as 
well.
                 improve wia governance and operations
    1. Streamline Workforce Boards: Congress should redouble its 
efforts to bring together key stakeholders in States, regions and 
localities to plan efficient and effective workforce and economic 
development activities. These partnerships should always include 
community college representation. The concept and the implementation of 
workforce boards must be flexible enough to adapt to any workforce 
development strategies that may play a greater role in a reauthorized 
WIA, such as the regional and sectoral initiatives that have shown 
tremendous promise. The authorizers must also carefully consider the 
stakeholders that truly need to be at the table when determining the 
minimum required board memberships. The partnerships that run 
successful regional and sectoral partnerships, including those under 
the WIRED initiative and the Community-Based Job Training Grants, 
should serve as models for modified board composition.
    Community college leaders report frustration with large boards that 
become mired in operational details rather than focusing on leadership 
at a higher level, as was originally intended. AACC believes that 
businesses should retain a strong role in these partnerships, but some 
colleges report that the business-majority requirement can create 
situations where business owners that are not truly qualified to help 
lead the community's workforce and economic development efforts are 
included on boards, simply to come up with the required number of 
businesses. This is especially the case in rural areas. Board 
membership should be strictly limited to high-level leaders at the 
respective institutions to ensure the proper focus on the big picture.
    2. Directly Support Infrastructure: The current system, which calls 
on partners to come together at the local level to contribute to the 
costs of running One-Stop centers, has not worked satisfactorily in 
many areas. However, proposals to divert funds from these partner 
programs at the State level are also unsatisfactory, particularly since 
most of the partner programs have suffered their own funding cuts in 
recent years. AACC urges Congress to authorize a line-item 
authorization for directly supporting the infrastructure of the Federal 
workforce development system.
    The goal of avoiding duplication of effort and inefficiency is 
laudatory, but not achieved through the forced marriage of partner 
programs. Post-Secondary Perkins Act and adult basic education funds 
support program improvement, not core and other services, so there is 
no redundancy between these programs and One-Stop services that is 
prevented by diverting funds from these programs into the One-Stop 
infrastructure. Instead, all a diversion of funds from these partner 
programs achieves is a diminution of their effectiveness.
    AACC is mindful of the potential pitfall that comes with a line 
item for infrastructure: that funding for this item would come at the 
expense of other WIA funding. However, if Congress believes the Federal 
workforce development system to be a worthy endeavor, and community 
colleges believe it is, then it should support it directly.
    3. Encourage Alignment of WIA and Community College Service Areas: 
One characteristic that many States and areas which enjoy high levels 
of community college integration into the workforce system is the 
alignment of community college and WIA local service areas. In many 
such instances, community colleges also house the One-Stop Career 
Centers, bringing a greater degree of coordination between the two 
systems. WIA should encourage States to adopt such alignments.
                       additional recommendations
    1. Increase Support for Entrepreneurship Programs: Heretofore 
primarily seen as an economic development activity, development and 
support of entrepreneurs must be a heightened priority in WIA. 
Community colleges offer certificate and degree programs for 
entrepreneurs and many directly support fledgling enterprises through 
business incubator initiatives. These activities are especially 
important in rural areas. A reauthorized WIA should allow training 
dollars to be used for entrepreneurial programs; remove any obstacles 
to using WIA resources, in tandem with economic development and other 
resources, to support entrepreneurial incubators and similar 
initiatives; and increase coordination with the Small Business 
Administration and other sources of Federal support for entrepreneurs.
    2. Effectively Utilize Labor Exchange Information: Timely and 
accurate information about available jobs and other labor market 
conditions is an essential tool for job seekers and workforce 
development providers alike. WIA should creatively integrate the 
effective use of services such as the public-private Jobs Central to 
more efficiently and effectively match applicants with jobs and help 
providers understand local labor markets better so they can design 
relevant training opportunities that lead to real jobs. Effective use 
of these systems would help move unemployment insurance recipients into 
jobs more quickly and help to identify those in need of more services.

    [Whereupon, at 12:41 p.m., the hearing was adjourned.]

                                   

      

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
